<html>
<title> - H.R. 624, H.R. 3640, H.R. 4109, H.R. 4334, H.R. 4484, H.R. 5319, H.R. 5958 AND H.R. 5987</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    H.R. 624, H.R. 3640, H.R. 4109,

                   H.R. 4334, H.R. 4484, H.R. 5319,

                        H.R. 5958 AND H.R. 5987

=======================================================================


                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, June 28, 2012

                               __________

                           Serial No. 112-118

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
74-876                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     Betty Sutton, OH
Tom McClintock, CA                   Niki Tsongas, MA
David Rivera, FL                     John Garamendi, CA
Scott R. Tipton, CO                  Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 28, 2012..........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
        Prepared statement on H.R. 5987..........................     4
    Heinrich, Hon. Martin, a Representative in Congress from the 
      State of New Mexico, Statement submitted for the record....   111
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan, Prepared statement of...................   112
    Lujan, Hon. Ben Ray, a Representative in Congress from the 
      State of New Mexico........................................     5
        Prepared statement of....................................     6
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California, Oral statement on H.R. 3640...........    51

Statement of Witnesses:
    Campbell, Elizabeth Ainsley, Executive Director, Nashua River 
      Watershed Association......................................   101
        Prepared statement on H.R. 5319..........................   102
    Cann, Kevin, Supervisor, Mariposa County, California.........    76
        Prepared statement on H.R. 3640..........................    78
    Carney, Hon. John, a Representative in Congress from the 
      State of Delaware, Oral statement on H.R. 624..............    44
    Carper, Hon. Tom, a U.S. Senator from the State of Delaware, 
      Oral statement on H.R. 624.................................    45
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, Oral statement on H.R. 4484.................    50
    Curtis, Hon. John, Mayor, City of Provo, Utah................    93
        Prepared statement on H.R. 4484..........................    95
    Denham, Hon. Jeff, a Representative in Congress from the 
      State of California, Oral statement on H.R. 3640...........    43
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Oral statement on H.R. 4109...........    39
    Garrett, Billy G., Commissioner, District 1, Dona Ana County, 
      New Mexico.................................................    64
        Prepared statement on H.R. 4109 and H.R. 4484............    66
    Johnson, Ronika, Resident, Mariposa, California..............    78
        Prepared statement on H.R. 3640..........................    80
    Knox, Victor, Associate Director for Park Planning, 
      Facilities and Lands, National Park Service, U.S. 
      Department of the Interior.................................     7
        Prepared statement on H.R. 624...........................    98
        Prepared statement on H.R. 3640..........................    75
        Prepared statement on H.R. 5319..........................    99
        Prepared statement on H.R. 5958..........................   100
        Prepared statement on H.R. 5987..........................     8
    Kolb, Ingrid, Director, Office of Management, U.S. Department 
      of Energy..................................................    10
        Prepared statement on H.R. 5987..........................    10
    McClenahan, Heather, Executive Director, Los Alamos 
      Historical Society.........................................    17
        Prepared statement on H.R. 5987..........................    19


                              ----------                              
                                                                   Page

Statement of Witnesses--Continued
    Pearce, Hon. Steve, a Representative in Congress from the 
      State of New Mexico........................................    47
        Prepared statement on H.R. 4334..........................    48
    Pena, James M., Associate Deputy Chief, National Forest 
      System, Forest Service, U.S. Department of Agriculture.....    88
        Prepared statement on H.R. 4109..........................    89
        Prepared statement on H.R. 4484..........................    93
    Petersen, Gary R., Vice President, Tri-City Development 
      Council (TRIDEC)...........................................    11
        Prepared statement on H.R. 5987..........................    12
    Rountree, Carl, Assistant Director, Bureau of Land 
      Management, U.S. Department of the Interior................    53
        Prepared statement on H.R. 4334..........................    54
    Rush, Matt, Executive Vice President, New Mexico Farm and 
      Livestock Bureau...........................................    62
        Prepared statement on H.R. 4334..........................    63
    Schickedanz, Jerry G., Chairman, People for Preserving Our 
      Western Heritage...........................................    56
        Prepared statement on H.R. 4334..........................    58
    Slavin, Timothy A., Director and State Historic Preservation 
      Officer, State of Delaware Division of Historical and 
      Cultural Affairs...........................................   107
        Prepared statement on H.R. 624...........................   108
    Smith, Ray, Resident, Oak Ridge, Tennessee...................    28
        Prepared statement on H.R. 5987..........................    29
    Tsongas, Hon. Niki, a Representative in Congress from the 
      State of Massachusetts, Oral statement on H.R. 5319........    40
    Turner, Hon. Robert, a Representative in Congress from the 
      State of New York, Oral statement on H.R. 5958.............    42

Additional materials supplied:
    Greater Las Cruces Chamber of Commerce, Letter submitted for 
      the record on H.R. 4334....................................    68
    List of documents retained in the Committee's official files.   113



                                  (IV)
                                     

LLEGISLATIVE HEARING ON H.R. 624, TO ESTABLISH THE FIRST STATE 
NATIONAL PARK IN THE STATE OF DELAWARE, AND FOR OTHER PURPOSES. 
``FIRST STATE NATIONAL HISTORIC PARK ACT''; H.R. 3640, TO 
AUTHORIZE THE SECRETARY OF THE INTERIOR TO ACQUIRE NOT MORE 
THAN 18 ACRES OF LAND AND INTERESTS IN LAND IN MARIPOSA, 
CALIFORNIA, AND FOR OTHER PURPOSES; H.R. 4109, TO DESIGNATE 
ADDITIONAL NATIONAL FOREST SYSTEM LAND IN THE LOS PADRES 
NATIONAL FOREST IN THE STATE OF CALIFORNIA AS WILDERNESS, TO 
MAKE CERTAIN WILD AND SCENIC RIVER DESIGNATIONS IN THAT 
NATIONAL FOREST, TO DESIGNATE THE CONDOR RIDGE SCENIC AREA, TO 
ADDRESS OFF HIGHWAY VEHICLE USE IN THAT NATIONAL FOREST, TO 
FACILITATE A LAND EXCHANGE WITH THE UNITED WATER CONSERVATION 
DISTRICT OF CALIFORNIA, AND FOR OTHER PURPOSES. ``LOS PADRES 
CONSERVATION AND RECREATION ACT OF 2012''; H.R. 4334, TO 
ESTABLISH A MONUMENT IN DONA ANA COUNTY, NEW MEXICO, AND FOR 
OTHER PURPOSES. ``ORGAN MOUNTAINS NATIONAL MONUMENT 
ESTABLISHMENT ACT''; H.R. 4484, TO PROVIDE FOR THE CONVEYANCE 
OF A SMALL PARCEL OF NATIONAL FOREST SYSTEM LAND IN THE UINTA-
WASATCH-CACHE NATIONAL FOREST IN UTAH TO BRIGHAM YOUNG 
UNIVERSITY, AND FOR OTHER PURPOSES. ``Y MOUNTAIN ACCESS 
ENHANCEMENT ACT''; H.R. 5319, TO AMEND THE WILD AND SCENIC 
RIVERS ACT TO DESIGNATE SEGMENTS OF THE MAINSTEM OF THE NASHUA 
RIVER AND ITS TRIBUTARIES IN THE COMMONWEALTH OF MASSACHUSETTS 
FOR STUDY FOR POTENTIAL ADDITION TO THE NATIONAL WILD AND 
SCENIC RIVERS SYSTEM, AND FOR OTHER PURPOSES. ``NASHUA RIVER 
WILD AND SCENIC RIVER STUDY ACT''; H.R. 5958, TO NAME THE 
JAMAICA BAY WILDLIFE REFUGE VISITOR CONTACT STATION OF THE 
JAMAICA BAY WILDLIFE REFUGE UNIT OF GATEWAY NATIONAL RECREATION 
AREA IN HONOR OF JAMES L. BUCKLEY; AND H.R. 5987, TO ESTABLISH 
THE MANHATTAN PROJECT NATIONAL HISTORICAL PARK IN OAK RIDGE, 
TENNESSEE, LOS ALAMOS, NEW MEXICO, AND HANFORD, WASHINGTON, AND 
FOR OTHER PURPOSES.
                              ----------                              


                       Thursday, June 28, 2012 D

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:10 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, McClintock, Noem, Hastings 
(ex-officio); Holt, Tsongas, and Garamendi.
    Also present: Representatives Denham, Fleischmann, and 
Lujan.
    Mr. Hastings. The hearing will come to order. And the Chair 
notes the presence of a quorum.
    First, I ask unanimous consent that two of our colleagues 
that are not members of this Subcommittee be allowed to sit at 
the dais: Mr. Denham from California, and Mr. Fleischmann from 
Tennessee.
    [No response.]
    Mr. Hastings. And without objection, both Members will be 
able to sit at the hearing.
    The Subcommittee on National Parks, Forests and Public 
Lands is meeting today to hear testimony on several bills that 
fall within our jurisdiction. Although today's hearing will 
cover several bills that are non-controversial, we will also 
take up some bills that have some controversy. Because many of 
the witnesses have asked to testify today, I remind everyone 
that their time limit is limited to five minutes.
    Under the rules, the opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any Member's opening statement at the hearing, if 
submitted to the clerk by the close of business today.
    [No response.]
    Mr. Hastings. And without objection, so ordered. We have a 
very busy day today, and I want to thank all the panels--this 
panel and ensuing panels--for complying with our request to 
move up the time period. We originally scheduled to start at 
10:00. But because there are a few activities going on that I 
think most of the Nation is focused on, we appreciate your 
moving this up today, so some schedules could be accommodate 
later on.
    The first bill that we will take up today is H.R. 5987, 
``To Establish the Manhattan Project National Historical Park 
in Oak Ridge, Tennessee, Los Alamos, California, and in my home 
State--or New Mexico, Los Alamos, New Mexico. I knew better 
than that, I apologize. There may be a Los Alamos in 
California, but we are not talking about that one. We are 
talking about the one in New Mexico. And, of course, in my home 
State, the Hanford Nuclear Reservation.
    I will recognize myself for fiveminutes.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Today's hearing on this proposed legislation 
has taken many years and the efforts of a great many dedicated 
individuals in several communities across the country that were 
integral to the successful development of the Manhattan 
Project. It is appropriate that we have a witness representing 
each of the three communities that would become sites of this 
historical park, so that they can provide this Committee and 
the Congress with their unique perspective on how best to 
preserve and share the story of the Manhattan Project, and the 
tremendous contributions and achievements of thousands of 
Americans who made it a success.
    As I mentioned, I represent the Tri-Cities in the State of 
Washington where Hanford is located. I can literally see 
Hanford site from my backyard. So much of my statement will 
focus on Hanford, the B Reactor, and their role in the 
Manhattan Project.
    To provide a little background to the Committee, Hanford's 
nuclear history began in the early 1940s, and played a pivotal 
role in our Nation's defense for more than 40 years. As part of 
the Manhattan Project, the secret World War II effort to 
develop and construct the first atomic bomb and the work done 
at Hanford was an integral part in ending the Second World War. 
Later, nuclear weapons production at Hanford helped provide the 
nuclear deterrents to win the Cold War that led to the demise 
of the Soviet Union.
    The B Reactor, specifically, was a key part of Hanford's 
nuclear production success. Only months after Enrico Fermi 
first demonstrated that a controlled nuclear reaction was 
possible, ground was broken on the B Reactor, which, amazingly, 
only 13 months later, became the world's first full-scale 
plutonium production reactor. As part of the Manhattan Project, 
the B Reactor produced the plutonium for the first-ever nuclear 
explosion, and later produced the plutonium for the bomb that 
helped end World War II.
    The community has worked hard over the years to protect B 
Reactor, and to prevent its demolition. In fact, at the end of 
the Cold War, when B Reactor faced the possibility of closure, 
the B Reactor Museum Association was formed to preserve the 
history of that reactor. Local groups, such as the Tri-City 
Industrial Development Council, or TRIDEC, the Tri-Cities 
Visitor and Convention Bureau, Hanford communities, and others, 
lent their support and persuaded leaders across Washington 
State to support the B Reactor preservation.
    Today, Hanford is a Department of Energy clean-up site. 
Under legally binding clean-up plans, Hanford's historic B 
Reactor would be destroyed at a cost to taxpayers of tens of 
millions of dollars. In the case of B Reactor, protecting and 
preserving history is expected to save money, while at the same 
time increasing public access.
    B Reactor tours currently offered by the Department of 
Energy routinely fill up within minutes. And when I say that, 
when they announce that a tour is available, generally within 
minutes that is filled up for that year. Credit is due to the 
local DOE leadership, who has worked each year to increase 
access. Thousands now visit on an annual basis from every 
state, and from countries around the world.
    Today many will correctly point out that each of the three 
locations included in this legislation have distinct facilities 
and unique logistical considerations. Some historic Manhattan 
Project facilities like B Reactor are very accessible today. 
Others could be made readily accessible, while others it will 
take time, and possibly a few more years, before regular access 
is possible.
    However, the goal of this bill is to preserve these pieces 
of history from destruction, and to facilitate and enhance 
public access. Clearly, the nature and location of these 
facilities, especially those located on secured Department of 
Energy sites, presents a challenge. And this legislation aims 
to address this by ensuring maximum flexibility as steps are 
taken now and in the future to allow more public access.
    As we consider this legislation today it is important to 
note that similar legislation has been introduced in the 
Senate. Over the past several months, efforts have been 
undertaken to bridge the differences in initial drafts by 
myself and Chairman Senator Bingaman of New Mexico. Very real 
progress was made, and a consensus reached on the approach of 
the bills. While some differences remain between the House and 
Senate bills, there is genuine bipartisan desire in both the 
House and the Senate to advance this proposal into law. And we 
will do everything we can to make it happen this year.
    I look forward to continuing to work with Senator Bingaman, 
with Senators Murray and Cantwell from my State, and my fellow 
sponsors of this legislation: Mr. Fleischmann from Tennessee, 
and Mr. Lujan from New Mexico.
    Now, I would really like to extend a special welcome to 
those who have traveled today, and specifically from Hanford, 
Oak Ridge, and Los Alamos, New Mexico--get that right--to 
appear here. And we will have a formal introduction later on.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
              Committee on Natural Resources, on H.R. 5987

    Today's hearing on this proposed legislation has taken many years 
and the efforts of a great many dedicated individuals in several 
communities across the country that were integral to the successful 
development of the Manhattan Project. It is appropriate that we have a 
witnesses representing each of the three communities that would become 
sites of this Historical Park, so that they may provide this Committee 
and the Congress with their unique perspective on how best to preserve 
and share the story of the Manhattan Project and the tremendous 
contributions and achievements of thousands of Americans who made it a 
success.
    In 2003, I introduced legislation directing the National Park 
Service to study preservation options for Manhattan Project sites. This 
legislation was signed into law the following year--enabling the Park 
Service to begin their work. The National Park Service ultimately 
recommended a Park Unit comprised of facilities at Hanford, Washington, 
Los Alamos, New Mexico and Oak Ridge, Tennessee to best tell the story 
of the Manhattan Project, and preserve and protect these national 
resources and pieces of our nation's history.
    Work on preservation efforts, though, started well before 2003. We 
are at this point today largely because of the continued hard work and 
dedication of key leaders in each of these local communities.
    I represent the Tricities where Hanford is located. I can literally 
see the Hanford site from my backyard, so much of my statement focuses 
on B Reactor and the other Hanford facilities in this legislation.
    The historical significance of Hanford's B Reactor's has long been 
recognized by those in the surrounding Tri-Cities community. With local 
support, B Reactor was declared a Civil Engineering Landmark in 1968 
and it was added to the National Register of Historic Places in 1992. 
In 2008, it was designated as a National Historic Landmark.
    The community has worked hard over the years to protect B Reactor, 
and to prevent its demolition. In fact, at the end of the Cold War, 
when B Reactor faced the possibility of closure, the B Reactor Museum 
Association was formed to preserve the history of the reactor. Local 
groups such as the Tri-City Industrial Development Council, the Tri-
Cities Visitor & Convention Bureau, Hanford Communities, and others 
lent their support and persuaded leaders across Washington state to 
support B Reactor preservation.
    To provide a little background to the Committee, Hanford's nuclear 
history began in the 1940's and played a pivotal role in our nation's 
defense for more than 40 years. As part of the Manhattan Project, the 
secret World War II effort to develop and construct the first atomic 
bomb, the work done at Hanford was an integral part of ending the War. 
Later, nuclear weapons production at Hanford helped provide the nuclear 
deterrence to win the Cold War and end to the Soviet Union.
    The B Reactor, specifically, was a key part of Hanford's nuclear 
production success. Only months after Enrico Fermi first demonstrated 
that a controlled nuclear reaction was possible, ground was broken on 
the B Reactor--which, amazingly, only 13 months later, became the 
world's first full-scale plutonium production reactor. As part of the 
Manhattan Project, the B Reactor produced the plutonium for the first-
ever nuclear explosion and later produced the plutonium for the bomb 
that helped end World War II.
    Today, Hanford is a Department of Energy cleanup site. Under 
legally binding cleanup plans, Hanford's historic B Reactor would be 
destroyed at a cost to taxpayers of tens of millions of dollars. In the 
case of B Reactor, protecting and preserving history is expected to 
save money, while at the same time increasing public access.
    I've had the opportunity to tour B Reactor numerous times and it 
truly is like stepping back into the 1940's. For those who didn't live 
through World War II, B Reactor tells the story of the time and of the 
workforce that contributed to our nation's defense for so many years, 
serving as an irreplaceable teaching tool for future generations.
    The B Reactor tours currently offered by the Department of Energy 
routinely fill up within minutes. Credit is due to the local DOE 
leadership who've worked each year to increase access each and every 
year. Thousands now visit on an annual basis, from every state and from 
countries far away.
    I'm especially pleased that in April the Department of Energy, for 
the first time, allowed schoolchildren under the age of 18 the 
opportunity to tour B Reactor. It's encouraging that over 500 children 
have toured the facility since then, demonstrating a real interest in a 
hands-on history experience. Again, credit for this achievement is due 
to the Richland Operations Office for making this happen and I commend 
their ongoing work on this initiative.
    Today, many will correctly point out that each of the three 
locations included in this legislation have distinct facilities and 
unique logistical considerations. Some historic Manhattan Project 
facilities like B Reactor are very accessible today, others could be 
made readily accessible, while others will take time and care, and 
possibly a few more years, before regular public access is possible. 
However, the goal of this bill is to preserve these pieces of history 
from destruction and to facilitate and enhance public access. Clearly, 
the nature and location of these facilities, especially those located 
on secured Department of Energy sites, presents a challenge and this 
legislation aims to address this by ensuring maximum flexibility as 
steps are taken now and in the future to allow more public access.
    As we consider this legislation today, it's important to note that 
similar legislation has been introduced in the Senate. Over the past 
several months, efforts have been undertaken to bridge differences in 
initial draft bills by myself and Chairman Bingaman. Very real progress 
was made and consensus reached on the approach of the bills. While some 
differences remain between the House and Senate bills, there is genuine 
bipartisan desire in both the House and Senate to advance this proposal 
into law--and to do everything we can to make that happen this year.
    I look forward to continuing to work with Chairman Bingaman, 
Senators Murray and Cantwell from Washington state and my fellow House 
sponsors of this legislation, Congressman Fleischmann representing Oak 
Ridge, and Congressman Lujan representing Los Alamos to establish the 
Park. We will all continue working together with local community 
advocates and leaders to accomplish our goal of ensuring these 
remarkable pieces of our history are preserved to tell the story of the 
Manhattan Project.
    Finally, I would like to extend a special welcome to those who have 
traveled here today from Hanford, Oak Ridge and Los Alamos to either 
appear as witnesses or join us in the audience. Thank you for coming 
and thank you for all your hard work and dedication.
                                 ______
                                 
    Mr. Hastings. With that, I yield back my time and recognize 
the distinguished gentleman from New Mexico, Mr. Lujan.

   STATEMENT OF THE HON. BEN RAY LUJAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Mr. Chairman, thank you very much, and thank you 
for your leadership on this effort, and taking so much time 
with you and the Majority staff to work with Chairman Senator 
Bingaman on making sure that we were able to proceed in a very 
productive manner, Mr. Chairman. So, again, thank you very much 
for your leadership.
    Good morning, and thank you to all the witnesses for being 
here today, especially Heather McClenahan from Los Alamos 
Historical Society, for being here to testify on H.R. 5987, 
``To Establish the Manhattan Project National Historical Park 
in Oak Ridge, Tennessee, Los Alamos, New Mexico, Hanford in 
Washington.'' Los Alamos National Laboratory, which is in my 
district, has played a large role in the Nation's history, as 
well as contributed to the country's national security.
    In its beginnings, Los Alamos Laboratory, known as Project 
Y, was conceived during the early part of World War II. The 
United States wanted to build an atomic explosive to counter 
the threat posed by the German nuclear development program. 
Today Los Alamos is one of the country's premier laboratories 
and has contributed greatly to modern physics, and has a great 
potential to be able to produce more engineers, great feats in 
our future in energy, science, and technology.
    We also have an opportunity more than 50 years after the 
creation of the laboratory to ensure that we tell the story of 
the Nuclear Age for both the good and the bad, and allow it to 
reflect on its own history, how it has changed the world and 
how we can move forward into the future, ensuring peace and 
prosperity for humanity.
    And, Mr. Chairman, there is a great opportunity, as well, 
as we look at the history of our national labs with the 
important contributions of the science, the physics, the great 
minds that were part of this project. But not to forget all of 
those that provided support in making sure that the building of 
these amazing complexes, families that have histories and ties 
to the land where these national labs were built and erected, 
and where the research took place.
    There is a young lady from my district, Mr. Chairman, a 
young lady that is completing her Ph.D. in her field that 
attended the same high school as I, that is doing a research 
project with many of these families, as well, some of which are 
her own family. And it is incredible to see the passion and the 
drive and the oral history that has been collected. And, so, we 
have a great interest in making sure that we preserve that, as 
well. Because, as we know, it is a story that is truly 
American. And I look forward to sharing this story with many 
when we open these areas under the National Park Service 
arrowhead.
    I am especially excited that we have our witnesses again 
here today, and we are going to be hearing on a wide range of 
bills, many dealing with designations for parks, rivers, and 
wilderness. We have a land conveyance for a well-known 
university icon in the West, the Mighty Y Mountain in Provo, 
Utah, and we are considering a study to include a once-polluted 
river to be part of the Wild and Scenic Rivers. Another bill 
would create a new national park in Delaware. By moving this 
bill forward we will be including a national park site in every 
State. And I believe their colonial history is an important 
part of other history and stories that we will hear today.
    So, I look forward to a successful hearing today, Mr. 
Chairman. Thank you again for your leadership. And I yield back 
the balance of my time.
    [The prepared statement of Mr. Lujan follows:]

      Statement of The Honorable Ben Ray Lujan, a Representative 
                in Congress from the State of New Mexico

    Mr. Chairman, colleagues, and witnesses, thank you for being here 
today for our subcommittee hearing.
    I am thrilled to be here when we address the bipartisan bill on the 
Manhattan Project National Historical Park.
    Since I am one of the co-sponsors, along with the committee chair 
and our fellow member from Tennessee, I believe this bill crosses party 
lines and districts.
    It is a story that is truly American and I look forward to sharing 
this story with many when we open these areas under the National Park 
Service Arrowhead.
    I am especially excited that we have so many witnesses from my home 
state today. I offer a special welcome to Ms. McClenahan from my 
district.
    Today we are hearing a wide range of bills, many dealing with 
designations for parks, rivers, and wilderness.
    We have a land conveyance for a well-known university icon in the 
west, the mighty Y Mountain in Provo, Utah.
    We are considering a study to include a once-polluted river to be 
part of the Wild and Scenic Rivers.
    Another bill would create a new national park in Delaware. By 
moving this bill forward, we will be including a national park site in 
every state. I believe their colonial history is as important as other 
stories we hear today.
    I look forward to a successful hearing today and I yield back the 
remainder of my time.
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his statement. And 
our first panel is a panel on--Mr. Fleischmann wanted to make 
the introduction. Is that correct, Mr. Fleischmann, you want to 
make the introduction of the witness from Oak Ridge, in lieu of 
an opening statement? Is that correct?
    Mr. Fleischmann. Yes, Mr. Chairman.
    Mr. Hastings. Good. Thank you very much. So our first panel 
today we have, in addition to the three members of the 
respective communities, we have Victor Knox, who is Associate 
Director for Park Planning, Facilities and Lands at the 
National Park Service. We have Ingrid Kolb, Director of Office 
of Management of U.S. Department of Energy, Heather McClenahan, 
Executive Director of the Los Alamos Historical Society, Gary 
Petersen, from the Tri-City Development Council, or TRIDEC, 
from my home State, and Mr. Ray Smith, whom I had an 
opportunity to meet when I was down in Oak Ridge.
    So, Mr. Knox, we will begin with you. And let me explain 
how those lights work. As I mentioned earlier, there is a 
number of bills, ensuing bills, later on. And again, I want to 
thank all of you for coming in earlier. But your full statement 
will appear in the record. But we have--as I mentioned, if you 
can confine your statements to five minutes, and the way those 
lights work, when the green light goes on you are doing 
exceedingly well. But when the yellow light goes on, that means 
you have one minute left. And when the red light comes on, 
that--you know, I would ask you to close up your thoughts, if 
you would.
    So, thank you very much. That is the way that works. And, 
Mr. Knox, we will start with you, and you are recognized for 
fiveminutes.

STATEMENT OF VICTOR KNOX, ASSOCIATE DIRECTOR FOR PARK PLANNING, 
FACILITIES AND LANDS, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Mr. Knox. Mr. Chairman, thank you for the opportunity to 
present the Department of the Interior's views on H.R. 5987. I 
would like to submit our full statement for the record, and 
summarize our--the Department's--position. The Administration 
supports H.R. 5987 with amendments. This bill would establish 
the Manhattan Project National Historical Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico, and Hanford, Washington.
    The development of the atomic bomb through the Manhattan 
Project was one of the most transformative events in our 
Nation's history. It ushered in the Atomic Age, changed the 
role of the United States in the world community, and set the 
stage for the Cold War.
    The park would be established by the Secretary of the 
Interior within one year, after entering into an agreement with 
the Secretary of Energy.
    We appreciate the language specifically providing for 
amendments to the agreement and a broad range of authorities 
for the Secretary of the Interior, as these provisions would 
give the National Park Service flexibility to shape the park 
over time, and maximize the promotion of education and 
interpretation related to the park's purpose. We look forward 
to implementing this legislation in cooperation with the 
Department of Energy.
    While we support H.R. 5987, there are some areas we would 
like to recommend amendments. Among our concerns is the bill 
language regarding the written consent of landowners, land 
acquisition limitations, and activities outside of the park. We 
are continuing to review the bill for any technical issues, and 
we would be happy to work with the Committee to develop the 
appropriate language, and we will provide our recommendations 
in the near future.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you might have.
    [The prepared statement of Mr. Knox follows:]

Statement of Victor Knox, Associate Director, Park Planning, Facilities 
 and Lands, National Park Service, U.S. Department of the Interior, on 
     H.R. 5987, A Bill to Establish the Manhattan Project National 
 Historical Park in Oak Ridge, Tennessee, Los Alamos, New Mexico, and 
              Hanford, Washington, and for Other Purposes.

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 5987, a bill to establish the 
Manhattan Project National Historical Park in Oak Ridge, Tennessee, Los 
Alamos, New Mexico, and Hanford, Washington, and for other purposes.
    The Administration supports H.R. 5987 with amendments. The 
development of the atomic bomb through the Manhattan Project was one of 
the most transformative events in our nation's history: it ushered in 
the atomic age, changed the role of the United States in the world 
community, and set the stage for the Cold War. This legislation would 
enable the National Park Service to work in partnership with the 
Department of Energy to ensure the preservation of key resources 
associated with the Manhattan Project and to increase public awareness 
and understanding of this consequential effort.
    H.R. 5987 would require the establishment of the Manhattan Project 
National Historical Park as a unit of the National Park System within 
one year of enactment, during which time the Secretary of the Interior 
and the Secretary of Energy would enter into an agreement on the 
respective roles of the two departments. The unit would consist of 
facilities and areas located in Oak Ridge, Los Alamos, or Hanford, as 
identified in the bill and determined by the Secretary of the Interior 
in consultation with the Secretary of Energy, except for the B Reactor 
National Historic Landmark in Hanford, which would be required to be 
included in the park. The National Historical Park would be established 
by the Secretary of the Interior by publication of a Federal Register 
notice within 30 days after the agreement is made between the two 
secretaries.
    The bill would authorize the Secretary of the Interior to acquire 
the named resources in Oak Ridge, Los Alamos, or Hanford. The bill 
would provide authority for the Secretary to enter into agreements with 
other Federal agencies to provide public access to, and management, 
interpretation, and historic preservation of, historically significant 
resources associated with the Manhattan Project; to provide technical 
assistance for Manhattan Project resources not included within the 
park; and to enter into cooperative agreements and accept donations 
related to park purposes. It would also allow the Secretary to accept 
donations or enter into agreements to provide visitor services and 
administrative facilities within reasonable proximity to the park. The 
Secretary of Energy would be authorized to accept donations to help 
preserve and provide access to Manhattan Project resources.
    H.R. 5987 is based on the recommendations developed through the 
special resource study for the Manhattan Project Sites that was 
authorized by Congress in 2004 and transmitted to Congress in July 
2011. The study, which was conducted by the National Park Service in 
consultation with the Department of Energy, determined that resources 
at Oak Ridge, Los Alamos, and Hanford, met the National Park Service's 
criteria of national significance, suitability, feasibility, and the 
need for Federal management for designation as a unit of the National 
Park System. H.R. 5987 assigns the respective roles and 
responsibilities of the National Park Service and the Department of 
Energy as envisioned in the study: the National Park Service would use 
its expertise in the areas of interpretation and education to increase 
public awareness and understanding of the story, while the Department 
of Energy would maintain full responsibility for operations, 
maintenance, and preservation of historic Manhattan Project properties 
already under its jurisdiction, along with full responsibility for any 
environmental and safety hazards related to the properties.
    Because the Department of Energy would maintain and operate the 
primary facilities associated with the Manhattan Project National 
Historical Park, the study estimated that the National Park Service's 
annual operation and maintenance costs for the three sites together 
would range from $2.45 million to $4 million. It also estimated that 
completing the General Management Plan for the park would cost an 
estimated $750,000. Costs of acquiring lands or interests in land, or 
developing facilities, would be estimated during the development of the 
General Management Plan. The Department of Energy has not yet assessed 
fully the operational difficulties in terms of security and public 
health and safety, applicable statutory and regulatory requirements, 
and the potential new cost of national park designation at the 
sensitive national security and cleanup sites.
    The Department anticipates that the initial agreement between the 
two Departments likely would be fairly limited in scope, given the 
bill's one-year timeframe for executing an agreement that would enable 
the Secretary of the Interior to establish the Manhattan Project 
National Historical Park. We appreciate the language specifically 
providing for amendments to the agreement and a broad range of 
authorities for the Secretary of the Interior, as these provisions 
would give the National Park Service the flexibility to shape the park 
over time and to maximize the promotion of education and interpretation 
related to the park's purpose.
    The flexibility is particularly important because managing a park 
with such complex resources, in partnership with another Federal 
agency, at three sites across the country, will likely bring 
unanticipated challenges. Fortunately, we have already begun a 
partnership with the Department of Energy regarding the Manhattan 
Project resources through our coordinated work on the study. If this 
legislation is enacted, we look forward to building a stronger 
partnership that will enable us to meet the challenges ahead.
    While we support H.R. 5987, there are some areas where we would 
like to recommend amendments. Among our concerns are the bill language 
regarding the written consent of owners; land acquisition limitations; 
and activities outside of the park. We are continuing to review the 
bill for any technical issues. We would be happy to work with the 
committee to develop the appropriate language and will provide our 
recommendations in the near future.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Hastings. I thank you very much. And because you did 
that in such a short time period, we do give out stars later 
on, and you will----
    [Laughter.]
    Mr. Hastings. I would now like to recognize Ingrid Kolb, 
the Director of Office of Management for the U.S. Department of 
Energy. You are recognized for fiveminutes.

STATEMENT OF INGRID KOLB, DIRECTOR, OFFICE OF MANAGEMENT, U.S. 
                      DEPARTMENT OF ENERGY

    Ms. Kolb. Well, thank you very much. I am hoping to earn a 
star, as well. I was considering just saying, ``Ditto,'' but I 
will say a little bit more than that.
    First of all, Mr. Chairman and Subcommittee members, it is 
a pleasure to appear before you to discuss the proposal on the 
table, the Manhattan Project National Historic Park, as 
represented in H.R. 5987. Just to cut to the chase, I will say 
that the Department of Energy supports the establishment of 
this park at the three sites: at Los Alamos, New Mexico and in 
Hanford, Washington, as well as Oak Ridge, Tennessee. The 
Department of Energy and the National Park Service have worked 
to come to this conclusion in partnership, and we look forward 
to working with the Park Service if this legislation is passed. 
And we will meet the timelines that are established in the 
legislation to make sure that the park is established in a 
timely manner.
    I will say that the Department has not yet had the 
opportunity to fully assess some of the operational challenges, 
in terms of security and public health and safety and 
applicable statutory and regulatory requirements, as well as 
the potential costs that may be associated with the 
establishment of the park. However, we do feel that the 
proposed legislation does provide us with the flexibility to 
meet those challenges. And again, we would work with the 
National Park Service and with the Subcommittee to make sure 
that those challenges can be addressed successfully.
    So, thank you for your leadership and the leadership of the 
Subcommittee in proposing this legislation. And that concludes 
my remarks. And hopefully I will get my star.
    [The prepared statement of Ms. Kolb follows:]

       Statement of Ingrid Kolb, Director, Office of Management, 
                U.S. Department of Energy, on H.R. 5987

    Mr. Chairman and Members of the Subcommittee, my name is Ingrid 
Kolb. I serve as the Director, Office of Management at the U.S. 
Department of Energy. As part of our programmatic responsibilities, the 
Office of Management coordinates cultural resources and historic 
preservation activities across the Department and is the lead office 
coordinating DOE participation in the proposed Manhattan Project 
National Historical Park. I am pleased to be here today to discuss the 
proposed park and H.R. 5987, a bill to establish the Manhattan Project 
National Historical Park.
    The Manhattan Project National Park Study Act, Public Law 108-340, 
directed the Secretary of the Interior, in consultation with the 
Secretary of Energy, to conduct a special resource study to determine 
the feasibility of designating one or more Manhattan Project sites as a 
unit of the National Park Service. A park, the legislation noted, would 
have to be compatible with ``maintaining the security, productivity, 
and management goals of the Department of Energy,'' as well as public 
health and safety. In preparing the study, the Department's Office of 
Management was an active partner with the National Park Service, and 
its staff participated fully, providing information, input, and 
comments.
    Following public meetings at the sites, extensive assessments of 
potential park boundaries and integrity of historical resources, the 
Department and the National Park Service agreed that a park was 
feasible, met the suitability requirement for creating a new park, and 
should be established. In October 2010, National Park Service Director 
concurred on the study, which contained the recommendation for a three-
site park in Oak Ridge Tennessee, Hanford, Washington, and Los Alamos, 
New Mexico, in partnership with the Department of Energy. The 
Department of Energy would continue to manage and maintain its 
properties and control access to them. The National Park Service would 
provide interpretation, consult with the Department on preservation 
issues, and establish a visitor center and station rangers in each of 
the three communities. In March 2011, the Deputy Secretary of Energy 
concurred on the findings of the study and provided assurances to the 
National Park Service that the Department would retain full access 
control to its properties in accordance with its missions and security 
requirements. ``The Department of Energy is proud of its Manhattan 
Project heritage and recognizes that this partnership with the National 
Park Service would bring one of the most significant events in 20th 
century America to a wider public audience.''
    The establishment of a National Historical Park will represent a 
new era for the Department of Energy, particularly in certain areas of 
our sites that have been largely off-limits to the public to date due 
to national security concerns and potential impacts to our ongoing 
missions. The Department has not yet assessed fully the operational 
difficulties in terms of security and public health and safety, 
applicable statutory and regulatory requirements, and the potential new 
cost of national park designation at our sensitive national security 
and cleanup sites. The proposed legislation, H.R. 5987, would give the 
Department of Energy and Department of the Interior the flexibility to 
establish the timeline, boundaries, and a suitable management plan for 
a National Historical Park that would allow us to ensure the 
continuance of public safety, national security, and the ongoing 
missions at our sites. We welcome the leadership of Chairman Hastings 
and the National Parks, Forests and Public Lands Subcommittee in 
telling this important story, and we look forward to working with you 
as this legislation advances.
    Again, thank you for this opportunity to testify before the 
Subcommittee. This completes my prepared statement. I would be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Hastings. You indeed did. Thank you very much.
    Ms. Kolb. You are welcome.
    Mr. Hastings. I very much appreciate that very much.
    We will now go to the witnesses of the respective 
communities, and we will start with Gary Petersen from my home 
State of Washington.
    And I will note, by way of introduction, he is the Vice 
President of TRIDEC, which is an industrial--or an economic 
development organization. But by way of history, he was 
stationed at then-Camp Hanford on Rattlesnake Mountain, 
overlooking the site. And the Rattlesnake Mountain is another 
issue that this Committee has dealt with, from a standpoint of 
access. So Gary knows that area very well, and he knows the 
views you can see from the top of Rattlesnake Mountain.
    So, with that, Gary, Mr. Petersen, recognize you for five 
minutes for your statement.

          STATEMENT OF GARY PETERSEN, VICE PRESIDENT, 
             TRI-CITY DEVELOPMENT COUNCIL (TRIDEC)

    Mr. Petersen. I am hopeful that I get the extra two minutes 
from each of the previous speakers, because----
    [Laughter.]
    Mr. Hastings. Hope is, you know, is always good, but it 
does not work that way.
    Mr. Petersen. Well, thank you, Mr. Chairman. And it is a 
pleasure to be here, speaking on behalf of this bill. And I 
want to thank both Congressman Lujan and also Congressman 
Fleischmann for cosponsoring the bill.
    I am here today to speak on behalf of the Tri-City 
Development Council, also the Tri-City Visitor and Convention 
Bureau, the Hanford Communities, and B Reactor Museum 
Association. But I want to do something a little bit different, 
and I want to say I am also here to speak on behalf of the 
roughly 1,500 people who were moved off of that site in 1942. 
And I am also here to speak on behalf of the 50,000 people who 
showed up on that site to build the buildings on the site.
    So, as I speak, we know the names of Enrico Fermi. We know 
the name of Robert Oppenheimer and Hans Bethe. But I also want 
to speak about the people who built this thing, including my 
father-in-law, Herman Francis Toner. When I say this, it 
becomes emotional, because these people came from all over the 
United States and the world to build the project. And in order 
to build that project, they had to start by building 
dormitories, mess halls, the sewage treatment plant. There had 
to be people who were stewards, who were bus drivers, who were 
engineers, who were physicists. And it is an amazing feat, when 
you consider the dates.
    August 13, 1942 was the formation of the Manhattan Project, 
August 13, 1942. August 14, 1945, the war was over. What 
happened in between that period and what happened to the 
families is an astounding piece of work.
    I brought with me today two--and I am very pleased that the 
Chairman is here--I brought a letter from the Brugaman family. 
I have not opened this envelope, but I am turning it over to 
Congressman Doc Hastings. It is in support of this bill, but 
the only remaining structure on the site that was private is 
the Brugaman Ranch. It is a hand-placed stone building. Doc has 
been out there to see this hand-placed stone building. The 
craftsmanship is so well done that when you look at the 
chimney, the chimney has a face built in to the chimney on all 
four sides. It is the only remaining structure from the private 
enterprise. So, Doc, I have a letter for you on that.
    As we talk through this, though, remember that they had to 
build this with no aid of computers. They had slide rules, they 
had hand-drafted blueprints. And my understanding is that the B 
Reactor, which was built, start to finish, in 11 months, was 
done before the last blueprints came off of the drawing board.
    So, as you do this bill, I want you to remember the 
individuals who did this work, and remember that some of them 
are now--their third generation is still working on the site. 
And, so, the same is true of my compatriots in these two 
communities. It is a--we want this bill to pass, we support 
this bill. We have tremendous support on the part of the 
communities. We have been working on this effort for more than 
two-and-a-half years. B Reactor is something that needs to be 
saved, but so are the other historical properties on site.
    With that, Mr. Chairman, I think I conclude my remarks. My 
written testimony is in. Thank you very much.
    [The prepared statement of Mr. Petersen follows:]

  Statement of Gary R. Petersen, Vice President, Tri-City Development 
   Council (TRIDEC), on H.R. 5987, on behalf of Tri-City Development 
  Council (TRIDEC), Tri-Cities Visitor and Convention Bureau, Hanford 
               Communities, B Reactor Museum Association

    Mr. Chairman and Members of the Subcommittee:
    I thank you for inviting me to testify on H.R. 5987, a bill to 
establish the Manhattan Project National Historical Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico, and Hanford Washington. I also would 
like to thank the full-Committee Chairman, Representative Doc Hastings, 
the sponsor of the legislation, along with Representatives Ben Ray 
Lujan and Chuck Fleischmann for co-sponsoring this bill.
    I am Gary Petersen, Vice President of the Tri-City Development. 
TRIDEC is the lead economic development organization serving a two-
county region in southeastern Washington State. The Tri-Cities has a 
population of 258,400 and includes the communities of Kennewick, Pasco, 
Richland and West Richland and the counties of Benton and Franklin.
    I am here today to speak in favor of H.R. 5987 on behalf of the 
Tri-Cities Community in Washington State, and in support of community 
organizations in Oak Ridge, Tennessee and Los Alamos, New Mexico. All 
three of our communities have passed resolutions supporting the 
Manhattan Project National Historical Park, and we have been united in 
our support of this bill.
Support for H.R. 5987
    It is easy for those of us who live in the communities of Oak 
Ridge, Los Alamos and the Tri-Cities to say that the Manhattan Project 
changed the world.
    On August 13, 1942 the Manhattan Project was established. Three 
years and one day later, August 14, 1945, the War was done!
    In between those dates, more than 100,000 men and women were 
brought to these three sites from all over the world. The majority of 
these young men and women had no idea what they were building.
    At Hanford, more than 2,000 residents--mostly farmers--were given 
just days to weeks to move off their land. This included moving, 
getting rid of thousands of animals, all the farm equipment and most 
importantly closing schools and moving families--lock-stock-and barrel!
    Once the land was acquired by the government, the workers had to be 
found--engineers, physicists, chemists, carpenters, electricians, iron 
workers, cement masons and a multitude of office workers, cooks, 
guards, and truck drivers. These same individuals first had to build 
their own town with dormitories, mess halls, water, sewer, roads and 
railroads. This had to be done BEFORE they could start construction on 
reactors, nuclear fuel manufacturing and chemical separation 
facilities. At Hanford, the construction camp quickly became the third 
largest town in the State of Washington, with 50,000 construction 
workers.
    Hanford construction stretched the imagination. Housing for 50,000 
men and women; 386 miles of highway (including Washington State's first 
four-lane highway); 780,000 yards of concrete, and 158 miles of 
railroad track.
    All of this was done without the aid of computers! These were the 
days of slide-rules and handcrafted blueprints!
    Equipment, electronics and piping could not be bought off-the 
shelf. For the most part everything had to be fabricated on the Hanford 
site.
    B Reactor itself, the world's first full-scale nuclear reactor, was 
built in just 11 months start-to finish. The design was based on the 
success of Enrico Fermi's ``Chicago Pile 1;'' and a pilot plant, the X-
10 graphite reactor located in Oak Ridge, Tennessee. B Reactor was 
designed to produce 250 million watts, a million times more powerful 
than Chicago Pile 1, which produced the first ever sustained nuclear 
fission chain reaction under the bleachers at the University of 
Chicago's Staff Field in December of 1942.
    Most of the workers brought in to these three sites were among the 
most talented in their respective fields, whether it was physics or 
pipefitting. While we recognize the names of Enrico Fermi, J. Robert 
Oppenheimer and Hans Bethe, we also need to give recognition to 
individual workers, many of whom stayed on the job and in these 
communities after 1945.
    These are engineering feats and accomplishments that must be told 
to future generations! And, it needs to be told before all of the 
``old-timers'' are gone.
    As these three sites in Oak Ridge, Los Alamos and Hanford are being 
cleaned up, and many buildings are demolished and removed, the history 
of scientific and engineering achievement at the birth of the Atomic 
Age must be preserved.
    The National Park Service, as it does with all of its sites, 
interprets the sites, and attempts to address ALL viewpoints to give a 
full and fair picture. We support such actions. This will not be a park 
that gives just a nuclear weapons viewpoint. We believe it is more 
about the thousands of men and women who built buildings, equipment and 
processes that became a turning point in the history of the United 
States and the world. The science of the Manhattan Project has 
transformed contemporary society with significant contributions in 
fields such as nuclear medicine, industrial isotopes, and 
nanotechnology. This historic park will tell all sides of the story of 
what occurred at Oak Ridge, Los Alamos and the Hanford/Tri-Cities area, 
as was identified in the National Park Service Special Resource Study 
released last year.
    Our three communities have collectively worked toward this 
legislation for more than three years. In this process, we not only 
partnered with each other, but we also worked closely with the 
Department of Energy, the Department of the Interior, the Atomic 
Heritage Foundation, the National Parks Conservation Association, State 
Historical Preservation Officers, the National Trust for Historic 
Preservation and the Energy Communities Alliance.
    There is no question of the importance of creating this new 
national park, nor of the public interest to view these former 
``secret'' sites and preserve them for future generations.
    At Hanford, DOE hosted 8,000 visitors to B Reactor last year. These 
visitors came from all 50 states, and from 48 foreign countries. These 
numbers were the result of only ONE announcement by DOE that 8,000 
seats to B Reactor would be open to the public last summer. The tours 
filled in less than 5 hours. This year DOE has increased the number of 
seats to 10,000. Unlike the National Park Service, DOE (except for the 
single announcement) does not advertise its tours.
    These visitor numbers also clearly demonstrate that designating 
these three sites as the Manhattan Project National Historical Park 
will create jobs and provide an economic development benefit for all 
three communities. Such designation will come at a time when all three 
communities are seeing downturns in federal employment as these sites 
are being cleaned up. Cleaning up these sites, and opening them to 
public viewing is of major importance to three communities that have 
been supporting national security missions since 1943.
    The Manhattan Project National Historical Park at Oak Ridge, Los 
Alamos and Hanford is critical to the preservation of perhaps the most 
historic event of the 20th Century.
    Our community encourages you to move forward with this legislation 
this year. We have unanimity of our communities that the Park should be 
established in the near term in order to honor our Manhattan Project 
and Cold War veterans.
    We urge Congress to pass this National Park legislation. Thank you 
again for the opportunity to testify, and I look forward to responding 
to your questions.
Attachments:
        Community Support Letter, May 8, 2012

        [GRAPHIC] [TIFF OMITTED] 74876.008
        
        [GRAPHIC] [TIFF OMITTED] 74876.009
        
        [GRAPHIC] [TIFF OMITTED] 74876.010
        
        [GRAPHIC] [TIFF OMITTED] 74876.011
        
                                 
                                 
    Mr. Hastings. Thank you very much, Gary, I appreciate your 
testimony. And I know I share the passion with you, because I 
have been with you out at the site.
    Next we will hear from Heather McClenahan, the Executive 
Director of the Los Alamos Historical Society. You are 
recognized for fiveminutes.

               STATEMENT OF HEATHER McCLENAHAN, 
       EXECUTIVE DIRECTOR, LOS ALAMOS HISTORICAL SOCIETY

    Ms. McClenahan. Thank you, Mr. Chairman, Congressman Lujan, 
and members of the Committee, for allowing me to testify today. 
I am Executive Director of the Los Alamos Historical Society, 
and among our many activities we operate the Los Alamos 
Historical Museum, and own in a life trust the World War II 
home of Dr. J. Robert Oppenheimer, scientific director of the 
Manhattan Project. Speaking about the history of Los Alamos is 
a passion of mine.
    I am here in support of H.R. 5987, a bill to establish the 
Manhattan Project National Historical Park. First, let me say 
how pleased we are that the National Park Service and Congress 
have recognized the magnitude of the history of the Manhattan 
Project. Historians have called it the most significant event 
of the 20th century.
    I have three points to make today: one, why this history 
should be commemorated in a national park; two, why it will 
have a positive impact on Northern New Mexico; and three, why 
partnerships are critical to making this park a reality.
    In 2007, recognizing the impact of a possible national park 
to our community, the Los Alamos County Council appointed an ad 
hoc committee to determine what a park might look like in Los 
Alamos. I served on that Committee, and the details of our 
recommendations are in my written testimony. In summary, we 
envisioned a downtown National Park center where guests would 
learn about the Manhattan Project and then be sent to existing 
venues at the laboratory and throughout the community to learn 
more, a recommendation that the Park Service adopted in its 
final report to Congress.
    Tied together under the auspices of a national park, the 
Manhattan Project industrial sites at Los Alamos, Oak Ridge, 
and Hanford, along with the places where the soldiers and 
scientists lived and formed communities will create a full 
picture of the history.
    Some critics have said that a national park dedicated to 
the Manhattan Project will glorify the atom bomb or create a 
theme park for weapons of mass destruction. I disagree. I have 
never visited a national park that was anything like a 
Disneyland. In fact, the National Park Service, of all 
government agencies, is the most trusted for telling complete 
stories: the good, the bad, the painful, and the poignant. 
Parks and monuments that commemorate battles or massacres do 
not celebrate ugly moments in American history. They teach us 
about them, and they help us, as a Nation, to reflect and 
learn.
    So, in the rich tradition of the National Park system, the 
Manhattan Project National Historical Park will need to include 
stories about the devastation in Hiroshima and Nagasaki, the 
environmental damage, and the fear of atomic annihilation that 
are its legacies, along with the stories of great technical and 
scientific achievement, and the decisive ending of World War 
II. The Nation needs to understand the Manhattan Project from 
all sides, and the Park Service can do that.
    My second point is that the Manhattan Project National 
Historical Park will provide economic benefits to Northern New 
Mexico. With, by the Park Service's own estimates, thousands of 
additional annual visitors, Los Alamos will need workers not 
only in tourism and service industries, but construction and 
other related businesses. As our ad hoc committee suggested, 
the story of the Manhattan Project isn't just about world-class 
scientists. As Congressman Lujan pointed out, the story 
includes people from the rural communities and pueblos 
surrounding Los Alamos, mostly Native Americans and Hispanics 
who provided the backbone of the labor force that built the 
laboratories and facilities, cleaned the houses, and drove the 
trucks.
    The Manhattan Project forever changed Northern New Mexico. 
And, in fact, the Manhattan Project National Historical Park 
will once again transform these communities, creating an 
economic driver based on heritage tourism that provides jobs, 
educational opportunities, and improved futures to 
traditionally under-served communities.
    Third, and finally, we appreciate with enthusiasm the 
statement in section three of this bill that one purpose of the 
park is to assist the Department of Energy and other interested 
parties in efforts to preserve and protect the historically 
significant resources that remain from the Manhattan Project. 
It is something we have been working on for 50 years. 
Partnerships and cooperative agreements between agencies, non-
profit groups such as ours, and even private property owners, 
will make this park happen, bringing together widespread 
resources for the benefit of our Nation, much like the 
Manhattan Project did years ago.
    In sum, the Los Alamos Historical Society and our community 
partners fully support the establishment of the Manhattan 
Project National Historical Park in order to preserve and teach 
this history. We believe that it will have economic benefits 
for Northern New Mexico, and we are heartened to see the 
Department of Energy willing to work with the Department of the 
Interior and other partners to make this world-changing history 
accessible.
    At its heart, the story of the Manhattan Project is an 
amazing episode of our great Nation's history. It brought 
together the brightest scientists, many of them immigrants who 
came to this country seeking freedom. They faced pressure to 
end the world's most horrible war by creating something that 
had only been theory. It is a story about young people with a 
can-do spirit who brought about great technological and 
scientific achievement. It is a story of unleashing a 
mysterious force of nature, and fostering fear and uncertainty 
about the future of humankind. It is a story about creativity 
and about destruction. It is a scientific story, a soldier 
story, a spy story, and a human story.
    The story of the Manhattan Project is one that, from the 
perspectives of all who participated and all who were affected, 
must be told.
    Again, thank you for allowing me to testify, and I will be 
pleased to entertain questions.
    [The prepared statement of Ms. McClenahan follows:]

    Statement of Heather McClenahan, Executive Director, Los Alamos 
   Historical Society, on H.R. 5987, The Manhattan Project National 
                            Historical Park

Summary:
    Historians have called the Manhattan Project the most significant 
undertaking of the 20th century. Employing hundreds of thousands at its 
peak, located in widely scattered, secret communities, the project 
brought an end to World War II and ushered in the atomic age. As an 
organization that has preserved Manhattan Project history for nearly 
fifty years, the Los Almos Historical Society is pleased to support 
this legislation.
    Key points in our testimony include:
        <bullet>  The significance of this history and why it should 
        justify a national historical park
        <bullet>  The broad support and cooperation this park has 
        generated
        <bullet>  The positive economic impact the park will have on 
        northern New Mexico
        <bullet>  The importance of partnerships in making this park a 
        reality
    At its heart, the story of the Manhattan Project is an amazing 
episode of our great nation's history. It brought together the 
brightest scientists, many of them immigrants who came to this country 
seeking freedom. They faced pressure to end the world's most horrible 
war by creating something that had only existed in theory. It is a 
story about young people with a can-do spirit who brought about a great 
technological achievement. It is the story of unleashing a mysterious 
force of nature and of fostering fear and uncertainty about the future 
of humankind. It is a story about creativity and about destruction. It 
is a scientific story, a soldier's story, a spy story, and a human 
story. The story of the Manhattan Project is one that, from the 
perspectives of all who participated and all who were affected, must be 
told.
    The Los Alamos Historical Society appreciates the Committee on 
Natural Resources' Chairman Doc Hastings leadership in considering H.R. 
5987, the Manhattan Project National Historical Park. We are also 
grateful for the leadership of Congressman Lujan and Congressman 
Fleischmann.
    I am Heather McClenahan, executive director of the Los Alamos 
Historical Society a non-profit organization whose mission is to 
preserve, promote, and communicate the remarkable history and inspiring 
stories of Los Alamos and its people for our community, for the global 
audience, and for future generations. Among our many activities, we 
operate the Los Alamos Historical Museum and own, in a life trust, the 
World War II home of Dr. J. Robert Oppenheimer, scientific director of 
the Manhattan Project. As the owner of this home in the Los Alamos 
Historic Distirct, we are property owners within the potential boundary 
of the park. Additionally, helping to establish the Manhattan Project 
National Historical Park is one of seven planks in our strategic plan.
    My testimony is in support of S. 3300, a bill to establish the 
Manhattan Project National Historical Park. As long-time keepers of the 
history of Los Alamos, we fully support this bill's efforts to 
``enhance the protection and preservation of such resources and provide 
for comprehensive interpretation and public understanding of this 
nationally significant story in 20th century American history.''
    I will make four key points. One, why this history should be 
commemorated in a national park; two, the broad community support this 
park enjoys; three, why this will have positive impact on northern New 
Mexico; and four, why partnerships will be critical to making this park 
become a reality. In 2007, recognizing the impact of a possible 
national park on our community, the Los Alamos County Council appointed 
an ad hoc committee to determine what such a park might look like in 
Los Alamos. I served on that committee, and the details of our 
recommendations are included in pages seven through nine of this 
document. In summary, we envisioned a downtown national park visitor 
center where guests would learn about the Manhattan Project and then be 
sent to existing venues to learn more, a recommendation the National 
Park Service adopted in its final report to Congress.
    Tied together under the auspices of a national park, the Manhattan 
Project industrial sites in Los Alamos, Oak Ridge, and Hanford, along 
with the places where soldiers and scientists lived and formed 
communities, will create a full picture of the history.
    Some critics have said that a national park dedicated to the 
Manhattan Project will glorify the atomic bomb or create a theme park 
for weapons of mass destruction. I disagree. I have never visited a 
national park that was anything like a Disneyland. In fact, the 
National Park Service, of all government agencies, is the most trusted 
for telling complete stories from all sides--the good and bad, the 
painful and the poignant. Parks and monuments that commemorate battles 
or massacres do not celebrate ugly moments in American history. They 
teach about them; they help us, as a nation, to reflect and learn.
    So, in the rich tradition of our national park system, the 
Manhattan Project National Historical Park will need to include stories 
about the devastation in Hiroshima and Nagasaki, environmental damage, 
and the fear of atomic annihilation that are its legacies, along with 
the stories of great technical and scientific achievement and the 
decisive ending of World War II. The nation needs to understand the 
Manhattan Project from all sides.
    The communities called out in this legislation--Los Alamos, Oak 
Ridge, and Hanford--fully support this park. In 2008, our ad hoc 
committee held public meetings in Los Alamos as well as meetings with 
potential partners, from tour guides to the nearby pueblos. After some 
initial--and false--concern that the park service might take over the 
iconic Fuller Lodge in downtown Los Alamos as a park headquarters was 
resolved, the community came out fully in support of the park. The 
County Council passed a resolution to that effect in February 2010 (see 
pages ten and eleven of this document), and, most recently, a group of 
community leaders sent a letter to Senators Bingaman and Udall as well 
as Congressman Lujan in support of this legislation (pages twelve and 
thirteen of this document). We have had several meetings with our 
counterparts in Hanford and Oak Ridge to discuss park possibilties. In 
short, we are excited about this park and are happy to assist the 
Department of Interior, the Department of Energy, Los Alamos National 
Laboratory, and others to make it happen. We believe it will be a 
benefit not only to Los Alamos but to nearby communities, as well.
    That leads to my third point, that the Manhattan Project National 
Historical Park will provide economic benefits to northern New Mexico. 
With, by the Park Services own estimate, hundreds of thousands of 
additional annual visitors, the region will need workers not only in 
tourism and service industries but in construction and other related 
industries.
    As our ad hoc committee suggested, the story of the Manhattan 
Project isn't just about world-class scientists. The story includes 
people from the rural communities and pueblos surrounding Los Alamos, 
mostly Native Americans and Hispanics, who provided the backbone of a 
labor force that built and maintained the laboratories and facilities, 
cleaned the houses, and drove the trucks. The Manhattan Project forever 
changed rustic northern New Mexico. In fact, the Manhattan Project 
National Historical Park will, once again, transform these communities, 
creating an economic driver based on heritage tourism that provides 
jobs, educational opportunities, and improved futures to traditionally 
under-served communities.
    Finally, we appreciate with enthusiasm the statement in Section 3 
of this bill that one purpose of the park is ``to assist the Department 
of Energy, Historical Park communities, historical societies, and other 
interested organizations and individuals in efforts to preserve and 
protect the historically significant resources associated with the 
Manhattan Project.'' Protecting these resources is something the Los 
Alamos Historical Society has been working on for nearly fifty years. 
Partnerships and cooperative agreements between agencies, non-profit 
groups such as ours, and even private property owners will make this 
park happen, bringing together widespread resources for the benefit of 
our nation as the Manhattan Project did years ago.
    Again, I urge you to view the recommendations from the ad hoc 
committee, specifically the section about partnerships. Manhattan 
Project resources, from museums to the laboratory and from tour guides 
to the famous ``gatekeeper'' office at 109 E. Palace Avenue in Santa 
Fe, are dispersed and disorganized when it comes to the theme of 
Manhattan Project history. The national park will bring these resources 
together, along with those of Hanford and Oak Ridge, for visitors to 
understand a bigger picture.
    We are also especially pleased to see in the final section of the 
bill that both the Department of Interior and the Department of Energy 
will be able to accept monetary or service donations for the park. This 
is particularly important to restoration work at Los Alamos National 
Laboratory and will assist the lab in preserving a significant historic 
site. One individual has been waiting in the wings for years to donate 
to the site's restoration but has had no mechnism for giving the money. 
The park will allow this preservation project to take place.
    In sum, along with many community partners who have worked on this 
project, the Los Alamos Historical Society fully supports the 
establishment of the Manhattan Project National Historical Park in 
order to preserve and teach this important history. The park has 
tremendous support in our community. We believe it will have economic 
benefit to northern New Mexico. We are heartened to see the Department 
of Energy willing to work with the Department of Interior and other 
partners to make this world-changing history accessible. The Los Alamos 
Historical Museum is located in the building where Gen. Leslie Groves 
stayed when he came to Project Y, and it serves as the focal point of 
the community's Historic District. We look forward to sharing our 
stories with the many visitors a national historical park will bring in 
addition to sharing our resources with the National Park Service to 
assist in creation of the park. Working with local, state, and national 
partners to help create the Manhattan Project National Historical Park 
is a long-term goal in the Los Alamos Historical Society's strategic 
plan. We look forward to working with you to achieve that goal.
                                 ______
                                 

       Recommendations to the Los Alamos County Council from the

  Manhattan Project National Historical Park (MPNHP) Ad Hoc Committee

                               04/02/2008

I. Purpose
    In 2004, Congress approved and the President signed legislation 
directing the NPS to conduct a special resource study to determine the 
national significance, suitability, and feasibility of designating one 
or more historic sites of the Manhattan Project for potential inclusion 
in the National Park System. This park could include non-contiguous 
sites in Los Alamos, Oak Ridge, Hanford, and Dayton. The NPS held 
meetings in each of the communities during the spring and summer of 
2006 to gather public input.
    In August 2007, Los Alamos County Council approved the 
establishment of an ad hoc committee to help determine what the 
proposed non-contiguous Manhattan Project National Historical Park 
might look like in Los Alamos. This committee is comprised of 
representatives involved in historic preservation and tourism from 
throughout the community, including Los Alamos National Laboratory 
(LANL). After approval by Council, the committee will present its plan 
to NPS representatives when they come to Los Alamos for a second round 
of community meetings in 2008.
II. Committee Conduct
    The committee began meeting bi-weekly in August 2007 and discussed 
several ideas, such as what ``attractions'' might be included in a 
national park and who locally might participate. These ideas were 
expanded upon and refined over time. A great deal of Manhattan Project 
history has already been preserved in our community in places such as 
the Los Alamos Historical Museum, the Bradbury Science Museum, and the 
Oppenheimer House. The committee members do not believe that the NPS 
needs to ``reinvent the wheel.''
    In October, the committee took a special ``behind the fence'' tour 
of sites at LANL which may be included in the park, either as part of 
periodic tours or which may be open to more public access in the 
future.
    On Nov. 6 and 9, the committee held meetings by invitation and word 
of mouth for potential partners in the park. Approximately fifteen 
people attended the first meeting and ten attended the second. At both 
meetings, ad hoc committee members shared their vision for the park 
site (see III. below) Most of these potential partners were intrigued 
with the idea of a Manhattan Project National Historical Park within 
the community and looked forward to getting more information from the 
NPS.
    On November 13, the committee held an advertised public meeting in 
Fuller Lodge to discuss this vision for the park. Another fifteen 
people attended and added to the committee's ideas.
    Based on input from these meetings, the committee has refined its 
vision and proposes the following:
III. Park Vision
    A. Centralized Park Headquarters: At a central Visitor Center, 
which would include information and interpretation, a Park Ranger would 
greet visitors, tell them about the National Park and then direct them 
to other sites in the area where they would be able to see tangible 
historical sites and objects from the Manhattan Project (Ashley Pond, 
Lamy Train Station) as well as interpretation and information that is 
already taking place in the community (LA Historical Museum, Bradbury 
Science Museum).
    B. Tours
        a.  Guided and Self-Guided: These would include ranger-guided 
        walking tours through the downtown historic district and other 
        sites; driving and walking audio tours; as well as guided tours 
        that would show visitors accessible areas of LANL, historic 
        downtown, the old Main Gate location, and other sites.
        b.  LANL: With approval and coordination of LANL and the 
        Department of Energy officials, periodic ``Behind the Fence 
        Tours'' to V-Site, Gun Site, and other restored Manhattan 
        Project-era buildings, similar to the tours held at Trinity 
        Site.
    C. Partners
    Potential partners in this project are those who own, maintain or 
have some other association (such as tourist services or items) with 
tangible historical objects or buildings from the Manhattan Project--
something that will enhance visitors' experiences and increase their 
understanding of this time in history. The lists below are not all-
inclusive.
    D. Potential Themes of Interpretation
        1.  People/Social History
                a.  Scientists and their families
                b.  Military
                         i.  In Los Alamos (SEDs, MPs, etc.)
                         ii.  In the Pacific, including POWs
                c.  Local Pueblo and Hispanic populations whose lives 
                were affected and who were an essential part of the 
                project (stet)
                d.  Local historical figures such as Edith Warner, 
                Dorothy McKibbin, Evelyn Frey
                e.  Stories of people affected by the bombings, both 
                American and Japanese
                f.  Responses to the bomb
        2.  Science
                a.  Bradbury Science Museum
        3.  Impacts
                a.  Science
                b.  Northern New Mexico
                c.  Military
                d.  International Relations
                e.  Cold War
                f.  Environmental/Health
                g.  Government
                         i.  Civilian control of nuclear resources 
                        (AEC, DOE)
                         ii.  The growth of government-run, multi-
                        disciplinary science labs
        4.  Growth of the town of Los Alamos
        5.  What happened to people after the war?
    E. Potential Visitor Sites
        1.  Local
                a.  The Los Alamos Historical Museum
                b.  The Bradbury Science Museum
                c.  Oppenheimer House
                d.  Ashley Pond
                e.  Ice House Memorial
                f.  Fuller Lodge
                g.  Historic Walking Tour of Bathtub Row
                h.  Periodic ``Behind the Fence'' Tours to V-Site, Gun 
                Site, and other restored Manhattan-era buildings at 
                LANL
                i.  Unitarian Church (former dorm)
                j.  Little Theater (former Rec Hall)
                k.  Christian Science Church (former dorm)
                l.  Hill Diner (WWII-era building)
                m.  Main Hill Road/Main Gate area
                n.  Last Sundt apartment building in Los Alamos 
                (Dentist office on Trinity)
                o.  Crossroads Bible Church (WW II-era Theater)
        2.  Nearby
                a.  Bandelier National Monument
                b.  Pajarito Mountain Ski Area
                c.  Valles Caldera
                d.  Otowi Bridge
                e.  Sundt apartments in Espanola on Railroad Avenue
        3.  Santa Fe
                a.  109 E. Palace Ave.
                b.  La Fonda
                c.  Lamy Train Station
                d.  Delgado Street Bridge and other spy-related sites
        4.  Albuquerque
                a.  Oxnard Air Field (Kirtland AFB)
                b.  National Atomic Museum
        5.  Future considerations
                a.  Sculptures, outdoor art, and other monuments to the 
                Manhattan Project era that are currently under 
                consideration Insert graphics 2-5
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 74876.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] 74876.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] 74876.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] 74876.005
                                 
                                 
                                 
    Mr. Hastings. Thank you very much for your testimony, and 
again, for your passion.
    I would now like to recognize the gentleman from 
Tennessee--a former member, by the way, of this Committee--for 
purposes of introduction. Mr. Fleischmann?
    Mr. Fleischmann. Thank you, Mr. Chairman. And welcome, 
everybody. I want to thank you all for participating in this 
great hearing. My name is Chuck Fleischmann. I proudly 
represent the great people of the third district of Tennessee, 
which encompasses all of Oak Ridge. We have OR&L there, Y-12, 
and a very vibrant clean-up mission, as well.
    Mr. Chairman, I want to especially thank you for the 
privilege of being back with your committee. I also want to 
thank you, sir, for visiting Oak Ridge recently, and sharing 
the wonderful history and present that we have at Oak Ridge.
    I also want to thank Chairman Hastings and Congressman 
Lujan for cosponsoring this legislation. This is wonderful 
legislation. It is a privilege to be a cosponsor with you, Mr. 
Chairman.
    Today it is my distinct pleasure to introduce Ray Smith, 
one of Oak Ridge, Tennessee's most beloved citizens, for his 
tireless efforts on behalf of so many groups and organizations. 
Ray writes a weekly newspaper column that highlights the rich 
history and significance of Oak Ridge, and has helped put 
together TV and video documentaries.
    With almost 42 years of service at the Y-12 nuclear 
security complex, he now serves as the Y-12 historian. Ray has 
worked tirelessly to help the Manhattan Project National Park 
become a reality. And I look forward to working with him and 
hearing from him today.
    Thank you, sir.
    Mr. Hastings. Mr. Smith, you are recognized for 
fiveminutes.

               STATEMENT OF RAY SMITH, RESIDENT, 
                      OAK RIDGE, TENNESSEE

    Mr. Smith. Thank you, Mr. Chairman, and members of the 
Committee. I am really pleased to be here and give this 
testimony. I also want to thank you and Congressman Fleischmann 
and Congressman Lujan for sponsoring this bill.
    I am the historian at the Y-12 National Security Complex. I 
work for B&W Y-12, and it is a--on contract to the Department 
of Energy National Nuclear Security Administration. However, my 
testimony today will not be an official statement of my 
company, nor does it represent the official statement from the 
Department of Energy. Ms. Kolb is doing that for us.
    I am going to talk from the perspective of the historian. 
And it is my job to make history come alive. Obviously, I enjoy 
it. And I want to do that while, as you have mentioned, the 
text of my statement will be included. And it has details in it 
about what is happening in Oak Ridge today, what the conditions 
are pertaining to the involvement of some of the facilities in 
the park, and those details are there. But I want to take my 
time today to give you some insights into some of the things we 
are doing there, and some of the things that are so important 
about reflecting on the history of the Manhattan Project.
    So, first slide, please. And I will be showing you some 
pictures. I bring you, first, greetings from beautiful East 
Tennessee. What you see there is the Bear Creek Valley, with Y-
12 nestled down in the base of that valley with Pine Ridge on 
one side, Chestnut Ridge on the other, a very beautiful 
setting.
    Next slide, please. I want you to know that without this 
man, Ed Westcott, we in Oak Ridge would not have nearly the 
information, nearly the capability to show our history as we do 
because of Ed. He was hired as the 27th person in the Manhattan 
Project. He was the only one with a camera. And he freely took 
pictures of both the city and of the sites during that time. So 
we owe a lot to Ed.
    Next slide, please. The alpha calutron magnets are in 
building 9731. It is the first building completed on the site. 
These are the only alpha calutron magnets in the world. They 
are there with the express ability to show the people--when you 
walk into that room and see those large magnets you understand. 
They also help to produce nuclear medicine. The first isotopes 
that were separated to become nuclear isotopes were in that 
calutron. They also had 67 tons of silver that was there for a 
number of years. It operated until 1974. So very historical.
    Next slide. But what I want to tell you is just two or 
three stories, very quickly, the first one about a fourth-grade 
class that I was speaking to, and I talked for 45 minutes. 
Lunch time came, the young lady said, ``Mr. Smith''--and one of 
the students said, ``Mr. Smith, if we go get our lunch and come 
back, will you keep talking?'' And I said, ``It is up to your 
teacher.'' And of course, she said, ``Sure.'' Well, they did. 
They went and got their lunch, they came back. And I talked for 
another 45 minutes. They were interested in and wanting to know 
about that.
    Second, we have completed a documentary called, ``A Nuclear 
Family.'' It has been very well received. It is 4 30-minute 
episodes. It was shown on National Public Television. And 
people are clamoring to get those DVDs. I have run out, I have 
had to order more. But it is--if well done, that history 
conveys to the next generation.
    And the oral histories, the people are in their nineties. 
We need to get them now. And the Y-12 History Center is ready 
at this time to receive visitors, and does so on a routine 
basis. So we already have some of the things that we need.
    Last slide, please. This one is Ed Westcott. If you look 
closely, Ed is in that second picture, the remake of the shift 
change. The first picture is one that he made. We remade it as 
the ending to the nuclear family. We have them walking away 
from the highly enriched uranium materials facility, where in 
the other one they were walking out of the plant. And when we 
asked Ed if he would come back--now, Ed is 90 years old, we 
celebrated his birthday just a few months ago, but we put him 
in the picture. He is standing there, and everyone else is 
walking by him. And Ed was delighted to be a part of that.
    Thank you very much for letting me testify to this bill.
    [The prepared statement of Mr. Smith follows:]

 Statement of Ray Smith, Y-12 Historian, An employee of B&W Y-12 LLC, 
  the managing and operating contractor for the Department of Energy 
   National Nuclear Security Administration's Y-12 National Security 
             Complex in Oak Ridge, Tennessee, on H.R. 5987

    Mr. Chairman and Members of the Committee, it is my pleasure to 
have been invited by to testify on H.R. 5987, a bill to establish the 
Manhattan Project National Historical Park in Oak Ridge, Tennessee, Los 
Alamos, New Mexico and Hanford, Washington. I also want to thank 
Congressmen Doc Hastings, Chuck Fleischmann and Ben Lujan, sponsors of 
this bill.
    I am Ray Smith, the B&W Y-12 Historian at the Y-12 National 
Security Complex in Oak Ridge, TN.
    My career at Y-12 spans 41 years, much of that time spent managing 
the maintenance and support of production operations at the nation's 
Uranium Center of Excellence, the Y-12 National Security Complex. Over 
time, I have had maintenance responsibility for every building on the 
site.
    For the past six years, I have been the B&W Y-12 Historian and have 
focused my energies on helping to capture the heritage of Y-12 and 
present it in ways that Y-12 employees as well as the public can 
appreciate. The Y-12 History Center, multiple video documentaries, 
video oral histories and weekly newspaper articles have been among the 
varied mediums and methods I have used.
    My relationship with the concept leading ultimately to this bill 
began prior to the special resource study on several Manhattan Project 
sites for possible inclusion in the National Park System. National park 
status for Oak Ridge has long been a dream of historians in the East 
Tennessee area. We understand the value the National Park Service 
brings to an area's history--they understand how to properly interpret 
the people stories and the significant cultural influences.
    In the midst of Appalachia in East Tennessee, in 1942, General 
Leslie R. Groves and his Manhattan Project transformed Bear Creek 
Valley, Bethel Valley, Black Oak Ridge and East Fork Valley into a 
60,000 acre military industrial experiment like none other ever 
conceived in the history of the world. First ever experiments soon were 
just run of the mill industrial activities and separating Uranium 235, 
something the rest of the scientific world knew was possible, but did 
not have the resources to accomplish, was being routinely done on a 
huge scale, using young women right out of high school!
    Those ``Calutron Girls'' represents but one of the amazing 
historical stories that exist in the Manhattan Project history. The 
``Calutron'' itself, simply a name taken from ``California University 
Cyclotron'' as it was invented by Ernest Lawrence of the Radiation 
Laboratory at Berkley CA, can be explained simply and once understood 
puts the whole process of uranium separation within the grasp of even 
young children, as I have seen in classrooms with fourth grade 
students.
    The Manhattan Project National Historical Park is about the feats 
of scientific and engineering accomplishments developed at a unique 
time in the history of our country. Our back was against the wall, the 
world was at risk by a war that had grown into a worldwide 
conflagration. The Manhattan Project National Historical Park will tell 
all sides of the story of what occurred at Oak Ridge, Los Alamos and 
Hanford as well as Japan.
    At Y-12 there are two buildings that contain Manhattan Project 
electromagnetic separation equipment and artifacts. If a number of 
issues surrounding them can be successfully addressed such as cost, 
feasibility and security related issues, eventually both these 
buildings may potentially be considered as candidates to be included in 
the Manhattan Project National Historical Park.
    First, Building 9731, the first building completed on the site and 
used as the Radiation Laboratory's Pilot Plant with two large Alpha 
(first stage) electromagnetic separators and two Beta (second stage) 
electromagnetic separators. The building holds two sets of huge magnets 
that have been designated as Manhattan Project Signature artifacts and 
has become a symbol of Y-12's heritage.
    Second, Building 9204-3, also known as ``Beta 3,'' designated by 
the Department of Energy as a Manhattan Project Signature Facility, is 
one of nine large buildings constructed during the Manhattan Project to 
house the Alpha and Beta Calutrons.
    The magnets of four Calutrons in Building 9731 remain, have been 
recently repainted, and the entire building is being restored to its 
original condition. A tour route has been created through the building 
that features both sets of magnets as well as three nuclear weapons 
trainers and a display glove box allowing docents to bring the history 
of Y-12's missions alive for the tour participants.
    The two Alpha magnets in Building 9731 are the only ones that exist 
and stand well over 20 feet tall. Standing next the huge magnets can 
give the visitor an overwhelming feeling of the power contained in the 
world's largest magnets at the time that once contained 67 tons of 
silver in the windings because of a shortage of copper during the war.
    Both of these buildings are located inside the Y-12 National 
Security Complex and at present are only accessible with special 
security arrangements. Both have been visited by the public, with 
special arrangements, and without exception, the visitors have been 
amazed at the authentic ``1945 atmosphere'' of being near the actual 
equipment inside the actual buildings of one of the sites where the 
world's most significant technological advancement took place.
    Visiting Building 9731, having already been prepared as a tour site 
that is routinely accessed by Y-12 business related tours, special 
school groups, area leadership groups, elected officials and official 
visitors, is like stepping back in time to 1945. It is also open to the 
public through tours provided by Y-12 as part of Oak Ridge's Secret 
City Festival on Saturday of the third weekend in June of each year.
    This past year, the third year of the building being included in 
the Y-12 public tour on Saturday of the festival, there were 739 
visitors from 22 states. Reaction by the visitors remained highly 
complimentary for the opportunity to visit an authentic World War II 
relic facility and one with a Cold War and medical isotope association 
as well.
[GRAPHIC] [TIFF OMITTED] 74876.006

[GRAPHIC] [TIFF OMITTED] 74876.007

    .epsBuilding 9204-3 (Beta 3) is less accessible at present than is 
Building 9731, as it is located in a more secure portion of the site. 
It contains more authentic equipment and larger historic displays 
including a Calutron simulator as well as examples of actual working 
control rooms, standby electromagnetic separators, cleaning stations 
and all necessary support that was used to maintain the World War II 
equipment in operation until 1998 separating stable isotopes and 
remaining in standby today. This building is currently not available 
for public access and may not be available for a number of years 
because of the complexity of the issues to be resolved, the potential 
high cost of preparing the facility for park status and other 
uncertainties. In fact the security access issue may be resolved before 
other potentially more costly issues can be successfully addressed.
    Additionally, Y-12 has the Y-12 History Center in the New Hope 
Center. This modern history museum and exhibit display area is being 
remodeled. The facility is being converted from an open space where 
historic artifacts have been on display for the five years the New Hope 
Center, Y-12's official Visitor Center and public access area, has been 
in existence, to a new museum and multipurpose media room.
    The major renovation is complete. A request for proposals is being 
created for the museum exhibits to be designed and installed. A theme 
that coincides with the recently completed documentary film series, A 
Nuclear Family, is being used to feature the highlights of Y-12's 
history in interactive video based exhibits.
    The new museum contains the John M. Googin Y-12 History Research 
Library, the Ed Westcott Video Theater and a large artifact exhibit 
area. A large timeline mural is being installed in the main entrance 
lobby and will include the media room and history center in the same 
theme.
    Artifact displays and video stations are also included in the side 
lobby and atrium making the New Hope Center a central display area for 
Y-12 history. This public access area including the Y-12 History Center 
can immediately be included in the Manhattan Project National 
Historical Park attributes.
    Y-12 is important to the Manhattan Project National Historical Park 
because it is one of a set of Manhattan Project elements located in 
close proximity in East Tennessee. In addition to Y-12 there are two 
other major Department of Energy facilities in Oak Ridge, TN.
    The X-10 site, or the Oak Ridge National Laboratory and the K-25/
East Tennessee Technology Park site exist today. A fourth site (S-50) 
existed during the Manhattan Project only. The city of Oak Ridge is 
also an integral part of the history of the Manhattan Project in East 
Tennessee and all together these sites and the city form the basis of 
the reason to locate a portion of the Manhattan Project National 
Historical Park here in East Tennessee.
    My primary focus for this testimony is Y-12. However, Y-12's 
presence in Oak Ridge, along with two other Manhattan Project era 
facilities that are nearby, enhances its historical value.
    The Oak Ridge National Laboratory, known during the Manhattan 
Project as ``X-10,'' is home to The Graphite Reactor, a National 
Historic Landmark (designated in 1966) that served to prove the 
principle of producing plutonium in an industrial size uranium reactor. 
This reactor also functioned until 1963 to produce many of the nation's 
medical isotopes and other useful scientific studies and products.
    The Graphite Reactor has been designated by the Department of 
Energy as a Manhattan Project Signature Facility and is a primary 
candidate to be considered to be included in the Manhattan Project 
National Historical Park. However, access is limited now and may remain 
so for some time into the future.
    The East Tennessee Technology Park, known during the Manhattan 
Project as the ``K-25 Gaseous Diffusion Plant,'' served the nation for 
40 years. The plant producing highly enriched uranium that even today 
remains in the nation's inventory as well as lower enriched uranium for 
nuclear power reactors and research reactors around the world.
    The highly enriched uranium needed to win the Cold War was produced 
by the same K-25 process building that has been designated by the 
Department of Energy as a Manhattan Project Signature Facility. This 
historic building, largest building in the world under one roof in 1945 
at 44 acres, is being demolished and a small section of the building 
will be replicated on site for inclusion in the Manhattan Project 
National Historical Park.
    A fourth facility, no longer existing (only a pile of bricks that 
have been saved from the smoke stacks remain) was the S-50 Thermal 
Diffusion Plant. It was located at the K-25 site near what was the 
world's largest steam powered electrical generating plant in 1945. S-50 
is credited with shortening World War II by approximately three weeks 
as it provided slightly enriched uranium feed material to Y-12's 
electromagnetic separators or Calutrons.
    In addition to the three government sites, the city of Oak Ridge 
has assets that will contribute to the Manhattan Project National 
Historical Park. The Guest House/Alexander Inn is among the most 
historic structures in the Manhattan Project. It is in a sad state of 
disrepair now, but has been included in the latest draft of a 
memorandum of agreement for historic preservation of the K-25 site at 
East Tennessee Technology Park as an alternative historic preservation 
initiative complimentary to the other historic preservation actions.
    Other portions of the historic city of Oak Ridge may well serve as 
integral parts or guided tour portions of the Manhattan Project 
National Historical Park, such as the Chapel on the Hill (first 
church), alphabet houses, Midtown Community Center, Jackson Square Town 
Site, the Children's Museum of Oak Ridge, the Oak Ridge Public 
Library's Oak Ridge Room and Center for Oak Ridge Oral History and the 
especially appropriate American Museum of Science and Energy.
    The museum has been the mainstay of Oak Ridge Manhattan Project and 
other related history exhibits since March 19, 1949, when the secret 
city of Oak Ridge was opened to the public for the first time as the 
gates to the main roads were removed. That same day, the American 
Museum of Atomic Energy, as it was known until 1978, opened its doors 
for the first time and welcomed visitors.
    When the museum moved to its present location it also changed its 
name to the American Museum of Science and Energy and expanded its 
mission for exhibits and focus to a broader energy related theme. 
However, it kept its role as a primary source of Oak Ridge history.
    Today, the museum is the hub of tourist activity in Oak Ridge, 
being the first stop for most visitors and a must stop for all 
visitors. The museum's Oak Ridge Room is THE place where visitors first 
understand the unique history of the people who were notified first 
through a phone call from their Senator Kenneth McKellar to the Oliver 
Springs High School principal telling him to tell the students to go 
home and tell their parents about the coming changes in their 
neighborhoods. Lester Fox, still living today, swears that is the way 
the 3,000 people living in New Hope, Robertsville, Elza, Scarboro and 
other small communities in this area first learned that 60,000 acres 
would be used for the Manhattan Project that would become Oak Ridge.
    The Manhattan Project National Historical Park, Oak Ridge location, 
will need a central location for operations. At present the American 
Museum of Science and Energy has been designated by the Oak Ridge 
Convention and Visitors Bureau's June 2007 heritage tourism master 
plan, Creating the Living Story of ``The Secret City,'' as the 
recommended hub of a ``hub and spoke'' strategy for the city and 
government sites heritage tourism.
    A more recent recommendation by the city has a combination of a new 
facility that would tie the Oak Ridge Public Library and the American 
Museum of Science and Energy into a single comprehensive Manhattan 
Project National Historical Park Interpretive Center. This concept is 
being studied and funding sought to realize the full potential of the 
Manhattan Project National Historical Park's presence in Oak Ridge.
    Additional features in Oak Ridge already functioning with history 
related aspects that would complement the Manhattan Project National 
Historical Park are the Secret City Commemorative Walk--a self guided 
walking tour of plaques describing the seven years that Oak Ridge 
remained a ``Secret City,'' the Children's Museum of Oak Ridge with its 
Ed Westcott Room of photographs that display the history of early Oak 
Ridge and the International Friendship Bell.
    The Secret City Commemorative Walk is centrally located near the 
Oak Ridge Public Library and the American Museum of Science and Energy 
as is the International Friendship Bell and are all in easy walking 
distance. The Children's Museum of Oak Ridge is located near the center 
of the city atop Black Oak Ridge at the corner of Highland Avenue and 
West Outer Drive.
    Additionally, the city of Oak Ridge was designated as a Preserve 
America Community by the National Park Service in 2006. This 
designation is proudly displayed on signs at key locations within the 
city. Recently the city and the Oak Ridge Heritage and Preservation 
Association completed a project that commemorates the ``Birth of the 
City: The History of Oak Ridge, Tennessee'' by installing four large 
historical plaques near the entrance of the city's municipal building 
that explain the process used to establish the City of Oak Ridge 
government.
    All these attributes are cited to illustrate that Y-12 exists 
within a much larger context. Oak Ridge has prepared the way for the 
Manhattan Project National Historical Park and is ready to move to the 
next level of heritage tourism. The Department of Energy has the 
responsibility to interpret the history of the sites where they have 
served the nation's various needs over the years, but the National Park 
Service has the expertise to do this task well. Therefore the 
partnership being formed in the Manhattan Project National Historical 
Park will demonstrate the value of such partnerships. Additionally, the 
Park Service is venturing into the Science, Technology, Engineering and 
Mathematics (STEM) education by directive of a recent study indicating 
the mission of the 21st Century National Park Service should move in 
the direction becoming more of a contributor to practical learning and 
education. The Manhattan Project National Historical Park may well 
become the cutting edge of this new direction of the park service. We 
already have a great start at Y-12 and welcome the challenge to be the 
pacesetter for change toward STEM educational support in practical and 
tangible methods that involve the actual locations where the world's 
most significant scientific accomplishment took place, and where much 
is still taking place today.
    The history of Y-12 can be fully utilized by bringing students to 
the site of the most historic technological achievements in the history 
of the world to understand STEM education! With the inclusion of the 
other DOE sites and the cities of Oak Ridge, Los Alamos, and Hanford, 
this is far beyond the realm of a standard national park and the 
Manhattan Project National Historical Park may become the national park 
of the future.
    The recently completed congressionally authorized National Park 
Service study recommended that the best way to preserve and interpret 
the Manhattan Project and resulting technological advances is for 
Congress to establish a national historical park at the three sites 
where much of the critical scientific activity associated with the 
project and later advances occurred: Oak Ridge, Los Alamos and Hanford.
    As Congressman Doc Hastings declared, ``There is a sincere and 
shared desire by Chairman Bingaman, Senators Murray and Cantwell, and 
our colleagues to establish the Park, and we'll continue working 
together with local advocates to accomplish our goal of ensuring these 
remarkable pieces of our history are preserved to tell the story of the 
Manhattan Project.''
    This comment represents substantial interest in what may well be 
the single most significant scientific and industrial event in the 
entire history of the world. The locations where it occurred are being 
recognized for their contributions through this legislation to create a 
Manhattan Project National Historical Park.
    Oak Ridge Mayor Tom Beehan, Chairman of the Energy Communities 
Alliance has included in his statement to the Senate hearing on S-3300, 
``Among the biggest advocates of the National Historical Park are the 
people who worked at the three sites during World War II. It is 
important to remember that no one in our country knew what the workers 
were building at the sites--they were truly ``Secret Cities.'' Most of 
the young men and women working in these communities did not even know 
what the project was. These were among the nation's best and brightest 
citizens from all walks of life.''
    Beehan continued, ``National Historical Parks are developed to 
ensure that we protect our country's assets and open them to the public 
to learn about our nation's history. We should work to open this park 
while some of the Manhattan Project Veterans are still alive and able 
to see the recognition of their work recognized by our nation. These 
people played a valuable role in ending World War II and defending not 
only the United States but also democracies throughout the world. These 
true heroes, who dedicated their wartime service to the Manhattan 
Project, appreciate the legislation developed by your committee.''
    The National Park Service interprets all historical sites and 
attempts to address all view-points to give a full and fair picture and 
we in Oak Ridge support such actions by the National Park Service. We 
look forward to the FULL STORY of the Manhattan Project and its 
subsequent technological advances that have impacted our daily lives 
being interpreted in the most effective manner possible.
    Y-12 is an important part of the proposed Manhattan Project 
National Historical Park, and the legislation could serve as a 21st 
Century model for the National Park Service, one that is based on 
federal, state and community partnerships. We in Oak Ridge look forward 
to working together with all the parties involved in the Manhattan 
Project National Historical Park.
    Sincere appreciation is again extended to Congressman Chuck 
Fleischmann for his kind invitation to testify before this subcommittee 
and also for his sponsorship of the Manhattan Project National 
Historical Park Bill, H.R. 5987.
                                 ______
                                 
    Mr. Hastings. Thank you very much. I certainly appreciate 
your testimony, all of you. We will now start the question 
period, and I will recognize myself for fiveminutes.
    And I want to ask this to Mr. Petersen, Ms. McClenahan, and 
Mr. Smith, specifically. And you all touched on it a little bit 
in your testimony. But is it fair to say that there is 
enthusiasm within your communities on the establishment--what 
this legislation will establish? And we will start with Mr. 
Petersen.
    Mr. Petersen. The answer, Mr. Chairman, is absolutely. I 
mean the entire community, we have signatures from all four 
mayors, two county commissioners, the port commissioners, on 
and on, saying this must happen. I mean we are looking forward 
to allowing the community to come out.
    There is a member of your staff, Tim, who was born and 
raised in the Tri-Cities. Tim said that he had never been out 
on the Hanford site until he became a member of your staff.
    Mr. Hastings. Great.
    Mr. Petersen. So there are many people in the community who 
have not had the opportunity. There is many people throughout 
the United States. We now have visitors from 50 States and 48 
foreign countries who have come out to tour B Reactor.
    Mr. Hastings. Good. Ms. McClenahan.
    Ms. McClenahan. In my written testimony I have included a 
letter that was sent to Senator Udall and Senator Bingaman. And 
I believe Congressman Lujan also received one from our 
community about the full support. We have a new creative 
district, an arts and cultural district in Los Alamos, which is 
a state designation. And the entire group, which is all the 
cultural and arts providers and organizations, are fully in 
support and the county council. So, yes, very much in support 
of the park.
    Mr. Hastings. And Mr. Smith?
    Mr. Smith. Yes. As a matter of fact, we have support from 
all the organizations in the city and on the site. We too have 
a large number of visitors coming. We have a public tour that 
we run each day through the summer. And you have to sign up at 
9:00 in the morning and the tour leaves at 12:00. And it is a 
three-hour tour. And we fill that bus almost every day. So 
there is much interest in what we have there, the Y-12 History 
Center open to the public, and we are now on tour routes for 
people who bring tour buses by there and come in to see that 
history center.
    So, yes, sir. Full support.
    Mr. Hastings. Good. Well, I just wanted to get that on the 
record. You all alluded to it in your statements.
    Mr. Knox and Ms. Kolb, I want to ask you a question. As you 
know, my preference was to immediately establish a national 
park. Senate has a little bit different version. There is--it 
has a one-year time period for that to be established. Can you 
give me the assurance that we can meet that time frame of one 
year? And we will start with you, Mr. Knox.
    Mr. Knox. Yes, Mr. Chairman. We feel confident we can 
complete the agreement with the Department of Energy within one 
year, and that is what is required to establish the park.
    Mr. Hastings. Good. And Ms. Kolb?
    Ms. Kolb. Yes. You have our commitment that, if the time 
frame is one year, we will meet that time frame, working in 
partnership with the Park Service.
    Mr. Hastings. Listen. I have to tell you I very much 
appreciate that. Because if all we are trying to do is work out 
an agreement within one year, let's keep in mind we built the 
reactor in less than a year.
    [Laughter.]
    Mr. Hastings. It seems to me we should be able to--this 
should not be a problem at all, it seems to me.
    Ms. Kolb. That is a very good point. We will keep that in 
mind.
    Mr. Hastings. Well, again, I simply wanted to get that as 
part of the record. And I do very much appreciate the 
enthusiasm.
    I might say that Secretary Salazar came out and visited the 
B Reactor. I think it was last fall, I forget the time frame. 
But when you sit in the operator's chair--and I can just 
imagine sitting there--and then pressing the button--``OK, 
we're going hot''--that had to be an incredible feeling at that 
time, because you didn't know if it was really going to work. 
And yet you are right in that site that it happened.
    But one of the interesting parts of that tour, somebody 
made the observations--and I will paraphrase--well, let's show 
the Secretary the computer. So we walked around the room, and 
somebody picked up a slide rule. That was the computer that 
built this reactor. I mean that is how significant this 
technology is.
    And, Ms. McClenahan, you are exactly right. What we are 
celebrating with this is the technology that allowed us to 
accomplish another event.
    So, thank you all. I will yield back my time and recognize 
the gentleman from New Mexico, Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much, as well. And 
Heather, as--I appreciate it very much in your testimony and 
that of Mr. Petersen, the importance of the conversations of 
those that worked on this site that maybe weren't directly 
involved with the science and the research. Those are 
compelling stories that need to be told, from the little place 
that we call home in small communities like Nambe, which is 
where I live, and Pojoaque and Espanola, the surrounding 
pueblos where much of the workforce was recruited and where a 
lot of the land was acquired.
    How do you think that we can include those stories in the 
larger story that needs to be told? And, you know, I mentioned 
a young lady in my introduction by the name of Mariah Gomez, 
who is doing an amazing research project, who I have had the 
honor of speaking with on several occasions, collecting oral 
histories and doing a lot of the research. So I know that you 
also have some amazing people that you have worked with, with 
the historical society, but that are also up at the museum that 
have a lot of this institutional and historical knowledge. Can 
you talk a little bit about that?
    Ms. McClenahan. Yes, sir. We actually have been working 
with the Bradbury Science Museum, which is run by the 
laboratory and our own organization. We have collected a number 
of oral histories from folks in the Valley, video and just tape 
recorded, and have really been trying to capture those stories. 
You know, the lady who worked for Oppenheimer as his maid, and 
the people who were building the buildings. And, so, a lot of 
those stories we are working to capture. A lot of the families 
are realizing that they are losing those stories. And, so, they 
are getting them themselves, they are having people write down 
their stories, or record them for them.
    And so, once we have those stories, I think it will be very 
important in the park and in our museums to make sure that 
people can see those, and understand that it is not just the 
story of the great scientists. Certainly it is. I mean there 
were great men who did a lot of great work--and women. But 
there is also this underlying story that they couldn't have 
done it had they not had these support people. And, so, I think 
that those stories certainly will be part of the story.
    Mr. Lujan. Appreciate that.
    Mr. Petersen. May I add just a short bit? At B Reactor we 
actually have docents who are people who worked at the site, 
and who are telling the story. Now, unfortunately, as Ray says, 
most of them are in their late eighties or early nineties, and 
they are dying off. And, so, we are capturing those stories, as 
well.
    But currently, they are still telling the story directly to 
the 8,000 to 10,000 people who come out to the site.
    Mr. Lujan. That is great. That is great. Mr. Smith? And I 
have two other questions, so----
    Mr. Smith. This will be very brief. Thank you. We have a 
gentleman named Martin Skinner who stands by that alpha 
calutron and talks about how he worked it when we bring people 
through. We brought nearly 1,000 people through a couple of 
Saturdays ago. So we also included those oral histories. That 
is the basis for those documentary films. We have 25 of them 
online that you can go and listen to.
    One very quick story. A lady called me----
    Mr. Lujan. Well, Mr. Smith, we may have to get to that 
quick story.
    Mr. Smith. Oh, that is fine.
    Mr. Lujan. Two important questions that I have. And, 
Heather, can you tell us the importance of why the legislation 
should consider the use of Federal funds to acquire properties?
    Ms. McClenahan. That is one of the differences between, I 
guess, the Senate bill and the House bill. And in Los Alamos, 
our community is a little bit different in that the original 
laboratory is mostly gone. But the sites that are left are far 
away from the downtown, because they were doing explosives work 
and they didn't want to do that close to where they lived.
    The historic downtown, where Oppenheimer and Bethe and 
those gentlemen lived is mostly in private hands. These are 
private homes. And it is close to a lot of other activities 
that go on: our cultural center, Fuller Lodge, those kinds of 
places. But because they are in private homes, there is a 
concern in our community that it--you know, if the Park Service 
wants to have that centralized visitor center that they 
recommended, that they may need to have the ability to acquire 
those homes with, you know, monetary purchase.
    Mr. Lujan. I appreciate that. Mr. Chairman, I know that we 
are going through some tough economic times. But hopefully, as 
we move into the future, one, we can get this legislation 
adopted and passed, and then those are conversations that we 
can still consider into the future. And I very much appreciate 
us getting an opportunity to have this hearing, but to move 
important legislation like this, to be able to capture these 
stories.
    Mr. Hastings. Would the gentleman yield?
    Mr. Lujan. I would yield, Mr. Chairman.
    Mr. Hastings. The mere fact that we have three distinct 
site and three distinct States, obviously, nothing--you know, 
we learn that one size doesn't fit all many times, and this is 
just one of those examples. And we certainly are willing to 
work to get through that. That is what the intent is of, I 
think, everybody involved. And I thank the gentleman for 
yielding.
    Mr. Lujan. Thank you, Chairman. I yield back.
    Mr. Hastings. Mr. McClintock is recognized, if he wishes.
    Mr. McClintock. Ms. McClenahan, you just mentioned that the 
Federal Government needed the ability to acquire private 
property. Are you talking about seizing it through eminent 
domain?
    Ms. McClenahan. No, sir. I don't think the Park Service has 
seized anything since the 1970s, and I think they have 
absolutely no intention to do that. And I think----
    Mr. McClintock. Would this legislation give them the 
authority to do that?
    Ms. McClenahan. I don't believe it does. In fact, I think 
there is a clause that, in fact, that it cannot be through 
that. So----
    Mr. McClintock. Thank you.
    Mr. Hastings. The gentleman yield back? Yes. Ms. Tsongas? 
No questions? Mr. Holt?
    Dr. Holt. If I may----
    Mr. Hastings. Go ahead.
    Dr. Holt [continuing]. Just very briefly to say, as someone 
who was educated and grew up as a physicist, I think it is 
really very important that we preserve in a national way all of 
the efforts that went into this with historic interpretation 
that will serve as an education in not only how research is 
done, but why research is done. And, in this particular case, 
how the research was used. And I think there are important 
lessons to be drawn from it that are very appropriate to this 
work.
    Mr. Hastings. Gentleman yield?
    Dr. Holt. And I would--pleased to yield to the Chair.
    Mr. Hastings. And that is precisely the idea. When you look 
at this, you know, we tend to forget that we were involved in a 
war and we had no idea what Nazi Germany had, but we knew that 
we had to do something.
    And as Ms. McClenahan pointed out in her testimony, this is 
really a story of the ingenuity of America to respond to a very 
great threat at that time. And that is what the whole intent of 
this legislation is, is to put it in a historical context, 
what, in fact, did happen. And, so, I appreciate the gentleman 
yielding.
    Dr. Holt. I thank the gentleman. And it is worth pointing 
out in this context that the phrase--the words ``Manhattan 
Project'' have become part of the American language. And it--
and in many cases, people use it without an understanding of 
what the Manhattan Project really was, what it consisted of, 
its scale, and its importance, and the just enormous advances 
in science and engineering that took place there.
    So, obviously, the details of something like this are 
tricky with multiple States and private ownership and public 
participation. I am not quite sure how we work it all out. But 
the idea is something that I can strongly endorse. Thank you.
    Mr. Hastings. The gentleman yield back?
    Dr. Holt. I yield back. Thank you.
    Mr. Hastings. Well, I want to thank the panel very much for 
your participation. Many times there are questions that come up 
later on. And if there are those questions and they are sent to 
you, if you could respond in a timely manner I would very much 
appreciate.
    With that, I will dismiss the first panel. I would like to 
call the second panel to--and it is a Members panel--to speak 
on their respective piece of legislation. We have Senator Tom 
Carper from Delaware and Congressman John Carney from Delaware, 
Mr. Chaffetz from Utah, Mr. Denham from California, Mr. 
Gallegly from California, Mr. Pearce from New Mexico, and Ms. 
Tsongas from Massachusetts, and Mr. Turner from New York.
    I recognize that all Members--we all have schedules, and I 
recognize that. And so--and some of them have imminent 
schedules, and I have been advised of that. So I am going to 
start. And I recognize that if you finish your testimony and 
you leave, you are not being rude, you are simply trying to 
accommodate the responsibilities that you have.
    So, with that, we will start with Mr. Gallegly of 
California. Recognized for fiveminutes.

   STATEMENT OF THE HON. ELTON GALLEGLY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Gallegly. Thank you very much, Mr. Chairman. And I 
really appreciate the opportunity to be here. And I understand 
your schedule this morning and I will be leaving quickly, and 
it will not be out of anything personal to this Committee that 
I had the honor to serve on for 24 years.
    Thank you for holding this hearing today on H.R. 4109, the 
Los Padres Conservation and Recreation Act. This legislation is 
the product of over two years of negotiations with various 
stakeholders and users of the Los Padres National Forest. As a 
result of this work, I am proud to stand here today and support 
the legislation coming from wilderness organizations, off-road 
vehicle organizations, local business and ag groups. This type 
of broad-based coalition is rarely achieved on this type of 
legislation.
    The groups endorsing H.R. 4109 include the Wilderness 
Society, California Wilderness Coalition, Pew Campaign for 
America's Wilderness, Americans for Responsible Recreation 
Access, American Motorcycle Association, Motorcycle Industry 
Coalition, Ventura County Coalition of Labor, Agriculture, and 
Business, United Water Conservation District, Western States 
Petroleum Association, and the list goes on.
    This legislation will designate approximately 63,000 acres 
as wilderness, none of which will change anyone's access to the 
forest. There is no off-road activity in any of this acreage, 
with much of it largely being managed as wilderness already. It 
will designate approximately 89 miles of waterways of wild, 
scenic, or recreational rivers. This includes specific 
provisions to protect off-road trails that use rivers during 
the dry season, and protections for the California Department 
of Transportation to adequately maintain a vital California 
highway that travels through the middle of the forest.
    The bill will create 18,000-acre Condor Ridge Scenic Area, 
locking all current usage of the area and preventing any future 
development, allowing for the preservation of pristine viewshed 
of the California Coast and Pacific Ocean. In addition, this 
legislation will indefinitely preserve approximately 65,000 
acres for off-road vehicle use through the creation of 2 
congressionally designated areas. Both of these areas are 
already in use by the off-road community. I simply--it will 
simply be preserving these areas from possible closures in the 
future.
    This legislation will also allow for a long-awaited 
exchange to occur between the Forest Service and United Water 
Conservation District. This will allow United Water to reduce 
its operating costs at Lake Piru Reservoir, and pass these 
savings on to my constituents in the form of cheaper water.
    Finally, the legislation will also change the manner in 
which fires will be managed in the forest. Firefighters will be 
able to continue all suppressive activities within the entire 
forest, along with pre-suppression. And the act will allow for 
mechanized equipment, such as chain saws and bull dozers in the 
wilderness areas to help prevent and fight any fires from 
spreading throughout the forest and on to populated areas.
    This legislation will enhance the Los Padres National 
Forest for all users of all kinds of future [sic], and I urge 
the Committee to mark up this legislation and move it to the 
Floor as soon as possible.
    Mr. Chairman, I would just like to close by adding one 
other comment, and raise another issue that is facing all of us 
right now. And, of course, that is the fires in our national 
forests. As you know, the wildfires are raging through national 
forest adjoining areas throughout parts of Colorado and your 
home in--well, in the home of the--of who I thought was going 
to be chairing the hearing this morning, Mr. Bishop's home 
State of Utah.
    Firefighting systems are available to assist putting out 
these horrific fires, and have already killed one person, 
destroyed untold thousands of homes. As you know, one of the 
fires has caused the evacuation of the Air Force Academy. And I 
wanted to highlight this issue and request your support in 
urging the Forest Service to immediately call up all available 
units.
    And with that, Mr. Chairman, I yield back the balance of my 
time. Thank you for your consideration this morning.
    Mr. Hastings. Good. Thank you very much for your testimony.
    I recognize the gentlelady from Massachusetts, Ms. Tsongas.

    STATEMENT OF THE HON. NIKI TSONGAS, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Ms. Tsongas. Thank you, Chairman Hastings. I want to thank 
you for holding this hearing today, and for providing me the 
opportunity today to share my remarks on H.R. 5319, the Nashua 
River Wild and Scenic River Study Act of 2012, which I 
introduced in April of 2012. And I also want to thank Elizabeth 
Ainsley Campbell, the Executive Director of the Nashua River 
Watershed Association, who will be testifying today in support 
a little later today, and to also thank Congressman Olver for 
cosponsoring this legislation, since one of the towns along the 
river is in his district.
    The history and development of the towns and cities in the 
fifth district of Massachusetts has been defined by the many 
rivers that course through these unique communities. From the 
mighty Merrimack River that supported the birth of the 
Industrial Revolution in Lowell, to the Concord River, where a 
famous shot was heard around the world, our rivers continue to 
play an important role in connecting our communities.
    But time and development have not always been kind to these 
rivers. Beginning in the 1700s, and continuing to just a few 
decades ago, paper, shoe, and textile factories were 
constructed along the Nashua River and many other rivers in the 
area. The powerful currents of the rivers powered the factories 
and made their success possible. But at the same time, the 
factories were releasing industrial waste right back into the 
river, polluting the very source of their success.
    But in the mid-1960s, the Nashua River was one of the most 
polluted rivers in the Nation. In fact, the river would change 
color almost daily because of the inks and dyes released into 
the river by the paper factories.
    But in 1965 one fifth-district resident, Marion Stoddart, 
realized that something had to be done. Ms. Stoddart formed the 
Nashua River Clean-Up Committee to work toward cleaning up the 
river and protecting the land along its banks. Thanks to her 
work, and the continued work of the Nashua River Watershed 
Association, the Nashua River has come a long way. Pollution 
from the mills has been cleaned up. New sewage treatment plants 
now keep sewage out of the river. And more than 8,000 acres of 
land and 85 miles of greenway along the river banks have been 
permanently conserved. I can't praise enough Marion and all the 
dedicated residents, volunteers, and association staff who have 
spent countless hours working to make sure the Nashua River can 
once again be an asset to its communities.
    But there is much work to be done. And that is why I, 
working with the Nashua River Watershed Association, introduced 
a bill we are considering at this moment, a bill that would 
initiate a three-year study to determine whether roughly 28 
miles of the Nashua River and its tributaries can be designated 
as wild and scenic rivers. This study will allow the national 
park, the Watershed Association, and local governments and 
stakeholders to work together to form a plan to protect the 
river and make sure that it remains a great place for canoeing, 
fishing, and enjoying the great outdoors.
    Every two through which the river passes, in addition to 
several local environmental organizations, support the adoption 
of this legislation. And with your permission, Mr. Chairman, I 
would like to submit their letters for the record.
    Mr. Hastings. Without objection, it will be part of the 
record.
    [NOTE: The letters submitted for the record by Ms. Tsongas 
have been retained in the Committee's official files.]
    Ms. Tsongas. So, I urge a proper consideration of this 
legislation today. And I look forward to addressing any 
questions we may have. But I thank you again, Mr. Hastings, for 
bringing this legislation forward. Thank you.
    Mr. Hastings. Gentlelady yields back. Thank you for your 
statement.
    I know Mr. Turner has--everybody has a schedule, I 
understand. Not trying to pick sides, but I know Mr. Turner has 
a time frame. So I will recognize Mr. Turner for fiveminutes.

   STATEMENT OF THE HON. ROBERT TURNER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Turner. Thank you, Chairman Hastings. And thank the 
members of the Committee for the opportunity to testify today 
regarding H.R. 5958, which would rename the Jamaica Bay 
Wildlife Refuge Visitor Center of the Gateway National 
Recreation Area in honor of former New York Senator James L. 
Buckley.
    Senator Buckley not only represented New York in the 
Senate, he also served our country at the highest levels in all 
three branches of government, as well as the United States Navy 
during World War II. The bill recognizes Senator Buckley's 
service to our country, and his efforts to create the Gateway 
National Recreational Area in New York and New Jersey, the 
first urban park space created by the Federal Government.
    Along with his fellow New York Senator, Jacob Javits, 
Senator Buckley had the vision to create a national wildlife 
refuge in an urban area, accessible to the millions of people 
in New York City, as well as the millions of other residents in 
the metropolitan area.
    In 1970, during his first days in the Senate, Senator 
Buckley, along with Senator Javits, introduced legislation to 
create Gateway, a more than 26,000-acre area spanning 3 
boroughs, and stretching all the way to Sandy Hook, New Jersey. 
Senator Buckley was not satisfied with simply being a cosponsor 
of the bill, he was passionate and spoke on the Senate Floor on 
its behalf.
    This year, as it celebrates its 40th anniversary, Gateway 
welcomes more than 8 million visitors annually, from historic 
aircraft at Hangar B in Floyd Bennett Field, to America's 
oldest lighthouse that was established in 1767 in Sandy Hook, 
New Jersey.
    Gateway offers a piece of history for visitors, and for 
ornithologists, a glimpse at over 325 species of birds as they 
stop over on part of the Atlantic flyway, which stretches from 
the north of Canada to the Caribbean. Senator Buckley, an 
ornithologist himself, not only helped provide a rest area for 
the birds, but a perch for his fellow bird watchers. And I am 
happily in that company.
    Senator Buckley's environmental interests were not limited 
to New York. He cosponsored the 1972 Clean Water Act, a seminal 
law governing water pollution and contamination. He also 
cosponsored the Grand Canyon National Park Enlargement Act, 
which protected the majesty of one of our Nation's greatest 
natural habitats.
    Senator Buckley was also eloquent by pointing out how 
progress and the environment can evolve together. He stressed 
that we should concentrate on developing environmental programs 
at achievable rates and costs by saying we must learn how 
modern technology can co-exist with the natural world.
    I understand the National Park Service believes there 
should be a strong association between the park and the person 
being commemorated, and at least five years should have elapsed 
since the death of that person. This bill satisfies the first 
belief. I think Mr. Buckley has demonstrated his involvement 
and commitment in this. And I am sure that you may agree that 
Mr. Buckley should not be penalized for his longevity. He is in 
his 89th year.
    So, I hope you will join me in renaming the Jamaica Bay 
Wildlife Refuge Center after someone who served to protect his 
State, his country, and the environment. This is a fitting 
tribute to a man who spent most of his life sharing his 
intellect and his talent to serve others. Thank you.
    Mr. Hastings. I thank you very much for your testimony.
    And next we will recognize the gentleman from California, 
Mr. Denham, for his statement.

STATEMENT OF THE HON. JEFF DENHAM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Denham. Thank you, Mr. Chairman, for bringing up this 
bipartisan bill. As you will remember, not only do I represent 
the great area of Yosemite, but my predecessor, George 
Radanovich, had an interest in this, as well. This is a bill 
that I am proud to sponsor.
    Very closely aligned with the bill that is under--or that 
Congressman Radanovich had introduced previously, but basically 
it takes Yosemite National Park, allows them to purchase 18 
acres, which will take out the administrative accounting some 
of the jobs outside of the park, where you have people that are 
commuting over an hour drive every day each way. We need to 
have the park available to those that are working there and 
need to be in there on a daily basis, and move those that 
aren't in the day-to-day business outside of the park, which 
will actually give us an opportunity not only in safety and 
less cars on the road and in the park, but actually create jobs 
within Mariposa County.
    This land--this bill is supported by all of--many local 
interests, including Supervisor Cann, who is here to testify 
today. Some of the supporters are also the Yosemite 
Conservancy, local elected officials, Mariposa and Madera 
Counties, park enthusiasts, National Park Service, the Mariposa 
Tourism Board, and the local Chamber of Commerce.
    The bill simply allows Yosemite National Park to acquire 
this parcel of land already held by the Yosemite Conservancy, a 
private citizen that is holding the property for the very 
purpose. The VFW and PG&E all are willing participants in this 
acquisition. And this bill specifically prevents any 
governmental taking of land for this purpose.
    In my discussions with the Park Service, this land 
acquisition will be paid for through the proceeds received by 
the park. The legislation will allow the park to provide better 
access to more than four million visitors, annually. Through 
this bill, Yosemite will be better equipped to manage the 
traffic and the continuing rise in the guest attendance at the 
park, providing more access, resulting in the park not having 
to turn people away at the gates, as they often do now.
    Thank you again for allowing me to bring this bill up today 
and have it heard today in the Committee.
    Mr. Hastings. I thank the gentleman for his statement. Now 
we have the Delaware Duo. We have two-thirds of the 
congressional representation here.
    And I am going to recognize Mr. Carney to make a 
determination who goes first, whether it is him or Senator 
Carper.

STATEMENT OF THE HON. JOHN CARNEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF DELAWARE

    Mr. Carney. Thank you, Mr. Chairman. Senator Carper asked 
me to go first, so I will take the honors. I appreciate----
    Mr. Hastings. Well, we will ask him if he confirms that 
when you give him a chance to there.
    [Laughter.]
    Mr. Carney. That is right. As a former Member of the House, 
a long-serving Member of the House, he has deferred to the 
lower chamber in this instance.
    I am delighted that you are holding the hearing this 
morning. I thank you for the opportunity to share a few 
thoughts with you. As the at-large and only congressman for the 
State of Delaware, it is my pleasure to speak to you on H.R. 
624, the First State National Historical Park Act.
    Though Delaware was the first State to sign the 
Constitution and join the Union, she is the only State that 
does not have a national park. For the better part of the past 
decade, though, officials at every level of government in our 
State have worked with community members and activists to craft 
a proposal and a theme for a national park that is both 
appropriate for and unique to our State.
    In fact, one of the George W. Bush Administration's final 
acts in January of 2009 was to issue a National Park Service 
Special Resource Study, which concluded that a national park 
should be established in Delaware. The Park Service has 
recommended a ``partnership park'' celebrating Delaware's early 
Dutch, Swedish, and English settlements, and the events leading 
up to the State's role in the founding of our Nation.
    In acknowledgment of all the hard work that has gone into 
this process, I was honored to pick up where my predecessor, 
Congressman Mike Castle, left off. In February of last year, I 
reintroduced the House companion to my friend Senator Carper's 
legislation, S. 323. This iteration addresses questions and 
concerns raised during a legislative hearing in the Senate 
Energy and Natural Resources Committee last Congress. H.R. 624 
gives clear authority to the Park Service to negotiate site 
administration rights with site owners. It also designates 
historically significant sites in all three of Delaware's 
counties.
    The Senate Energy and Natural Resources Parks Subcommittee 
held a hearing on S. 323 in May of 2011. The full Committee 
marked it up favorably in November. And with your support I 
look forward to helping the House companion legislation move 
forward. Working together with Senator Carper, with Senator 
Chris Coons, I will continue to strive to bring this project to 
fruition.
    Thank you again for holding this hearing today. I greatly 
appreciate your help in establishing a park in the State of 
Delaware.
    Mr. Hastings. I appreciate the gentleman's testimony, and 
am very pleased to welcome Senator Carper back to this, the 
other side of the Rotunda. The gentleman is recognized.

STATEMENT OF THE HON. TOM CARPER, A UNITED STATES SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thanks very much, Mr. Chairman. It is great 
to see you. And I want to say again on behalf of Congressman 
Carney and myself, thanks for meeting with us to give us an 
opportunity to hear about the proposed national park, which, as 
John says, has been endorsed by not one administration, the 
current Administration, but also by the previous 
Administration. And we appreciate the great cooperation we had 
from Dirk Kempthorne, when he was Secretary of the Interior, 
and from Ken Salazar and his folks today.
    But I want to note, as John has, that our bill has been 
reported in the Senate out of the Senate Energy and Natural 
Resources Committee, and we hope that this Committee will 
quickly do the same.
    If adopted, this legislation would establish the first 
national park, as Congressman Carney has said, in the State of 
Delaware. We are the only State in the Union without a national 
park. We are the first State to ratify the Constitution. Mr. 
Chairman, for one whole week, Delaware was the entire United 
States of America, and we still are the only State without a 
national park.
    Sometimes people ask me what is the big deal about it, why 
do you want a national park so bad, and I would just say that 
the Chair of this Subcommittee is--Chairman Bishop, he is not 
here today. But his State, Utah, received in 2010 something 
like $617 million worth of economic development activity 
benefits from their national parks, $617 million. The Ranking 
Member of this Subcommittee is Congressman Grijalva. And 
Arizona received over $700 million in economic activities. I 
think the State of Washington, I believe, was a little over 
$200 million, about $264 million in 2010. So these are 
important considerations, as well, for us.
    But from Aulavik National Park to the Boston National 
Historic Park, national parks across 49 States tell an 
important story of our Nation's history and culture. Every 
year, millions of Americans and visitors from other countries 
plan their vacations around their nations' national park 
system. I was surprised to learn last year that the top tourist 
destination for people around the world, when they come to 
America, is to visit our National parks. Just think about that. 
Number one. And, as a result, these parks provide valuable 
economic tourism dollars, which I have described already.
    The first State, though, to ratify the Constitution, the 
first State of the Union, the State in which the Swedes, the 
first Finns came ashore, the first Dutch colonial settlement 
was established, where William Penn came ashore to establish 
the colony of Penn, which included, at the time, Delaware, all 
those things are part of our State's history. And yet we have 
no national park. We may be small, but our national park was 
crucial to the birth of our great Nation. And unfortunately, 
our State's unique story is not being told.
    The First State National Historical Park of 2011 would 
create a park celebrating early American Dutch, Swedish, and 
English settlements located throughout Delaware, and Delaware's 
role in leading--the events leading up to the ratification of 
our Constitution. This theme, built on an effort ongoing in my 
state for just about a decade--when it first came to the 
Senate, I knew Delaware had a rich history, a history that had 
yet to be told in any of our national parks. However, I was 
unsure what a national park in Delaware would look like.
    That is why, in 2002, I tasked a commission composed of 
Delaware State citizen leaders, activists, community leaders, 
State officials, to work together on a draft proposal for a 
park that could be embraced by the people of Delaware. And that 
proposal was finalized in 2004. I want to thank everybody that 
was a part of that effort, and particularly the commission and 
its late leader, Dr. Jim Soles, who was a mentor to both 
Congressman Carney and myself.
    But in part--thanks, in part, to the work of the commission 
in 2006, Congress authorized a National Park Service Resources 
Study to examine the need for a national park in Delaware. The 
National Park Service used the commission's proposal as the 
starting point for their own study. In January of 2009, the 
National Park Service finalized its study and agreed that, at 
long last, Delaware should have a national park, one of the 
last acts taken by the Bush Administration, as President George 
W. Bush left office.
    We took a majority of the suggestions by the Park Service, 
put them together in the legislation that is before you today. 
And not only will the Delaware national park tell an important 
story, but it will tell the story at a very low cost to 
taxpayers. We are told National Park Service has estimated that 
this park, if approved, will be one of the least expensive 
national parks in our national park system.
    We have also ensured that the Federal footprint of this 
park will be small, and given owners of the seven listed sites 
numerous options to be part of the park. Our legislation allows 
an owner of a site to reject an offer from the Park Service if 
they cannot come to an agreement with the Park Service that 
meets their needs.
    In closing, let me just add that Delaware may be small, but 
our little State was crucial to the birth of this great Nation. 
We believe we deserve the right to tell our story, which is 
really America's story. I hope in the near future visitors far 
and wide will come to Delaware to hear our story, to learn our 
story through our national park. And I hope that the many 
visitors will end up returning to their own homes with lasting 
memories of how our small State helped launch the most enduring 
experiment in democracy the world has ever known, the United 
States of America.
    Thank you, Mr. Chairman and colleagues.
    Mr. Bishop [presiding]. Thank you, Senator. We are happy to 
have you on the true side of the Capitol here.
    We will next turn to Representative Pearce of New Mexico 
for your bill.

    STATEMENT OF THE HON. STEVE PEARCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Mr. Chairman and Ranking Member 
Holt. Like Mr. Gallegly, I used to be a member of the Committee 
until my grade point average fell too low to maintain that 
membership. But I am trying to get it back up.
    Members of the Subcommittee and Chairman and Ranking 
Member, thank you for holding this hearing, and for inviting me 
to testify in support of H.R. 4334, the Organ Mountains 
National Monument Establishment Act.
    The Organ Mountains are a true natural treasure in Southern 
New Mexico, and one of our State's most pristine, recognizable 
sites. Everyone believes that they must be preserved, and that 
is the intention of this bill. One of the most important 
aspects of this legislation is the strong local support for its 
end goal. It is imperative that any land management declaration 
have the backing of the local community. Ranchers, 
conservationists, public officials, and business owners have 
strong agreement with the aims of this bill.
    The Greater Las Cruces Chamber of Commerce is supportive, 
and I would ask unanimous consent to insert into the record 
their letter of support.
    [No response.]
    Mr. Pearce. OK. Two witnesses you will hear from today, Dr. 
Jerry Schickedanz and Matt Rush, live and work in the community 
and have played a key role in garnering support for H.R. 4334. 
It is a local solution. Unfortunately, we see the ramifications 
of monument declarations by Presidential edict, and the effect 
that they have not only on the economic base of a community, 
such as the ongoing dispute over cattle grazing in the Grand 
Staircase-Escalante Monument in Utah, but a declaration with 
little public input causes a strain and cynicism between 
individuals and the Federal Government to fester.
    The U.S. Constitution grants the power to determine land 
management plans to the legislative branch under Article IV. 
This constitutional authority lends more credibility to the 
legislative process as a mechanism for making monument and 
other determinations. It serves as a check on the Federal 
Government and keeps it from abusing local authorities. The 
legislative process is a highly democratic method of making 
decisions with long-term policy implications.
    It is in this spirit that I sponsored H.R. 4334. It 
protects the Organ Mountains permanently from disposal. The 
monument will forever be a part of the national landscape 
conservation system. Mineral exploration will be banned 
permanently. It allows for motorized vehicles to stay on 
existing roads and trails designated for their use, allowing 
the elderly, families with small children, and the disabled to 
access this pristine area. It also allows for the use of 
mechanized equipment for standard ranching operations, and to 
make repairs to earthen dams for the sake of our watersheds.
    The agriculture community shows strong support for this 
legislation, as well. The bill protects current grazing 
permitees and ensures that future grazing permits will be 
issued. This injects regulatory stability into an industry that 
is often times left behind in the Washington game of special 
interest posturing. Our local ranchers deserve a regulatory 
framework that takes their interests into account, along with 
the need to protect our lands.
    Existing water rights are also protected and Federal water 
rights are not expanded. Private land holders who have property 
surrounding the monument will have access to their land 
holdings. The State Government will continue to have 
jurisdiction over fish and gaming permitting, so that our 
sportsmen can continue to enjoy the outdoors. In short, the 
bill creates a framework for responsible recreation and 
expanded access all at once. It protects our resources, while 
guaranteeing that our sportsmen and other outdoor recreational 
activists can enjoy this natural way to the greatest extent 
possible.
    There are currently 12 national monuments in the State of 
New Mexico. In 11 there are no weapons or hunting allowed. This 
is--the hunting right must be protected in any management plan.
    I would ask unanimous consent to insert the rest of my 
statement into the record, and I have about a one-minute video 
that would show you that a competing plan in the Senate does 
not comply with the underlying language. Senator Bingaman has 
introduced a wilderness bill, and I would like to show that 
video at this time.
    Mr. Bishop. Your statements are entered. Let's start the 
video.
    [Video shown.]
    Mr. Pearce. Basically, what is happening, the bill--the 
bottom area shows you the actual map, and the airplane is 
flying along roads that exist in the area. The map above is the 
one that was presented to the Senate Committees, and actually 
deletes all of the roads that are in there. So technically, we 
feel like--that the wilderness bill that Senator Bingaman has 
proposed does not comply with the wilderness itself. It takes 
an area of 200,000 acres and puts it into wilderness. Our bill 
is less restrictive, allowing grazers to operate.
    And so, again, just the area that we are flying here is 
different areas in the national park that--or in the area 
suggested as wilderness in Senator Bingaman's bill. And it just 
technically doesn't qualify for wilderness designation.
    The--with that, I will yield back the balance of my time 
and thank the Chairman.
    [The prepared statement of Mr. Pearce follows:]

       Statement of The Honorable Steve Pearce, a Representative 
         in Congress from the State of New Mexico, on H.R. 4334

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee, thank you for holding this hearing and for inviting me to 
testify in support of H.R. 4334, the Organ Mountains National Monument 
Establishment Act. The Organ Mountains are a true natural treasure in 
Southern New Mexico, and one of our state's most pristine, recognizable 
sites. Everyone believes they must be preserved. And that is the 
intention of this bill.
    One of the most important aspects of this legislation is the strong 
local support for its end goal. It is imperative that any land 
management declaration have the backing of the local community. 
Ranchers, conservationists, public officials and business owners have 
strong agreement with the aims of this bill. The Greater Las Cruces 
Chamber of Commerce is supportive. Two witnesses you will hear from 
today, Dr. Jerry Schickedanz and Matt Rush, live and work in the 
community, and have played a key role in garnering support for H.R. 
4334. It is a local solution.
    Unfortunately, we see the ramifications of monument declarations by 
presidential edict and the effect they have not only on the economic 
base of a community, such as the ongoing dispute over cattle grazing in 
the Grand Staircase-Escalante Monument in Utah, but a declaration with 
little public input causes the strain and cynicism between individuals 
the federal government to fester.
    Plus, the US Constitution grants the power to determine land 
management plans to the legislative branch under Article IV. This 
constitutional authority lends more credibility to the legislative 
process as a mechanism for making monument and other determinations. It 
serves as a check on the federal government, and keeps it from abusing 
local authorities. The legislative process is a highly democratic 
method of making decisions with long-term policy implications.
    It is in this spirit that I sponsored H.R. 4334. It protects the 
Organ Mountains permanently from disposal. The Monument will forever be 
a part of the National Landscape Conservation System. Mineral 
exploration will be banned permanently. It also allows for motorized 
vehicles to stay on existing roads and trails designated for their use, 
allowing the elderly, families with small children and the disabled to 
access this pristine area. It also allows for the use of mechanized 
equipment for standard ranching operations and to make repairs to 
earthen dams for the sake of our watersheds.
    The agricultural community shows strong support for this 
legislation as well. The bill protects current grazing permittees, and 
ensures that future grazing permits will be issued. This injects 
regulatory stability into an industry that is oftentimes left behind in 
the Washington game of special interest posturing. Our local ranchers 
deserve a regulatory framework that takes their interests into account 
along with the need to protect our lands.
    Existing water rights are also protected, and federal water rights 
are not expanded. Private landowners who have property surrounded by 
the monument will have access to their landholdings. The state 
government will continue to have jurisdiction over fish and game 
permitting, so that our sportsmen can continue to enjoy the outdoors.
    In short, the bill creates a framework for responsible recreation 
and expanded access all at once. It protects our resources, while 
guaranteeing that our sportsmen and other outdoor recreational 
activists can enjoy this natural area to the greatest extent possible. 
There are currently 12 national monuments in the state of New Mexico. 
In 11, there are no weapons or hunting allowed. This is a right that 
must be protected in any management plan.
    Another aspect that the federal government must take into account 
is the need to ensure law enforcement personnel can access federal 
lands in pursuit of criminals and for other emergency response needs. 
The close proximity to the Mexican border makes it even more important 
that we work to keep this area from becoming a drug or human smuggling 
corridor. We see in the Organ Pipe National Monument on the Arizona-
Mexico border that Park Rangers have to carry weapons, and that tours 
are often limited to the daytime with armed Parks Service personnel 
guides. Many parts of the Monument are kept off limits from American 
tourists because of the danger of running into members of a drug cartel 
or human smugglers. The environmental degradation of these areas caused 
by gangs leaving trash and human waste behind is disturbing and sad for 
those of us who want to enjoy our natural heritage. Seeing what has 
happened Arizona, and wanting to keep it from happening in New Mexico, 
the Dona Ana County Sheriff, Todd Garrison, has endorsed H.R. 4334.
    Several potential amendments to the bill have been suggested by 
citizens in the county to enhance the hunting and security aspects of 
it. I welcome those suggestions, and am happy to accommodate. 
Similarly, it has been suggested that a name change to the Organ 
Mountains-Cox Family Memorial National Monument be considered. The Cox 
family is a local ranching pioneer family in Dona Ana County, and has 
been in the area for more than a century. I would gladly consider such 
a change, along with strengthening recreation language to ensure the 
greatest amount of responsible access.
    Once again, I would like to thank the Chairman, Ranking Member and 
the rest of the Committee members for the invitation today, and your 
willingness to consider the Organ Mountains National Monument 
Establishment Act. I look forward to your questions.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman Pearce, I appreciate 
doing that. You all--first of all, if you would like to stay 
for questions, you may. If you want to join us on the dais, I 
have only had one other person in the history of this Committee 
that has actually taken me up on that offer. I would be pleased 
to have a second. You have a chance of doing it.
    Mr. Pearce. I am thinking about my future, sir. I guess I 
will.
    [Laughter.]
    Mr. Bishop. Mr. Chaffetz, sorry to have you waiting this 
long for it. You have an issue with Yucca Mountain, I 
understand?
    Mr. Chaffetz. No, not today. That is later.
    Mr. Bishop. That is later? OK.
    Mr. Chaffetz. Yes.
    Mr. Bishop. Would you introduce the Y Mountain bill for us, 
please?

   STATEMENT OF THE HON. JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. Thank you, Chairman. I am here to testify on 
behalf of H.R. 4484, which is the Y Mountain Access and 
Enhancement Act. This was introduced in a bipartisan way, and 
myself, Mr. Faleomavaega, Mr. Flake, and Mr. McKeon introduced 
this bill, which has good, broad community support. I am 
joined--I know later will be testifying the Mayor of Provo. Mr. 
Curtis will be testifying on behalf of this bill.
    In short, if you go into Utah Valley, and you were to go to 
Provo, Provo is the home to Brigham Young University, one of 
the largest private schools in the State. And on the east side 
of the city is the beginning of what becomes the Y Mountain 
access trail. Decades and decades ago they painted a big Y up 
on the side of the mountain. It has just really become a 
fixture in our community. Our people like to hike a trail that 
takes us up to the Y. Some from the University of Utah like to 
climb that trail and paint it red. We try to keep it white down 
in Utah County. But nevertheless, people like to hike the 
trail. They use it year-round.
    Decades and decades ago, more than 50 years ago, Brigham 
Young University actually used to own about an 80-acre parcel 
that encompassed the Y that is there on the mountain. Now, with 
this bill, that would allow Brigham Young University to 
purchase that 80 acres back from the Federal Government.
    So, if you were to go to the trail head and start to follow 
up the trail, the first half of that trip, roughly, you would 
be on property that is owned by Brigham Young University. What 
they simply want to do is be able to purchase that second half 
of the trail, so that there is some continuity. The idea here 
is that there would be better maintenance, better access. It 
would be better maintained. We think there are some safety 
issues, and what not.
    The bill requires that Brigham Young University must 
continue to allow access as there is today. But you can 
understand why the access issues are such that one-half of the 
trail owned by one and the other half owned by somebody else, 
there isn't the continuity or the safety issues that are 
involved there.
    It is a fixture in our community, it is a pride of our 
community. I think everybody wants to see the continued access. 
But we do believe that this bill would allow people a better 
experience. There will be better maintenance, better control of 
this to make sure that the community of all sorts can enjoy 
this. The bill legislates or mandates that the BYU pay the fair 
market value for the land, that Brigham Young University cover 
administrative and appraisal costs. And we just think that this 
is a well-crafted bill. It is--we are talking about 80 acres.
    We did introduce it in a bipartisan way, and we would 
encourage the community to look at this. I would be happy to 
answer any questions now or in the future about this. But we do 
encourage the passage of H.R. 4484, and appreciate the 
consideration.
    Mr. Bishop. Thank you, Congressman Chaffetz. I appreciate 
you being here. And once again, the same invitation applies to 
you, if you would like to join us here on the dais as we go 
through your bill with the other testimony, we would be happy 
to have you here.
    [No response.]
    Mr. Bishop. All right, you don't have to. But we would be 
happy to have you here, if you would like to.
    I am going to turn to the Committee and see if there are 
any questions or statements for whoever is not here at this 
stage of the game.
    Mr. McClintock, do you have questions?
    Mr. McClintock. Mr. Chairman, would this be an appropriate 
time to make a statement on one of the measures before us?
    Mr. Bishop. I will accept that, go ahead.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you. Mr. Chairman, we have before us 
today H.R. 3640, that authorizes the Secretary of the Interior 
to acquire 18 acres in Mariposa, California, as the site of a 
new Yosemite visitors center and administrative office complex. 
I had the opportunity to meet with a group of county officials 
and business leaders earlier this year in Mariposa who were 
pursuing this project as a gateway to Yosemite.
    As Mariposa County Supervisor Kevin Cann will explain to 
the Subcommittee today, the advantages include moving more than 
100 Yosemite employees out of the park, and providing a one-
stop center for park visitors to ``get a full park ranger 
orientation, entrance passes, maps, and plan their trip before 
they enter the park.''
    The ultimate goal is to remove as many vestiges of human 
activity from the park as possible, stopping Yosemite-bound 
travelers in Mariposa, and then bussing them in for day trips.
    I am not taking a position on the bill as yet, but I do 
want to address a number of concerns.
    First among them is whether this plan has been fully vetted 
locally in Mariposa. A few weeks after I met with Supervisor 
Cann I was invited to a community meeting in Mariposa attended 
by several hundred Mariposa residents who raised the issue 
during a question and answer session, and expressed strong 
opposition to the project. Among their concerns were why 18 
acres was necessary for an office complex, what negative impact 
such a complex would have on the quiet ambience of the town, 
and how the Federal Government could afford to take on new 
projects during an unprecedented fiscal crisis. I appreciate 
the Chairman granting my request to invite one of the 
organizers of this meeting to testify today.
    Of all the unresolved issues surrounding this, it is 
crystal clear that a consensus has not yet emerged locally. 
Second, and more importantly, is the impact of this proposal on 
park visitors and on surrounding gateway communities. Mariposa 
is 30 miles from Yosemite. Moving employees and visitor 
services from the park means that they will not be available to 
visitors at the park.
    And Mariposa County is not the only gateway to Yosemite. It 
certainly serves visitors coming to the west entrance on 
Highway 140. But neighboring Tuolumne County serves as a 
gateway from the north on Highway 120, and Madera County is the 
gateway to the south entrance from the populous Southern 
California area on Highway 41. These counties have not taken a 
position on this legislation, but have expressed some concern.
    As Madera County Board of Supervisors Chairman Ronn 
Dominici wrote to Congressman Denham on April 10th of this 
year, ``As in Mariposa County, Madera County directly benefits 
from tourists traveling to Yosemite National Park. Eastern 
Madera County is comprised of many southern gateway 
communities, such as Oakhurst, who depend almost solely on 
tourism. The number of tourists that visit the park through the 
south gate entrance, more than 1.1 million of the 3.6 million 
total visitors in 2011, surpasses any other gate. Thus, we 
believe that our county should also be considered for any 
project that utilizes park fees for visitor services.''
    I would ask unanimous consent to place that letter in the 
record.
    Mr. Bishop. So ordered.
    [NOTE: The letter entered into the record by Mr. McClintock 
has been retained in the Committee's official files.]
    Mr. McClintock. Tuolumne County's government affairs 
representative voiced a similar concern. By removing visitor 
services 30 miles to the west, travelers from both the northern 
and the southern parts of California would be diverted many 
miles out of their way to obtain services that they could 
otherwise access in the park, itself. Moreover, every visitor 
trip that Mariposa may gain by this project is a visitor trip 
lost to neighboring communities like Sonora and Oakhurst, whose 
economies are just as depending on Yosemite-generated tourism.
    So, I would hope that these issues can be addressed in a 
consensus bill that takes into account the wishes of park 
users, local community concerns within Mariposa County, as well 
as concerns of Mariposa's neighbors that could be devastated, 
economically, if Congress begins picking winners and losers 
among Yosemite's gateway communities.
    I thank you for the opportunity to address the issue, and 
yield back the balance of my time.
    Mr. Bishop. Thank you, Congressman. Mr. Holt, do you have 
any opening comments or questions?
    Dr. Holt. Yes, if I may.
    Mr. Bishop. Please, go ahead.
    Dr. Holt. Just a very brief comment. I noted the testimony 
of the Senator and Representative from Delaware that for a 
period of time they were the United State--and I say, for the 
court reporter, singular--of America. And I think it is 
appropriate that we find a way for the State to have a national 
park. And I think a lot of good planning has gone into this 
one.
    I know the Chairman often talks about how much Federal land 
there is in his State. It may be that the Federal Government 
would want to take some land in Utah and cede it to Delaware, 
increase the size of the State, give them a national park. But 
one way or another--that was, again, for the court reporter, 
delivered with a wink--the--I think it is appropriate that we 
try to find a way for a good national park presence in 
Delaware. And I yield back my time. Thank you.
    Mr. Bishop. All right. We appreciate that. We will now turn 
to the next panel who is here, and talk about H.R. 4334, the 
Organ Mountains National Monument Establishment Area.
    If I could have Carl Rountree, who is the Director of the 
National Landscape Conservation System in BLM come up here, as 
well as Jerry Schickedanz, who is the Chairman of the People 
for Preserving our Western Heritage, Matt Rush, the Executive 
Vice President of the New Mexico Farm and Livestock Bureau, and 
Bill Garrett, a Commissioner in District 1 in Dona Ana County. 
I hope I pronounced the county right. Mr. Schickedanz, I hope I 
pronounced your name correctly. At least that is what you would 
say in German, anyway. If we had those gentleman come up here, 
I would appreciate it.
    Mr. Schickedanz. It took my brother to the second grade to 
learn how to spell it.
    Mr. Bishop. Gentlemen, we are speaking just for this 
particular bill, the Organ Mountains National Monument 
Establishment Act. We will start with Mr. Rountree and then 
just go down the panel.
    I would remind you all once again that you have--your 
written statements are already submitted and included in the 
record. We will be hearing oral testimony. You have the timer 
in front of you there. You have five minutes. I would 
appreciate you keeping to that five-minute limit. The green 
light means everything is going well. The yellow light means 
you have a minute left. I would ask you to please conclude when 
the red light goes on or before, if you want us to be nice to 
you when we do the questions.
    And, Mr. Pearce, happy to have you here. If you actually 
want to come closer to us, we did bathe this morning. You can 
sit down there at the end, if you would like to. OK, fine.
    Anyway, Mr. Rountree, if you would start, please.

   STATEMENT OF CARL ROUNTREE, DIRECTOR, NATIONAL LANDSCAPE 
CONSERVATION SYSTEM, BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Mr. Rountree. Thank you, Mr. Chairman, and thank you for 
inviting the Department of the Interior to testify on H.R. 
4334, the Organ Mountains National Monument Establishment Act. 
I will briefly summarize my written statement.
    The Department of the Interior strongly supports the 
protection and the conservation of the Organ Mountains in 
Southern New Mexico. This area is a national treasure, 
deserving the protections that come with designation as a 
national monument. Last year, the Department testified in 
support of S. 1024, the Organ Mountains Dona Ana County 
Conservation and Protection Act, before the Senate Energy and 
Natural Resources Committee. The Department recommends a number 
of changes to H.R. 4334, so that we can likewise support this 
bill in the future.
    The Organ Mountains lie to the east of Los Cruces, New 
Mexico, dominating the landscape as they rise some 9,000 feet 
in elevation. Running generally north-south for 20 miles, the 
steep, needle-like spires resemble the pipes of an organ, and 
are an iconic fixture of life in Southern New Mexico. They are 
a popular recreation area with multiple hiking trails, a 
campground, opportunities for hunting, mountain biking, and 
other dispersed recreation. The mountain harbors more than 800 
plant species, some of which occur nowhere else, and hosts 
hundreds of species of animals. They also contain the traces of 
ancient people and evidence of the area's more recent past.
    H.R. 4334 would designate 58,500 acres of BLM-managed 
public land in the Organ Mountains National Monument--as the 
Organ Mountains National Monument. Generally, the purpose of 
this section of a national monument or a national conservation 
area designation establishes the conservation goals for the 
unit. In this bill, the purpose statement of H.R. 4334 includes 
resources that are undefined and unnecessary for the 
conservation of the area. And we recommend that they be removed 
from the purposes section.
    While the BLM supports the continuation of grazing within 
the proposed national monument, grazing and traditional uses 
should not be listed as monument purposes.
    The boundaries established for the Organ Mountains National 
Monument under H.R. 4334 reflect the boundaries that the BLM 
administratively established for the Organ Mountains Area of 
Critical Environmental Concern, ACEC, in 1993. In the nearly 20 
years since that ACEC was established, numerous changes on the 
ground and in the local community have resulted in the BLM's 
support for a larger national monument boundary with a 
different configuration. We would be happy to work with the 
sponsor and the Committee to modify the boundaries.
    Finally, section 9 of H.R. 4334 calls for the release of 3 
wilderness study areas from WSA status. The BLM opposes this 
wholesale release, and instead recommends the designation of 
approximately 19,000-acre wilderness area within the proposed 
national monument, and the release of about 400 acres from WSA 
status.
    The Organ Mountains are not only a treasure for the State 
of New Mexico, but one of national significance to be protected 
and cherished by and for all of the people of the United 
States. The Department looks forward to working with the 
sponsor and the Committee to find solutions to the issues we 
have raised, so that the Organ Mountains get the full 
protection they so richly deserve.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rountree follows:]

    Statement of Carl Rountree, Assistant Director, Bureau of Land 
   Management, U.S. Department of the Interior, on H.R. 4334, Organ 
             Mountains National Monument Establishment Act

    Thank you for inviting the Department of the Interior to testify on 
H.R. 4334, the Organ Mountains National Monument Establishment Act. The 
Department of the Interior strongly supports the protection and 
conservation of the Organ Mountains in southern New Mexico. This area 
is a national treasure deserving of the protections that come with 
designation as a National Monument. Last year, the Department testified 
in support of S. 1024, the Organ Mountains--Dona Ana County 
Conservation and Protection Act, before the Senate Energy and Natural 
Resources Committee. S. 1024 provides for the designation of the Organ 
Mountains as a National Conservation Area (NCA) as well as a number of 
other conservation designations in Dona Ana County, New Mexico. The 
Department recommends a number of changes to H.R. 4334, so that we can 
likewise support this bill in the future.
Background
    The Organ Mountains lie to the east of Las Cruces, New Mexico, 
dominating the landscape as they rise to over 9,000 feet in elevation. 
Running generally north-south for 20 miles, the steep, needle-like 
spires resemble the pipes of an organ and are an iconic fixture of life 
in southern New Mexico. This Chihuahuan Desert landscape of rocky 
peaks, narrow canyons, and open woodlands contain a multitude of 
biological zones, from mixed desert shrubs and grasslands in the 
lowlands, ascending to Alligator juniper, gray oak, mountain mahogany 
and sotol, and finally to ponderosa pines at the highest elevations. 
Consequently, the area is home to a high diversity of plant and animal 
life, and excellent wildlife viewing opportunities are present in the 
area. Visitors frequently see golden eagles, red-tailed hawks, 
peregrine falcons, Gamble's quail, desert mule deer, coyote, 
cottontail, and collared lizards. Mountain lions and other predators 
are also present, but less frequently observed.
    There are six endemic wildflower species, including the Organ 
Mountains evening primrose. Seasonal springs and streams occur in the 
canyon bottoms, with a few perennial springs that support riparian 
habitats.
    The Organ Mountains are a popular recreation area, with multiple 
hiking trails, a campground, and opportunities for hunting, mountain 
biking, and other dispersed recreation. There are several developed 
recreation areas within the Organ Mountains, including the Dripping 
Springs Natural Area (formerly known as the Cox Ranch) noted for its 
``weeping walls;'' the Aguirre Spring Campground, nestled at the base 
of the spectacular needle-like spires of the Organ Mountains; the 
Soledad Canyon Day Use Area; and many miles of hiking, horseback 
riding, and mountain biking trails.
H.R. 4334
    H.R. 4334 would designate 58,500 acres of BLM-managed public land 
as the Organ Mountains National Monument. Each of the National 
Monuments and NCAs designated by Congress and managed by the Bureau of 
Land Management is unique. However, these designations have certain 
critical elements in common, including withdrawal from the public land, 
mining, and mineral leasing laws; off-highway vehicle use limitations; 
and language that charges the Secretary of the Interior with allowing 
only those uses that further the conservation purposes for which the 
unit is established. Furthermore, these Congressional designations 
should not diminish the protections that currently apply to the lands.
    Most of these standard provisions are included in H.R. 4334; 
however there are provisions that require amendment before the 
Department could support the legislation. Generally, the ``purposes'' 
section of a National Monument or NCA designation establishes the 
conservation goals for the unit. In this bill, the purpose statement 
for H.R. 4334 includes two ``resources'' that are undefined and 
unnecessary for the conservation of the area. Specifically, in section 
5, both ``livestock'' and ``traditional'' are listed as resources to be 
conserved, protected, and enhanced, along with the more standard 
``cultural, archaeological, natural, ecological, geological, 
historical, wildlife, watershed, educational, recreational and scenic 
resources.'' The inclusion of grazing and traditional ``resources'' in 
the purpose statement could prevent the BLM from adequately managing 
the area.
    Grazing exists on most of the BLM's National Monuments and NCAs, as 
with most public lands, and is typically consistent with their 
management. However, grazing is not a stated purpose of any national 
monuments. Section 6(c) of H.R. 4334 mandates that grazing continue in 
accordance with the same law and executive orders that apply to grazing 
on other land under the BLM's administrative jurisdiction, and we do 
not object to this provision. However, National Monuments and NCAs are 
intended for the protection, conservation, and restoration of 
nationally-significant resources, objects, and values of historic or 
scientific interest. Establishing livestock as a resource to be 
conserved and protected within this National Monument may, at a 
minimum, lead to confusion. A more extreme interpretation could create 
conflicting and inconsistent management standards for the grazing of 
livestock within the national monument compared to standards for 
grazing management on other lands managed by the BLM. This would be 
problematic from both a grazing management perspective, as well as a 
monument management perspective, and we oppose the addition of 
livestock as a monument purpose under the bill. Likewise, the term 
``traditional. . .resources'' is an ambiguous term which the bill 
leaves undefined. The BLM has concerns about the scope of activities 
that this might include. In summary, while the BLM supports the 
continuation of grazing within the proposed national monument, grazing 
and traditional uses should not be listed as monument purposes.
    The boundaries established for the Organ Mountains National 
Monument under H.R. 4334 reflect the boundaries that the BLM 
administratively established for the Organ Mountains Area of Critical 
Environmental Concern (ACEC) in 1993. In the nearly 20 years since that 
ACEC was established, numerous changes on-the-ground and in the local 
community have resulted in the BLM's support for a larger national 
monument boundary with a different configuration.
    For example, the BLM has made a number of significant land 
acquisitions in the area over the past 20 years, including 400 acres on 
the east side which make up the popular Soledad Canyon Day Use Area. 
These acquired lands, along with surrounding public lands, should be 
incorporated into the bill's proposed monument to protect important 
resources.
    Also, the Army's Fort Bliss and White Sands Missile Range borders 
much of the east side of the existing ACEC. Working with the local BLM, 
the Army has indicated a strong interest in transferring the Filmore 
Canyon area to the BLM for conservation and protection as part of a 
larger designation. Additionally, the Army has advocated for additional 
conservation lands on the south and east in order to prevent 
development adjacent to these army bases. In addition, the Army 
recommends military overflight language (similar to that included in S. 
1024) as well as language on the compatibility of current and future 
military training and testing activities on DoD lands adjacent to the 
proposed national monument.
    On the south side of the existing ACEC, the BLM advocates both 
expanding the national monument in certain areas to protect important 
natural and historic resources, and also contracting the boundary in 
the vicinity of Anthony Gap to provide for an expanded utility and 
transmission corridor outside of a designated national monument. We 
would welcome the opportunity to discuss these proposed boundary 
modifications in more detail with the sponsor and the Committee.
    Finally, section 9 of H.R. 4334 calls for the release from 
wilderness study area (WSA) status of three WSAs totaling over 17,000 
acres. The BLM opposes this wholesale release and instead recommends 
the designation of an approximately 19,000-acre wilderness area within 
the proposed national monument, and the release of about 800 acres from 
WSA status. The land currently comprising the Organ Mountains, Organ 
Needles and Pena Blanca WSAs contains exceptionally high wilderness 
values. These three WSAs form the heart of the most rugged, isolated, 
and secluded sections of the Organ Mountains. Granite spires and red 
rhyolite cliffs are split by ribbons of green trees providing 
exceptional scenery for the visitor. This is what Congress envisioned 
when it passed the 1964 Wilderness Act describing areas with 
``outstanding opportunities for solitude or a primitive and unconfined 
type of recreation.''
Conclusion
    The Organ Mountains are not only a treasure for the state of New 
Mexico, but one of national significance to be protected and cherished 
by and for all the people of the United States. The Department looks 
forward to working with the sponsor and the Committee to find solutions 
to the issues we have raised, as well as additional more technical 
issues, so that the Organ Mountains get the full protection they so 
richly deserve.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate that.
    Mr. Schickedanz, please.

           STATEMENT OF JERRY SCHICKEDANZ, CHAIRMAN, 
           PEOPLE FOR PRESERVING OUR WESTERN HERITAGE

    Mr. Schickedanz. My name is Jerry Schickedanz. I am 
Chairman of People for Preserving our Western Heritage, a 
coalition of 791 businesses in Southern New Mexico. Our mission 
is to preserve, promote, and protect the farming, ranching, and 
rural heritage of our western lands. We support H.R. 4334, 
Organ Mountains National Monument Establishment Act.
    H.R. 4334 is a common-sense approach to permanently 
protecting the Organ Mountains. The picture-perfect backdrop of 
the City of Los Cruces, New Mexico has been an item of local 
discussion for many years. There have been various proposals 
for wilderness and national conservation areas that include the 
Organ Mountains and other outlying areas that have not gained 
full support, but have divided the community.
    The land area addressed by H.R. 4334 has been under BLM 
administrative protection since the early 1990s as an area of 
critical environmental concern. That includes three wilderness 
study areas. From the earliest attempts to permanently protect 
the Organ Mountains, proposals have grown from 58,000 acres 
within the Organs to over 600,000 acres throughout Dona Ana 
County, which would designate over one-fourth of the county as 
a national monument by Presidential proclamation.
    H.R. 4334 has brought the vision of permanently protecting 
the Organ Mountains back into the realm of reality and common 
sense. This proposed legislation would permanently protect the 
Organ Mountains, a single proposal with universal support 
throughout Dona Ana County. This legislation would properly 
conserve, protect, and enhance the many resources within these 
mountains that exist today because of the stewardship provided 
by the W.W. Cox Ranch family for over 124 years. Their love and 
care of the land is evident, and we have an obligation to 
preserve and protect the fruits of their labor.
    We must understand that the Cox stewardship occurred under 
the umbrella of a working cattle ranch, and H.R. 4334 is the 
only pending measure that properly acknowledges that fact. The 
bill would protect livestock grazing within the Organ Mountain 
National Monument, and allow ranching to continue for the 
benefit and enjoyment of generations to come.
    Lands west of the 100th meridian were settled through the 
development of natural water and water for windmills, pumps, 
and earthen dams. This bill recognizes and protects those water 
rights which are important to manage the land for livestock, 
wildlife, and recreation. No new roads would be built, unless 
they are determined by the Secretary to be necessary for the 
resource protection or public safety. Use of motorized vehicles 
will only be approved for the use on designated roads, as 
determined by the management plan. This will allow 
authorization for motorized vehicle use in standard ranching 
practice and construction and maintenance operation or 
management of flood control, or water conservation systems.
    Flood water management is of high importance in the desert 
southwest, with the lands being prone to flash floods during 
the monsoon season. Because we have a limited ability to 
predict the future needs, the bill provides for utility rights 
of way upgrades, renewal, and authorization if they meet the 
standards of NEPA and other terms and conditions specified by 
the Secretary.
    The bill also addresses the protection of other resources 
the community finds important, such as cultural, archeological, 
historical, and scenic values. I would hope that the merits of 
this bill will gain bipartisan support, and permanently protect 
our magnificent Organ Mountains.
    I have collected over 870 signatures in the last couple of 
weeks in support of this bill and opposing the movement to 
establish a national monument by proclamation. Therefore, we 
support the passage of H.R. 4334 to settle once and for all the 
permanent protection of the Organ Mountains.
    We would further recommend that the title be changed to 
``Organ Mountains Cox Family National Monument,'' as a lasting 
tribute to this stalwart pioneering family, and to the legacy 
of livestock ranching in the Southwest United States.
    I also have brought with me to be entered into the 
hearing's record a letter from the New Mexico Federal Lands 
Council in support of this bill. Also, a letter and attached 
resolutions from the Chair of the Dona Ana County Commission 
and actions that are relative to this bill. Thank you.
    [The prepared statement of Mr. Schickedanz follows:]

Statement of Jerry G. Schickedanz, Chairman, People for Preserving our 
   Western Heritage, on H.R. 4334, Organ Mountains National Monument 
                           Establishment Act

    I am Jerry G. Schickedanz, Chairman of People for Preserving Our 
Western Heritage (PFPOWH), a coalition of 791 businesses and 
organizations in Dona Ana County, New Mexico. The organization was 
formed in November of 2006, after a series of meetings among federal 
lands stakeholders organized by the County of Dona Ana and the City of 
Las Cruces to establish consensus on proposed wilderness designation 
for ten local areas.
    The mission of PFPOWH is ``To preserve, promote and protect the 
farming, ranching and rural heritage of our western lands.''
    We support permanent preservation and protection of the Organ 
Mountains and other special areas in our county.
    We further support H.R. 4334, ``Organ Mountains National Monument 
Establishment Act.''
COMMUNITY EXPECTATIONS
    During the stakeholder meetings held in 2006 and 2007, participants 
agreed on a list of nine community concerns and expectations for 
management of our public lands. Primary attention was focused on the 
Organ Mountains.
1.  Retention of open space
    Almost everyone is committed to the preservation of open space.
2.  Provision for planned economic and population growth.
    The population of Dona Ana County is going to grow. That growth 
will require some federal and state lands to be included within the 
scope of land use planning.
3.  Unrestricted application of Homeland Security and law enforcement 
        activities.
    No prudent leader should tie the hands of law enforcement on or 
near the Mexican border.
4.  2Prevention of unlawful use of off-road vehicles.
    Every group and every stakeholder representative supported the 
prevention of unlawful off-road vehicular traffic.
5.  Continued access for all segments of the public.
    Most participants were opposed to the closing of existing roads on 
public lands.
6.  Perpetuation of traditional ranching operations.
    There is a growing understanding that in-tact ranch operations are 
the best mechanism to maintain the viability of open space in the West.
7.  Access for flood control and water capture projects.
    Dona Ana County is part of a desert ecosystem. Most of our annual 
rainfall occurs during the months of July, August and September. Sudden 
flood, causing downpours are common. Our local Elephant Butte 
Irrigation District has initiated innovative measures to control those 
flood waters, protecting the populated areas from damaging floods by 
directing the runoff into the irrigation distribution and drain canal 
system where it recharges the Rio Grande aquifer and supplements 
irrigation water under the Rio Grande Compact. These initiatives are at 
risk under overly restrictive federal lands legislation.
8.  Enhancement of wildlife and rangeland health.
    Scientific study has confirmed the improvements to plant and 
wildlife communities can result from prudently managed livestock 
grazing programs. Virtually all of the permanent water sources 
available to wildlife in Dona Ana County, other than the Rio Grande, 
are the result of livestock water facilities developed and paid for by 
livestock operators.
9.  Fidelity of Wilderness.
    Most of the proposed Dona Ana County Wilderness areas do not meet 
the fidelity standards of wilderness as described in the 1964 
Wilderness Act.
Concerns Generated by other proposals
    While there may have been consensus on community expectations, 
there has not been consensus on how to protect these lands in Dona Ana 
County. There have been proposals ranging from designating the 58,000 
acre foot print of the Organ Mountains as a National Conservation Area, 
240,000 acres of wilderness plus 100,000 acres of national conservation 
area, to a 600,000 acre proposal of a national monument that would side 
step the legislative process through a proclamation to be signed by the 
President under the 1906 Antiquities Act.
    It is incredulous to think that there is an active proposal to 
restrict use on 600,000 acres without the benefit of public hearings or 
debate. That proposal will impact 59% of the livestock grazing permits 
and 70% of the range cattle in the county. It would surround 24,000 
acres of state trust lands and a large number of private land holdings. 
There has not been an opportunity for citizens who would be impacted to 
have any input into the proclamation or any type of explanation of the 
economic impacts that a land designation of this magnitude would have 
on the community of either positive or negative impacts. The New Mexico 
experience of National Monuments have important impacts that should be 
addressed (Appendix A). H.R. 4334, the Organ Mountains National 
Monument Establishment, would bring the proposals for protecting the 
Organ Mountains back into perspective and reasonableness.
How HR4334 Addresses Concerns
    H.R. 4334, in its simplicity, deals with many of the issues 
surrounding previous proposals and narrows the scope of the protection 
to only the Organ Mountains (58,512 acres), instead of a potential 
600,000 acres.
Livestock and Grazing
    The purposes section identifies and names livestock and watershed 
as resources worthy of protection, conservation and enhancement. These 
are commonly ignored in other national monument designations. Grazing 
of livestock has been a recognized resource and use of public lands 
since the beginning of the recorded history of New Mexico with the 
first livestock brought to this area in 1598 by Don Juan de Onate. 
Livestock have been part of the landscape, economy and tradition since 
that time and are still important in Dona Ana County.
    H.R. 4334 would assure the continuation of ranching under the 
umbrella of this national monument, something not common to national 
monument designation. Livestock is recognized as a resource on equal 
footing with other named resources and grazing is specifically noted in 
Sec 6 (c) for continuation under the jurisdiction of the Bureau of Land 
Management.
    It is worthy to note that one family has continuously owned and 
operated ranches in the Organ
    Mountains since W.W. Cox arrived in 1888 and acquired the San 
Augustine Ranch, named for the San Augustine Peak located within the 
original ranch boundaries. Over time, and with the help of sons and 
daughters, Mr. Cox was able to expand his holdings into the Tularosa 
Basin. During World War II and at a time when family members were 
serving the country in foreign combat zones, one who would be lost in 
battle, the family ceded most of their holdings to the federal 
government for the establishment of White Sands Missile Range and the 
expansion of Fort Bliss. W.W. Cox was a prominent Dona Ana Count 
citizen, serving at one time as County Treasurer. Members of succeeding 
generations have played prominent roles in community and livestock 
organizations. We believe it would be most fitting to recognize the 
contributions of this pioneer family by naming this national monument 
in their honor.
Water Rights
    Water has been a precious commodity in the settlement of the arid 
west. Water has been used for beneficial purposes in New Mexico prior 
to the settlement by the Spaniards. Coronado's expeditionary record 
refers to the cultivation of crops such as cotton and corn by the 
Pueblo Indians of the middle Rio Grande Valley and the watering of 
livestock from acequias as early as 1582.
    The Treaty of Guadalupe Hidalgo in 1848 and the Gadsden Purchase in 
1853 specified protection of landowners and occupiers, under the laws 
of Spain and Mexico. Appropriation of water for beneficial use was 
further clarified in the New Mexico State Constitution in 1911.
    Section 3 of this bill protects the existing water rights of 
individuals and the United States government upon enactment of this 
act.
Flood Control
    Massive flood events have occurred along the Rio Grande since the 
beginning of time. Through the years, man has worked to control the 
flood events and capture the valuable water for beneficial use for 
crops, livestock, and personal use. Early day treatments were to build 
massive dams to capture the flood water and then dispense it out for 
crop use over a longer period of time following the flood event. This 
method was to block the arroyos and canyons at the mouth. However; this 
did nothing to prevent the destructive force of flood water and did not 
address the cause of flooding up stream. Current strategy is to work 
further up the stream beds and watershed area with smaller flood 
control and water spreading structures. This requires the ability to 
have access up stream to construct flood water dams, maintain and 
repair existing structures and implies the need for vehicle access to 
accomplish the work.
    Section 6 (b) (2) addresses the use of motorized vehicles in the 
construction, maintenance, operation or management of flood control or 
water conservation systems.
Motorized Vehicle Use
    Motorized vehicle use in production agriculture, recreation and 
travel has become a necessary part of modern society. The ability to 
compete in production agriculture requires the use of mechanized 
equipment and not animal drawn implements. Recreation on our federal 
lands has developed through the use of mechanized vehicles both to 
recreate and to travel back and forth to a camp or home. Off-road use 
by these vehicles is contrary to regulation and law.
    We are opposed to unauthorized off-road travel. The bill gives 
authorization for motorized vehicle use for construction and 
maintenance of range improvements or performing standard ranching 
operations.
Roads
    The bill protects the national monument area from any new roads 
except for public safety or natural resource protection. This will 
protect the current character of the land that local citizens are 
concerned about.
Rights of Way
    If it were to become necessary to consider a new utility rights-of-
way in the monument, the bill would not preclude that. The monument 
would be protected under the National Environmental Policy Act of 1969, 
which contain restrictive and stringent rules that must be complied 
with in the event that a right of way needed to be addressed.
    We do not have a crystal ball that can predict the future needs in 
the way of new energy development, and this bill has the foresight to 
recognize that and allow a solution.
Land Withdrawal
    Land use is a very current topic in areas of growth and development 
such as Las Cruces and surrounding Dona Ana County. Protection of the 
Organ Mountains from commercial development and housing has been a 
topic of contention from the beginning of the stakeholder meetings.
    This bill protects land within the 58,512 acre boundary from 
disposal, trade, development, sale, mineral exploration, leasing or 
mining including geo-thermal. This will alleviate the concern of many 
in Dona Ana County relative to the possible detrimental use and 
destruction of the view shed of the Organ Mountains.
Release of Wilderness Study Areas
    Major portions of the Organ Mountains have, since the early 1990's, 
been under the designation of Wilderness Study Area. The designation 
protected the area from any use that would impair the wilderness 
character of the land until action by Congress. The bill will release 
the land areas in question from being under the jurisdiction of the 
wilderness study area regulations. These lands will continue to be 
protected from development and or disposal by inclusion in the proposed 
national monument.
Legislative Process for National Monument Designation
    The deliberate and seemingly slow process for something to be 
enacted into law can be very frustrating in the short term. However, 
the deliberate process allowing for public input and debate to be put 
into writing and voted on by both houses of Congress and signed by the 
President has stood the test of time. There are seldom mistakes in the 
result of this process because it is transparent and has many 
opportunities for improvement of the initial concept. We are in total 
agreement with this tried and true outcome described in the 
constitution developed by our forefathers. Bills that are passed 
through this type of scrutiny will generally stand the test of time.
    Therefore; we support the passage of HR4334 to settle once and for 
all the permanent protection of the Organ Mountains.
    We do, however, have three recommended changed to the bill:
        <bullet>  Law enforcement should be guaranteed unfettered 
        access to the monument
        <bullet>  Hunting should also be guaranteed in the monument, 
        and
        <bullet>  The title should be changed to ``Organ Mountains-Cox 
        Family National Monument'' as a lasting tribute to this 
        stalwart pioneering family and to the legacy of livestock 
        ranching in the Southwest United States.
                                 ______
                                 

                              Attachment A

       Current Conditions on the 12 New Mexico National Monuments

             Organ Mountains Desert Peaks National Monument

                                 FACTS

    There are 12 National Monuments in New Mexico; New Mexico is second 
to Arizona with 18.
    10 of the National monuments are managed by National Park Service.
    2 of the National monuments are managed by Bureau of Land 
Management.
    HUNTING--No hunting in 11 New Mexico National Monuments, the 
Trackways Management Plan is being developed. NPS policy is to protect 
wildlife within their boundaries.
    GRAZING--No grazing in 11 New Mexico National Monuments, the 
Trackways Management Plan is being developed. NPS policy is to phase 
out commercial grazing whenever possible.
    Grazing was prohibited in 1930, Bandelier; 1940's, White Sands; 
1997, El Malpais
    PETS--In general, NPS policy for pets (except for guide dogs and 
hearing ear dogs) are prohibited from: entering national monument 
buildings (including visitor centers); ranger led activities; using 
trails, and all backcountry areas. In those instances where they are 
allowed on trails, they must be kept on a leash at all times. Pet 
regulations are strictly enforced--fines $50-250.00.
    RV CAMPING OVERNIGHT--No overnight RV camping at 10 of the 12 
National Monuments in New Mexico. El Morro has 9 sites for RVs and 
Bandelier has 94 sites, but no hookups for water and lights.
    BACKPACK CAMPING OVERNIGHT--No overnight backpack camping at 9 of 
the 12 National Monuments in New Mexico. White Sands has 10 established 
sites for tents and must have advance reservations. Bandelier has 
overnight backpack camping with a permit. El Malpais has tent camping
    FEES--Fees are charged at 9 of the 12 National Monuments, El 
Malpais, Prehistoric Trackways and Salinas Pueblo Missions do not 
charge a fee.
    FUEL WOOD GATHERING--Generally fuel wood gathering is prohibited.
    MOTERIZED VEHICLE USE--No motorized vehicle use on trails. Baby 
strollers are prohibited on trails at Capulin Volcano and bicycles are 
prohibited during regular hours on the road up Capulin. Trackways 
management plan is being written. NPS policy is to not allow motorized 
vehicles on trails because they violate the soundscape resource with 
unnatural sounds.
    HORSEBACK RIDING--Bandelier limits riding on trails and limits the 
number daily to 2 groups of 6 horses.
    LAW ENFORCEMENT AND BORDER SECURITY
    Currently Law Enforcement and Border Patrol have access in the NMWA 
proposed Organ Mt.-Desert Peaks National Monument. However if done 
under a blanket proclamation the law officers could be blocked under 
National Monument rules that in Arizona have limited law enforcement 
routine patrols.
    National Park Service policy 2006 states''that within the national 
park system boundaries, the Service will fulfill its law enforcement 
responsibilities using NPS employees''.
                                 ______
                                 
    Mr. Bishop. Thank you very much. Make sure our clerk has a 
copy of those letters, and we will add them into the record.
    Mr. Rush, I believe.

 STATEMENT OF MATT RUSH, EXECUTIVE VICE PRESIDENT, NEW MEXICO 
                   FARM AND LIVESTOCK BUREAU

    Mr. Rush. Good morning, Chairman and members of the 
Committee. What an incredible day. Who would have ever thought 
that a farm boy from a New Mexico town of 125 people would be 
testifying before Congress? But I am honored to be here. Even 
more exciting is to be testifying on something that I am so 
passionate about. That is our support of H.R. 4334, the 
establishment of the Organ Mountains as a national monument.
    My name is Matt Rush, and I am Executive Vice President of 
New Mexico Farm and Livestock Bureau. And I represent the 
majority of the farmers and ranchers in Dona Ana County and in 
New Mexico. And I speak for them when I thank Congressman 
Pearce for this bill.
    This proposal has been a long-range goal of New Mexicans, 
dating back to 2005 when then-Senator Pete Domenici proposed 
protection of the Organ Mountains. That is, until he found out 
his proposal was too large and negatively impacted the citizens 
of Dona Ana County.
    In 2006, the Wilderness Alliance proposed land for 
preservation, but this time increased the ante from 217,000 
acres to 325,000 acres. Again, community stakeholders refused 
it because of the size and crippling effect on our way of life.
    In 2009, Senate Bill 1689 was introduced, aiming to reserve 
260,000 acres. Because of the same reasons as before, this bill 
died in committee. Then again, in 2011, the bill was introduced 
as SB 1024, where it remains in committee today.
    But then, earlier this year, the New Mexico Wilderness 
Alliance began pushing a proposal to designate an astounding 
600,000 acres as national monument in Dona Ana County. All this 
being done behind the scenes and out of the public eye, but 
pushed for approval under the authority of the Antiquities Act.
    Although you have been told that there is broad-based 
support for this large national monument designation, as you 
can see from the past history, the reality is that the majority 
of citizens of our area are not in favor of such a large 
designation that would take away literally 25 percent of our 
county.
    The stark reality is that Dona Ana County, New Mexico, and 
the surrounding area is already a wash in Federal lands, 
especially if you combine Fort Bliss to the McGregor Range to 
White Sands Missile Range to the White Sands National Monument 
to Holloman Air Force Base to the San Andreas National Wildlife 
Refuge to the Experiment Station to the existing WSAs. That 
total will give you 4.7 million acres in protected Federal 
lands. Add this to another 1.5 million acres that are tied up 
in conditional access, and you will find a total of 6.2 million 
acres. Almost 75 percent of the entire county is already under 
Federal control. Less than 15 percent is privately owned. We 
don't need to exacerbate the problem by designating vast tracks 
of land as national monument.
    And, furthermore, the other fear that we have is that the 
people's voice will be lost and their needs swept aside with a 
simple stroke of the executive pen through that Antiquities 
Act.
    Now, rumor has it that the political climate right now 
might be a bit, shall we say, divisive or partisan. If that is 
true, then I would like to be the first to announce that I bear 
good news. Because the proposal before you today has one thing 
that everyone agrees on, from Democrats to Republicans to 
wilderness groups to farmers and ranchers. They all agree on 
the one thing that is at the heart of every proposal and every 
piece of legislation introduced, and that is protecting the 
Organ Mountains.
    The reality is no one is getting everything that they want. 
But isn't that the art of compromise? Are we supposed to meet 
in the middle, agree to disagree with what we don't agree but 
then agree on what we agree on and shake hands and walk away 
friends?
    That is why we support this bill, and urge you, the public 
servants, to do the same. This bill protects the culture and 
the historical use of the land. It is clearly defying the 
rights of ranchers to graze their cattle, like the Cox Family, 
who have been caretakers of these sacred lands for over 100 
years, while protecting the hills from future development. In 
fact, as a testament to the rock solid foundation these 
mountains provide our county and the way of life they support, 
we urge you to rename the bill The Organ Mountain Cox Family 
Monument.
    H.R. 4334 does not get rid of water rights, nor expand the 
Federal water rights. Congressman Pearce definitely allows the 
use of equipment used for standard caretaking such as repairing 
windmills and mending fences, yet requires a plan for that 
caretaking.
    At the same time, this bill goes to the very heart of what 
everyone has wanted. It elevates the iconic feature of our 
State, the Organ Mountains, to the status they deserve, while 
protecting our culture, our tradition, and our mountain.
    Thank you very much for your time.
    [The prepared statement of Mr. Rush follows:]

  Statement of Matt Rush, Executive Vice-President, New Mexico Farm & 
 Livestock Bureau which aimed to reserve 260,000 acres, on H.R. 4334, 
        ``Organ Mountains National Monument Establishment Act''

    Chairman Bishop and members of the committee, thank you for this 
opportunity to voice our support of HR4334, the establishment of the 
Organ Mountains as a National Monument. My name is Matt Rush and I am 
the Executive Vice-President of the New Mexico Farm & Livestock Bureau. 
I represent all of the farmers and ranchers in Dona Ana County and 
speak for them when I thank Congressman Pearce for his efforts to 
protect the Organ Mountains.
    Preservation of the Organ Mountains has been a long range goal of 
New Mexicans. In 2005, Senator Pete Domenici supported protection of 
the Organs--until he found out the proposal negatively impacted the 
citizens of Dona Ana County.
    In 2006, the Wilderness Alliance again proposed land for 
preservation but this time increased the ante from 217,500 acres to 
325,000 acres. However, it was refused by community stakeholders. In 
2009 Senator Bingaman introduced Senate Bill 1689 which aimed to 
reserve 260,000 acres. This bill died in committee. In 2011 the bill 
was introduced as Senate Bill 1024, this bill is still in committee.
    Earlier this year the New Mexico Wilderness Alliance announced a 
proposal to designate 600,000 acres as a National Monument under the 
authority of the antiquities act. Although you have been told that 
there is broad-based support for national monument designation, the 
reality is that the majority of citizens do not want to designate a 
full 25% of our county as national monument.
    Dona Ana County is awash in federal land as it is. Combined with 
the surrounding area, there is already 4.7 million acres in protected 
federal lands. Add to this another 1.5 million acres tied up in 
conditional access status. This totals 6.2 million acres when you add:
        Fort Bliss,
        To McGregor Range,
        To White Sands Missile Range,
        To White Sands National Monument,
        To Holloman Air Force Base,
        To the San Andres National Wildlife Refuge,
        To the Jornada Experimental Range,
        To existing Wilderness Study Areas.
    Almost 75% of the entire county is under federal control. Less than 
15% of Dona Ana County is privately owned. While that is a common 
situation across the West, as evidenced in this slide, we don't need to 
exacerbate the problem by designating even more land as National 
Monument.
    Wilderness designation changes the customs and culture of a region. 
An integral custom in our state is ranching. Grazing cattle has been a 
livelihood in our state since the King of Spain awarded land grants in 
1598. Ranching is what sustains our rural communities and it is no 
different in our county. If alternative proposals are approved it would 
all but eliminate ranching in our county and a vital cowboy culture 
would be lost. The other fear that we have is that the people's voice 
will be lost with a simple stroke of the executive pen through the 
antiquities act. The people's voice needs to be heard.
    That's why the majority of our citizens support Congressman 
Pearce's bill. They understand the economic impact of ranching and how 
ranchers make other services such as doctors, grocery stores and truck 
dealers sustainable. And ranching can continue under HR4334. 
Congressman Pearce has clearly defined the rights of ranchers to graze 
their cattle and the possibility of new permits being issued in the 
future. This bill does not get rid of water rights nor does it expand 
federal water rights. He also definitively allows for the use of 
mechanized equipment and motorized vehicles for standard ranching 
operations such as dredging stock tanks, repairing wind mills and 
checking fences.
    This bill makes sense for the residents of Dona Ana County. It 
protects the Organ Mountains which are an iconic feature of our county, 
while protecting ranching which is an economic generator in our area. 
Thank you for your time.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Mr. Garrett?

           STATEMENT OF BILLY GARRETT, COMMISSIONER, 
                 DISTRICT ONE, DONA ANA COUNTY

    Mr. Garrett. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to comment on H.R. 4334. My name 
is Billy Garrett. I am a County Commissioner from Dona Ana 
County, New Mexico.
    Dona Ana County contains areas of exceptional beauty and 
significance. Most of our residents value this heritage and 
want to see it protected on a permanent basis. The breadth of 
that support is indicated in part by the legislation introduced 
by Congressman Pearce. However, H.R. 4334 does not adequately 
address the express needs and interests of Dona Ana County.
    For more than 30 years, county residents have worked to 
protect public lands that are important to our heritage. Over 
the past six years, Senators Bingaman and Udall have been 
particularly instrumental in this process. Countless community 
meetings, public hearings, and conversations with a diverse 
range of stakeholders have closely examined which lands should 
be protected, and how best to address areas of concern, 
including border security, vehicular access, storm water 
management, and ranching.
    In 2009 and 2011, Senators Bingaman and Udall introduced 
legislation that would have designated significant parts of our 
landscape as Federal wilderness and national conservation 
areas. Twice, by unanimous vote, the Board of Commissioners of 
Dona Ana County passed resolution in support of these bills.
    Parallel to this legislative process, a number of local 
historians, business owners, elected officials, archaeologists, 
and sportsmen have developed a new proposal that would protect 
not only important natural areas, but also places that are 
noteworthy for their prehistoric and historic associations. 
This community-based proposal seeks to protect our heritage by 
using the 1906 Antiquities Act to establish an Organ Mountains 
Desert Peaks National Monument by Presidential proclamation.
    On May 22, 2012, the Board of Commissioners of Dona Ana 
County unanimously approved a resolution in support of that 
proposal. We agree with Congressman Pearce that the Bureau of 
Land Management is best suited to oversee a new national 
monument in Dona Ana County. As a multi-use agency, BLM is well 
equipped to develop management strategies that would conserve 
resources, maintain ranching interests, and support public 
uses, including outdoor recreation, hunting, and tourism.
    Throughout the history of conservation efforts in Dona Ana 
County, protection of the iconic Organ Mountains has always 
been a primary concern. While H.R. 4334 offers limited 
protection of the Organs, this legislation does not address 
other noteworthy locations, such as the Potrillos, Aden Lava 
Flow, Kilburn, and the Dona Ana Robledo and Sierra de las Uvas 
Mountains. These areas are importantly geologically, and as 
examples of desert landscape. They also contain thousands of 
petroglyphs and other archeological sites, as well as historic 
places as diverse as a Butterfield Stage Coach trail, a World 
War II bombing range, and a training venue for the Apollo 
astronauts.
    The window for protection of this heritage is closing fast. 
Dona Ana County is the second-fastest county in New Mexico, and 
could reach a population of 300,000 residents within the next 
25 years. Our regional plan calls for strong economic growth, 
supported by planning and growth management strategies that--
and I quote--``recognize the value of our mountains, desert 
environment, rivers, agriculture, and private property rights, 
and the need to live within the limitations of this unique land 
and its natural resources.''
    To provide the facilities, infrastructure, and services 
that are going to be required, we need to know where 
development might best be encouraged. A comprehensive national 
monument could help in this effort by setting aside some of our 
Federal lands for conservation-related uses on a permanent 
basis. Dona Ana County does not have a land shortage. An 
establishment of a larger monument would not adversely affect 
economic development. In fact, a more comprehensive monument 
would protect the visual qualities that are important in our 
real estate market, and expand business opportunities 
associated with tourism, hunting, and outdoor recreation.
    In conclusion, while H.R. 4334 is a step in the right 
direction, it falls far short of local interests, in terms of 
the areas covered and protection of resource values. With that, 
Mr. Chairman and members of the Subcommittee, I thank you for 
your time, and would be happy to answer any questions.
    [The prepared statement of Mr. Garrett follows:]

   Statement of Billy G. Garrett, Commissioner, District 1, Dona Ana 
 County, New Mexico, on H.R. 4334, ``Organ Mountains National Monument 
                          Establishment Act''

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to comment on H.R. 4334.
    Dona Ana County, New Mexico, contains a number of areas of 
exceptional beauty and significance associated with the Chihuahuan 
Desert, Southwestern pre-history, life on the American frontier, and 
emergence of the United States as an international power.
    I think it is fair to say that most of our residents value this 
heritage and want to see it protected on a permanent basis.
    The breadth of this support is indicated, in part, by the 
legislation introduced by Congressman Pearce. Unfortunately, H.R. 4334 
does not adequately meet the needs of Dona Ana County. Compared with 
other proposals that have had extensive public input, this bill fails 
to protect almost 90% of the lands that our community believes should 
be protected, and seeks to remove the interim wilderness protection for 
19,667 acres of land within the Organ Mountains.
    For more than thirty years, residents of Dona Ana County have 
worked to protect public lands that are important to our heritage. Over 
the past six years strong support has emerged for a number of 
conservation proposals. Senators Bingaman and Udall have been 
particularly instrumental in this process--especially with respect to 
natural resources. Countless hours of community meetings, public 
hearings, and conversations with a diverse range of stakeholders have 
closely examined which lands should be protected, and how best to 
address issues of concern such as border security, vehicular access, 
storm water management, and ranching.
    These issues were substantially resolved through the diligence of 
our senators and in 2009 they introduced legislation that would have 
designated significant aspects of our landscape as federal wilderness 
and national conservation areas. Unfortunately that bill, along with 
many other pieces of bi-partisan conservation legislation, was not 
brought up for a final vote. In 2011, Senators Bingaman and Udall 
reintroduced their legislation and it is in the Senate today waiting 
for action as S. 1024.
    Twice, by unanimous vote, the Board of Commissioners of Dona Ana 
County passed resolutions in support of these bills.
    Parallel to this legislative process, a number local historians, 
archeologists, business owners, elected officials, and sportsmen 
developed a new proposal that offers an opportunity to protect not only 
important natural areas, but also places that are noteworthy for their 
pre-historic and historic associations. This community-based proposal 
would use Presidential authorities granted in the 1906 Antiquities Act 
to establish an ``Organ Mountains-Desert Peaks National Monument'' and 
would entrust oversight of this new monument to the Bureau of Land 
Management.
    On May 22, 2012, the Board of Commissioners of Dona Ana County 
unanimously approved a resolution in support of this proposal, which is 
significantly larger and more complex than the area covered by H.R. 
4334. My comments today are based on that resolution.
    A number of individuals who support a larger national monument are 
with me today. They include: Oscar Vasquez Butler, former Chair of the 
Dona Ana County Commission; Fernando Clemente, a local businessman; 
Roberta Salazar-Henry, retired Deputy Director of the New Mexico Game 
and Fish Department, Ben Gabriel, an outdoor guide; and John Cornell of 
the New Mexico Wildlife Federation.
    We agree with Congressman Pearce that the Bureau of Land Management 
would be the best federal agency to oversee a new national monument in 
Dona Ana County. As a multi-use agency, BLM has a long tradition of 
community involvement and is well equipped to develop management 
approaches that would conserve resources, maintain traditional ranching 
interests, and support public uses including outdoor recreation, 
hunting, and tourism.
    Let me underscore that point. Any national monument in Dona Ana 
County should be managed in a way that facilitates research, conserves 
resources, respects existing ranching interests, and provides for a 
wide range of uses such as outdoor recreation, hunting, and tourism.
    Throughout the history of conservation efforts in southern New 
Mexico, protection of the Organ Mountains has always been a primary 
concern. The Organs provide a backdrop for the entire Mesilla Valley 
and contain important natural resources that are currently protected 
through designation as National Wilderness Study Areas.
    While H.R. 4334 offers some protection for the Organs, the area 
covered in this bill is 30% smaller than the area outlined in the 
proposed Organ Mountains-Desert Peaks National Monument and would 
reduce protection over the most pristine wild areas.
    Unfortunately, H.R. 4334 also fails to address other special places 
in our county that deserve preservation. They include: the Potrillo 
Volcanic Field and West Potrillo Mountains, Aden Lava Flow, Kilborne 
Hole National Historic Landmark, Broad Canyon, and the Dona Ana, 
Robledo, and Sierra de las Uvas Mountains.
    These areas are important geologically and as exceptional examples 
of Chihuahuan Desert landscape. They also contain thousands of 
petroglyphs and other archeological sites, as well as historical sites 
as diverse as the route used by the Butterfield Stage, a WW-II bombing 
range, and a training venue for the Apollo astronauts.
    All of these areas offer exceptional opportunities for students to 
learn about our desert environment, families to connect with their 
cultural traditions, and just about anyone to have a great outdoors 
experience. All of these places would be protected under the proposed 
Organ-Mountains-Desert Peaks National Monument. None are included in 
H.R. 4334.
    The window of time available for protection of this heritage is 
small and closing fast. Dona Ana County is the second fastest growing 
county in New Mexico and currently is home to more than 200,000 people. 
Between 2000 and 2010 our population increased by almost 20% and most 
sources project an additional increase to more than 300,000 residents 
within the next 25 years.
    Our regional plan, ``One Valley, One Vision 2040'', calls for 
strong economic growth supported by planning and growth management 
strategies. With respect to our heritage, the plan states, ``As we map 
out our future we recognize the value of our mountains, desert 
environment, rivers, agriculture, and private-property rights and (the 
need to) live within the limitations of this unique land and (its) 
natural resources.''
    In order to provide for all the roads, schools, utilities, and 
public services--including fire and police protection--that are going 
to be required, elected officials need to know where development might 
best be encouraged. A new comprehensive national monument could help 
this process by clearly identifying some of the federal lands that 
should be left undeveloped on a permanent basis. H.R. 4334 misses the 
opportunity to provide this guidance simply because it is limited to 
the Organ Mountains.
    The area that would be protected by H.R. 4334 is simply too small 
when considered in the context of our county as a whole. By contrast, 
the monument proposal that has been endorsed by our Board of 
Commissioners would encompass an area of approximately 600,000 acres or 
935 square miles. Roughly 83% of this area is currently under BLM 
management. Of the remainder, most are state-owned lands that could be 
exchanged for other federally owned property.
    Let me put the size of the proposed larger monument in perspective. 
Dona Ana County encompasses 3,804 square miles. That's almost the size 
of Delaware and Rhode Island combined. About 12% of Dona Ana County is 
privately owned, another 12% is state land, and the rest is federal. 
Setting aside 587,220 acres of public land for heritage conservation 
values would affect less than one-third of all federal lands in Dona 
Ana County and leave about 600,000 acres of current BLM lands open for 
other uses.
    Dona Ana County does not have a land shortage and establishment of 
a larger, more comprehensive monument would in no way adversely affect 
economic development. On the contrary, a larger monument would protect 
the visual qualities that are important to our real estate market, and 
expand business opportunities for tourism, hunting, and outdoor 
recreation. Personally, I would hope that a larger monument might also 
offer existing ranching families new opportunities for economic 
diversification, while respecting their core business activity.
    In conclusion, while H.R. 4334 is a step in the right direction, it 
falls far short of local interests and expectations in terms of 
geographic coverage and protection of wilderness areas such as those 
afforded in S 1024.
    With that Mr. Chairman and Members of the Committee, I thank you 
for your time and would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. I will now turn to the Committee for 
questions. Mr. McClintock, do you have any questions for this 
panel? You don't. Mr. Pearce, would you like to ask questions 
of this panel?
    Mr. Pearce. Thank you, Mr. Chairman. I would. And I would 
also like to submit--Mr. Garrett had suggested in his testimony 
about the unanimous vote on the resolution. And subsequent to 
that, two of the commissioners began to receive more 
communications and then express concern. So I would like to ask 
unanimous consent to submit this letter from--signed by Karen 
Perez and Dolores Saldana-Caviness, both commissioners on the 
Dona Ana County Board of Commissioners, which--they now are 
questioning that vote that was unanimous.
    Mr. Bishop. Without objection, it is going to be in.
    [The letter submitted for the record by Mr. Pearce 
follows:] 
[GRAPHIC] [TIFF OMITTED] 74876.001

                               ------                                


    Mr. Pearce. Mr. Rountree, you mentioned that grazing exists 
on most of BLM's land, but it is not a stated purpose of any 
national monument. You express concern with the fact that we 
authorize grazing in this bill. Yet your BLM website says that 
``grazing is allowed and managed because it creates multiple 
environmental benefits that result from healthy watersheds.'' 
So why is it that you are expressing concern over this grazing 
in this bill?
    Mr. Rountree. We are not expressing concern over grazing in 
the monument itself, Congressman. We fully support grazing 
within the monument and the continuation of grazing. We fully 
support section 6 of the proposed legislation. The only 
objection we have is the inclusion of grazing in the purposes 
portion of the bill.
    Mr. Pearce. I guess that that is a little bit too fine a 
distinction for me. It sounds like you are objecting to 
grazing. I mean when you object to grazing and then you say you 
don't, I don't care what section of the bill it is in. It 
sounds like you object to the grazing, and I just wonder why.
    Mr. Rountree. No, sir----
    Mr. Pearce. Because the NEPA process has--doesn't the NEPA 
process state that custom and culture is a very important 
thing? And if you understand the custom and culture of the 
West, it is about cows and grazing, and it is about ranching. 
It is about making your living off the land. And this, the Cox 
Family who used to own this land, can't even get in and run a 
chainsaw. They can't do anything in their ranch to continue the 
ranching operations. And that is the reason that we declare 
that, because we would like to protect it. We don't want to see 
the development, but we want to protect this ranching family 
who the land used to belong to, and yet you are objecting to 
it.
    Mr. Rountree. No, sir. I am not objecting in the least. 
Again, we strongly support the continuation of grazing in the 
monument.
    If you look at any of the legislation creating any national 
monument or national conservation area--there are something 
like 18 bills that were passed for those designations--none of 
them include uses like grazing or traditional uses within the 
purpose section of the legislation.
    Mr. Pearce. Maybe you should reconsider the other bills, 
instead of this one.
    The--also, you take objection to section nine, I think it 
is, in your testimony. Isn't BLM supposed to have already 
concluded a study about wilderness study areas? When was that 
study supposed to be finished?
    Mr. Rountree. Those studies were finished decades ago. The 
recommendation on at least one of those WSAs was forwarded to 
Congress, I believe, in 1980. Two of the other wilderness study 
areas----
    Mr. Pearce. Now, did they all get unanimous approval?
    Mr. Rountree. No, sir. They are still waiting for 
Congress's action.
    Mr. Pearce. No. I mean, did the BLM think that they 
qualified for wilderness?
    Mr. Rountree. They thought that the one that was 
recommended to Congress as suitable had extraordinary----
    Mr. Pearce. Which one was that?
    Mr. Rountree. That would have been the Organ Mountains.
    Mr. Pearce. The Organ Mountains. And yet your testimony 
seems to--I mean you saw the videos up here. There are ranches, 
there are roads, there are signs of human habitation that is 
simply not allowed in wilderness areas. And yet you can't 
declare those to be non-wilderness compliant?
    I just think that that is something that I think people are 
tired of. Either yes, it qualifies, or no, it doesn't. And we 
tried to show--we have an hour-long video showing the entire 
redrawing of the lines in there. So it just seems curious that 
the agency can't find the evidence that maybe these don't 
qualify for the definition under wilderness, which is one of 
the problems we have with the Senator's bill. It takes 200,000 
acres, rather than the 58,000-acre footprint that we have.
    So, what would it take for you all to say that something is 
not compliant with the wilderness--underlying wilderness 
legislation?
    Mr. Rountree. Well, let me respond to one portion of your 
question. The wilderness study areas that we are talking about 
are within the Organ Mountains and the footprint of the area of 
critical environmental concern. I am not prepared to talk about 
any of the wilderness study areas outside of the area under 
study of your legislation, but would certainly be willing to 
take a look at it.
    Mr. Pearce. I think we should sit down and talk. And I 
yield back, Mr. Chairman. We will sit down and talk more about 
that, because I think it is a very important distinction that 
we are making here.
    Mr. Rountree. Certainly.
    Mr. Bishop. OK. We may have another round of questioning 
later on. Let me ask a couple, if I could. Mr. Rountree, if I 
could start with you, is the BLM or the Administration 
considering moving forward with any national monument 
designation, especially a massive national monument 
designation, as put forth by the New Mexico Wilderness 
Alliance, that would designate more than 600,000 acres, or 25 
percent of this county, as a national monument?
    Mr. Rountree. No, I am not aware of any, sir.
    Mr. Bishop. Earlier this week--talking about grazing--Juan 
Palma, who was the BLM director for Utah said that he wrote a 
letter to Senator Hatch saying the monument staff would retain 
authority but would hire a third party to conduct a study. Can 
you provide us with a list of those third parties that do range 
health or grazing studies for grazing plans either in New 
Mexico--in New Mexico, but also especially in Utah?
    Mr. Rountree. No, sir, I cannot.
    Mr. Bishop. Do you know who those third parties would be?
    Mr. Rountree. We will be happy to provide the Chair and the 
Committee that information at a later date, if we could, 
please, sir.
    Mr. Bishop. I would appreciate it. The last request I had 
is now three years in waiting. I hope you can do it in a little 
bit timelier fashion than three years.
    Mr. Rountree. Yes, sir.
    Mr. Bishop. Thank you very much. Let me go on to another 
couple.
    In your testimony, Mr. Rountree, you did say that you 
discussed New Mexico's shared border with Mexico, and that this 
proximity makes it even more important that we work to keep the 
area from becoming a drug or human smuggling corridor, as has 
happened in other parts of the country. I recently published an 
op ed on this same subject and would be interested to know if 
New Mexico is already experiencing vandalism of lands by 
traffickers like that that takes place especially in Organ Pipe 
National Monument on the Arizona-Mexico border.
    Mr. Rountree. I don't have that information with me, sir, 
but we would be happy to work with New Mexico's State office in 
providing you that information.
    Mr. Bishop. OK. I would appreciate that, as well.
    Mr. Garrett, have you been in conversation at all with the 
county commissioners in Garfield as to their experience with 
the Grand Staircase-Escalante Monument?
    Mr. Garrett. No, sir. I have not.
    Mr. Bishop. I would once again suggest you do that to see 
what the common experience has been in a Presidentially created 
national monument. That impacts things like ranching and 
livelihoods there, as well.
    In the 1906 Antiquities Act that you mentioned there are 3 
specific criteria that must be used before a president can 
nominate those. Can you tell me what those three criterias are 
for this area? Let me go through them very quickly. What is the 
specific archeological or historical significant area that 
needs to be protected?
    Mr. Garrett. We have a study that was recently completed 
that identifies those sites. There is extensive evidence of 
prehistoric use of the area. And beyond that, I would have to 
go and get more specific information for you to respond to 
that.
    Mr. Bishop. OK. The second criteria is it has to be in 
eminent peril. What is the peril that is imminent?
    Mr. Garrett. As I mentioned, we are a very fast-growing 
area. And I believe that it is fair to say that as soon as this 
recession is lifted, that we are going to be faced with a great 
deal of pressure on development throughout the county. We 
already have----
    Mr. Bishop. Are you telling me these areas are not within 
wilderness study areas or protected areas right now?
    Mr. Garrett. Those are unresolved. Those are still study 
areas.
    Mr. Bishop. They are study areas. So what is the eminent 
peril.
    Mr. Garrett. The----
    Mr. Bishop. Study areas is managed as if it actually was, 
in fact, that way. So what is the imminent peril?
    Mr. Garrett. There are areas that are not included in those 
study areas that are part of the proposed monument.
    Mr. Bishop. Do you have a list? Are they not in part of the 
WSAs, as well?
    Mr. Garrett. They are beyond that.
    Mr. Bishop. They are not in the WSA?
    Mr. Garrett. They are--yes, sir. They are beyond that.
    Mr. Bishop. OK. Do you have a list of what those are?
    Mr. Garrett. I can get that for you.
    Mr. Bishop. I need that. The third of the criteria is it 
has to be in the smallest area possible. When it was discussed 
in Congress they were talking about 100 to 200 acres as the 
area. What is the smallest area possible that you are talking 
about doing as far as a designation, if you did the Antiquities 
Act?
    Mr. Garrett. The area that is encompassed within the 
boundary as proposed is 587,220 acres.
    Mr. Bishop. OK. That is a nice proposal. What is the 
smallest area possible? Are you telling me that is the smallest 
area possible?
    Mr. Garrett. I believe so.
    Mr. Bishop. And what is the biggest area possible?
    Mr. Garrett. I believe that that is the right size.
    Mr. Bishop. No, that is not what the law says. You have to 
have some ranges in there.
    Mr. Garrett. Mr. Chair, the--what I would say is that this 
is a proposal from citizens. It would be up to the 
Administration to work through how they want to vet this, in 
terms of putting it into proclamation. But that is our best 
proposal, in terms of submitting it to the Administration for 
that action.
    Mr. Bishop. Sir, I would like you to give us, for the 
record, some specifics as to what these archeological areas 
are, where they are that are out of a protected zone right now, 
what is indeed the eminent danger, and what is the smallest 
area. The last time a president tried to go along using the 
1906 Act and create something without specificity, we did 
create a national monument that was bigger than the State of 
Delaware. I don't really want to do that again unless there is 
something that is specific. And we need that specificity. So 
does the President or the Interior Department, if they are 
actually going to go forward. And I appreciate, Mr. Rountree, 
you saying you are not moving forward in that particular 
direction.
    Mr. Pearce, do you have any other questions?
    Mr. Pearce. Yes, I do, Mr. Chairman. Mr. Rountree, the--you 
heard my testimony that in 11 of the 12 monuments in New Mexico 
they don't allow hunting. What is the BLM's stance? Do--would 
you support hunting in this particular area?
    Mr. Rountree. Absolutely. And on every unit of the National 
Landscape Conservation System hunting is allowed.
    Mr. Pearce. OK. Mr. Garrett, do you support hunting in the 
area described in this bill?
    Mr. Garrett. Yes, sir.
    Mr. Pearce. OK. But you realize that it is not--it is 
obviously not allowed in every area? And the tendency is going 
to be not to allow it. And, so, that is one of the great 
concerns I have.
    Mr. Chairman, I don't know if you can realize what is going 
on here, but this Committee has been--is now in the middle of a 
dispute that is going on in New Mexico inside the county. 
Everybody agrees on the Organ Mountains. But the Senator 
Bingaman, and before him Senator Domenici, had suggested a very 
large wilderness area, and that is the proposed legislation 
they have, that is 200,000 acres.
    And, so, then--and the New Mexico Wilderness Alliance 
suggested a bill of 600,000 acres to be--that is 938 square 
miles, by the way, that they would recommend be used to put 
into a Presidential designation for a monument. And, so, then 
we put our bill in that said let's take the smallest footprint 
possible, let's protect the Organs. That is what everybody 
agrees on, and let's not choose these other areas. People began 
to be alarmed that we weren't going to be able to have--in a 
quarter of a county we are not going to have grazing and those 
activities by which we get much of our rural economy built on.
    And so, it is--that is kind of why we are getting these 
different suggestions here. Again, I don't think that many of 
the areas that are described in the wilderness bill actually--
Senator Bingaman--actually comply with the underlying 
requirements of wilderness in the enabling act. So we tried to 
find a pathway forward. Obviously, we don't agree with taking 
25 percent of the county, 938 square miles and sticking it into 
Presidential monument area where I don't believe, long term, we 
would be able to graze or hunt or do many of the things.
    As the Chairman has adequately pointed out in the past, 
education suffers when we--the greater the restrictions on 
public land, the more education suffers. And, so, this chart--
we have taken off of his webpage, but it is very well done and 
shows us one of the underlying principles that we have to fight 
against. It harms our education system, the more restrictive 
that the Federal lands get.
    Mr. Garrett, that Trackways National Monument, isn't that a 
local guy that discovered that? Is that MacDonald? Is that his 
name?
    Mr. Garrett. I don't think that is his name, but it is a 
local----
    Mr. Pearce. Yes, it is a local guy. He wrote a book about 
it.
    Mr. Garrett. MacDonald?
    Mr. Pearce. Yes, he wrote--about 30 years ago. I think he 
has written a book about discovering the Trackways. And that is 
one of the areas with prehistoric sites.
    Now, you had talked about wanting to stop the plundering. 
And yet, in his book he has got him carrying out samples of 
those prehistoric whatever they are, fossils, and he backpacks 
them out. He ties them to his back. And he has got pictures of 
him doing that. Has the County Commission taken a position on 
him having taken those things out?
    In other words, you have a strong position about 
plundering. Is it OK for him to have done that? Have you all 
taken a position, I guess, on that?
    Mr. Garrett. No, sir----
    Mr. Pearce. Is it possible----
    Mr. Garrett [continuing]. Not in my term.
    Mr. Pearce. If I provide you the book and the copies of his 
description of what he did, would you all take that up as a 
consideration for the county?
    Mr. Garrett. I think what we would have to do is look at 
the legal aspects of it, since----
    Mr. Pearce. I will take a look, because I think plundering 
is plundering. And, so, I would like to submit that to you.
    Mr. Garrett. Congressman, one of the reasons that I think 
that we are concerned with protection of the areas on the west 
side of the county have to do with exactly that kind of thing. 
If you don't have designation, if you don't have some way in 
particular of communicating to the public at large that this is 
a special place where conservation of the resources is 
important, it is very hard for people, I think in some cases, 
know what they can and cannot do.
    It is an issue. And it is one of the primary reasons, 
actually, that we are very much concerned with the larger area.
    Mr. Pearce. You bet. OK, Mr. Chairman, I yield back, and 
thanks again.
    Mr. Bishop. Mr. McClintock, I skipped you on this round. 
Did--OK.
    Let me ask the last two questions then for Mr. Schickedanz 
and Mr. Rush, who haven't had a chance to answer.
    As I hear the testimony so far, I understand that the 
proposal that Mr. Pearce has has unanimous consent, or at least 
consensus of everyone, as far as going through. The other 
proposals are contentious. Is that correct? Have I misstated 
that?
    Mr. Schickedanz. As far--excuse me. You are correct. There 
is, I would guess, unanimous consent in the community for 
protection of the Organ Mountains. And there is not full 
consent for a larger area.
    Mr. Bishop. OK. Mr. Rush?
    Mr. Rush. I would say the exact same thing. I mean if you 
look at the track history of what is going on dating back to 
2009, you can see that there has been an attempt to do this. 
But every time the bill grew and grew and grew. But at the 
heart of every proposal, every piece of legislation was 
protecting the Organ Mountains, which, from the agricultural 
standpoint, that is one of the reasons that we are so in 
support of 4334, because it does exactly what has been at the 
heart of every bill that has been proposed or introduced since 
this process started.
    Mr. Bishop. Then I am assuming you would be very supportive 
of making it crystal clear that grazing has to be protected in 
this area.
    Mr. Rush. And, you know, and that goes to--yes, to answer 
specifically, and in the political--you know, since the clock 
is still ticking we got to keep talking, right?
    The answer is it goes to the culture of the county. I mean 
we talk about preserving these areas. But what about preserving 
the culture of an area? I mean grazing has been a piece of the 
West since the King of Spain gave lands away. And, so, when do 
we stand up and say, ``Hey, you know what? We need to protect 
this part of our culture, because it has been here forever. It 
was here before the petroglyphs were here.''
    Mr. Bishop. Thank you. I appreciate that. I have no other 
questions. Is there any other for these witnesses?
    [No response.]
    Mr. Bishop. OK. If not, we appreciate you for being here 
and testifying to this particular bill. Thank you very much for 
traveling all the way back here to find an area just as hot as 
New Mexico but with a heck of a lot more humidity to make life 
miserable.
    Mr. Rush. If you could ban that humidity thing we would 
like it a whole lot better.
    Mr. Bishop. Yes. We had two percent in Utah over the 
weekend. I know the difference. Great to have you here.
    I would like next to deal with Mr. Denham's bill. We would 
ask Victor Knox, who is the Associate Director for Parks--Park 
Planning and Facilities with the Park Service, Kevin Cann, who 
is the Supervisor of Mariposa County, and Ronika Johnson--I am 
doing this without glasses--who is a resident of Mariposa 
County--I hope I pronounced that county name properly--if I 
could have you three come up to the dais, and we will go 
through that bill next.
    Appreciate you all. If you could take the conversations out 
of the room, and we can get going on the next bill. We are 
going to do this bill by bill. I am trying to do it as quickly 
as possible. So Mr. Knox, Mr. Cann, Ms. Johnson, I hope.
    Same rules apply on this particular one as with the last 
panel. I appreciate you being here. Your written testimony is 
in the record. This will be an oral testimony. The last panel 
was very good in keeping everything under five minutes. I hope 
you replicate that action.
    Mr. Knox, you are first up. And I would ask you only to 
deal with the Denham bill, if possible.
    Mr. Knox. Thank you, Mr. Chairman, for the opportunity to 
present the Department of the Interior's views on H.R. 3640. I 
am going to submit our full statement for the record and 
summarize our position here very briefly.
    The Department supports H.R. 3640. The bill would authorize 
the acquisition of 18 acres of land in Mariposa, California. 
Acquired lands would be administered as part of Yosemite 
National Park, and would be used for development of a visitor 
contact station and administrative offices. There are no 
adequate facilities currently available in Mariposa to meet the 
park's current and future needs. And expansion of our 
facilities at El Portal Administrative Site is infeasible.
    Permanent visitor transportation and administrative 
facilities in Mariposa would provide critical support for 
Yosemite National Park and address other long-term goals and 
needs.
    Thank you, Mr. Chairman. This concludes my statement, and I 
would be pleased to answer any questions.
    [The prepared statement of Mr. Knox follows:]

Statement of Victor Knox, Associate Director, Park Planning, Facilities 
 and Lands, National Park Service, U.S. Department of the Interior, on 
 H.R. 3640, To Authorize the Secretary of the Interior to Acquire Not 
     More Than 18 Acres of Land and Interests in Land in Mariposa, 
                  California, and for Other Purposes.

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 3640, a bill to authorize the Secretary of the Interior to acquire 
not more than 18 acres of land and interests in land in Mariposa, 
California, and for other purposes.
    The Department supports H.R. 3640.
    H.R. 3640 would authorize acquisition of land in Mariposa, 
California. It would also authorize the Secretary to partner with 
Mariposa County for land use planning related to acquired land and 
interests. The use of eminent domain would be prohibited. Acquired 
lands would be administered as part of Yosemite National Park.
    Consistent with Yosemite National Park's planning documents, 
including the park's General Management Plan, the National Park Service 
has been interested in providing visitor and administrative facilities 
in gateway communities that border Yosemite National Park, and reduce 
the need to provide government-owned housing and offices inside the 
park, for more than 30 years. Acquiring land as described in this bill 
would greatly help the bureau meet these objectives. Providing visitor 
and administrative facilities at this location in Mariposa would 
enhance the visitor's experience by providing orientation and pre-visit 
services at a satellite visitor contact station. It will also promote 
stewardship of resources through educational and interpretive services 
prior to park entry. Visitor services in this location would encourage 
regional economic development and transportation partnerships, which 
are important benefits for the National Park Service. Permanent 
visitor, transportation, and support facilities in Mariposa would also 
provide critical support for Yosemite National Park and address other 
long-term needs and goals.
    Options to expand the park's El Portal Administrative Site are 
infeasible, and the site cannot accommodate future growth. Therefore, 
Yosemite National Park rents office space in Mariposa, California, to 
accommodate certain key administrative functions. Park facilities 
located in gateway communities have been identified in a number of 
planning documents, including the park's General Management Plan, as an 
effective way to reduce the need for office space and to realize 
operational savings in Yosemite Valley. Relocating these positions and 
functions to a gateway community also helps to reduce traffic 
congestion and improve the quality of life for employees, some of whom 
had previously commuted over two hours a day for positions that can be 
performed remotely. Now, staff in over forty positions and functions 
work from Mariposa, and this transition has allowed the park to 
eliminate rented office trailers, while helping it to recruit and 
retain employees. Ideally, the park would like to provide work-space 
for 100-150 employees in Mariposa and this cannot be done with existing 
facilities.
    Administrative offices located in Mariposa support a continuity of 
services during emergencies such as rockfalls, major snow storms, and 
wildland fires. These types of events have previously disrupted core 
park functions because employees could not safely travel to their 
offices inside Yosemite. Finally, establishing facilities in Mariposa 
reduces the demand on administrative space in Yosemite Valley and at 
the El Portal Administrative Site, where building and accommodating 
employees comes at a high operational cost to the National Park 
Service. The park has explored leasing additional space; however, no 
adequate facilities are currently available in Mariposa to meet the 
park's current and future needs.
    The Yosemite Conservancy, a fundraising group for Yosemite National 
Park, has purchased 11 acres for potential acquisition by the National 
Park Service. This land could be donated or purchased, with the passage 
of this bill, to support visitor information facilities, an 
administrative worksite, museum storage, and other possible purposes, 
that would benefit visitors, staff, and the partnership of Yosemite 
National Park, Mariposa County, and the State of California. In our 
view, this legislation would help to strengthen the relationship 
between the National Park Service and the gateway community of 
Mariposa, and could help to spur regional economic Development.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                                 ______
                                 
    Mr. Bishop. Thank you, sir.
    Mr. Cann?

             STATEMENT OF KEVIN CANN, SUPERVISOR, 
                  MARIPOSA COUNTY, CALIFORNIA

    Mr. Cann. Thank you, Mr. Chairman. My name is Kevin Cann, I 
am a Mariposa County, California Supervisor. Many times we are 
known as commissioners. Just recently elected to my second 
four-year term. I obviously speak today in support of 3640, the 
Yosemite lands bill. I have previously submitted background and 
support statements for the record, but particularly from the 
Board of Supervisors, the tourism bureau, the Chamber of 
Commerce, and the Economic Development Corporation. But for 
today I just want to highlight a few additional important 
facts.
    The intent of--well, Mariposa County and Yosemite National 
Park have a long, mutually beneficial relationship. Over 70 
percent of Yosemite's visitors don't overnight in the park. 
Most stay in one of the gateway communities located proximate 
to each of the park's four main entrances. The Mariposa 
entrance, called the all-weather highway, is kept open at all 
costs during inclement weather, which regularly closes the 
other three entrances.
    While the population of the town of Mariposa is only 2,000 
in a very rural county of 18,500, over a million visitors a 
year enter the park driving right through town. A 2000 Sierra 
Business Council study estimated that as many as 88 percent of 
the paychecks generated in Mariposa County come first, second, 
or third-hand from the tourists visiting Yosemite.
    Expanded services in Mariposa will take tremendous pressure 
off the National Park Service to build more and more 
infrastructure for better access in Yosemite, as well as 
additional employee residences, work spaces, and work space in 
the crowded Yosemite Valley.
    The intent of Congressman Denham's bill is simply to 
authorize the Secretary of the Interior to acquire up to 18 
acres in Mariposa to create a more efficient, accessible, and 
safer Yosemite National Park. The legislation will undoubtedly 
improve park traffic and visitor access, and allow visitors to 
purchase entrance passes, receive orientation benefits before 
they enter the park. Additionally, administrative offices in 
Mariposa will greatly enhance recruitment retention, housing, 
and performance for over 100 employees who currently drive over 
an hour each way today--and this is a change from 20 years 
ago--to sit at a computer all day. There are over 700 permanent 
NPS employees in Yosemite, and about 1,200 peak employment in 
the middle of summer. Importantly, non-essential administrative 
facilities in the park would be available for the much more 
important use.
    Since 1980, National Park Service plans have called for 
moving facilities out of the spectacular Yosemite Valley--and 
again, these are not visitor-serving facilities, just 
administrative facilities--and into the gateways to get them 
out of Yosemite Valley. Mariposa County, the Yosemite 
Conservancy, and Yosemite National Park have been planning and 
working toward establishing joint administrative and visitor 
service facilities outside the park for a decade. In 2004, 
importantly, President Bush signed legislation, H.R. 620, 
specifically authorizing park facilities to be located outside 
of Yosemite National Park and in the gateways for this exact 
purpose, visitor and administrative services. This bill, H.R. 
3640, simply authorizes the required land acquisition to allow 
this to happen.
    With advances in technology, visitors who normally arrive 
in the gateway town the afternoon before their visit--and 
again, over 70 percent of the visitors are not overnighting in 
the park, but are overnighting in a gateway--they will be able 
to get their full park orientation, entrance passes, maps, and 
plan their trip before they enter the park. This process should 
practically eliminate entrance station back-ups, which now 
reach two hours on busy weekends and severely limit access to 
this crown jewel national park. Actually, those back-ups last 
year were measured at over an hour on 67 of the 100 busiest 
days.
    Please note no services that are currently provided in the 
park would be eliminated. And Congressman McClintock's comments 
really note the challenges that we have in trying to fully 
communicate the exact intent and what the bill authorizes and 
what it doesn't.
    In conclusion, many partners, both public and private, 
stand ready to provide facilities, the cost of which 
traditionally fall 100 percent on the National Park Service. 
H.R. 3640 specifically promotes public-private partnerships 
which will have a dramatic, measurable, and positive impact on 
park visitors and employees, as well as the economy of Mariposa 
County.
    Thank you much for your consideration on this.
    [The prepared statement of Mr. Cann follows:]

    Statement of Kevin Cann, Supervisor, Mariposa County, California

    Mr. Chairman, Ranking Member and Members of the Committee:
    My name is Kevin Cann. I am a Mariposa County, CA Supervisor 
recently elected to my second four-year term. I speak today in support 
of H.R. 3640 the Yosemite Lands Bill. I have submitted significant 
background and support statements for the record but wanted to 
highlight a few additional important facts.
    The intent of Congressman Denham's bill is to simply authorize the 
Secretary of Interior to acquire up to 18 acres in Mariposa, 
California, to create a more efficient, accessible, and safer Yosemite 
National Park. The legislation will undoubtedly improve park traffic 
and visitor access and safety, and allow visitors to purchase entrance 
passes and receive orientation benefits before they enter the park. 
Additionally, administrative offices in Mariposa will greatly enhance 
recruitment, retention, housing and performance for over 100 employees. 
Importantly, non essential administrative facilities in the park would 
be available for more appropriate use or removal.
    Mariposa County and Yosemite National Park have a long, mutually 
beneficial relationship. Over 70% of Yosemite's visitors do not 
overnight in the park. Most stay in one of the gateway communities 
located proximate to each of the park's four main entrances. The 
Mariposa entrance, called the ``All Weather Highway'' is kept open at 
all costs during inclement weather which regularly closes the other 
three entrances. While the population of the town of Mariposa is only 
2000, in a very rural county of 18,500, over one million visitors a 
year enter the park directly through town. A 2000 Sierra Business 
Council study estimates that as many as 88% of the paychecks generated 
in Mariposa County come 1st, 2nd or 3rd hand from the tourists visiting 
Yosemite. Expanded services in Mariposa will take tremendous pressure 
off the National Park Service to build more and more infrastructure to 
better access Yosemite as well as additional employee residences and 
workspace in crowded Yosemite Valley.
    Since 1980, National Park Service plans have called for moving 
facilities out of the spectacular Yosemite Valley and into the gateways 
to better serve the public. Mariposa County, the Yosemite Conservancy 
and Yosemite National Park have been planning and working toward 
establishing joint administrative and visitor service facilities 
outside the park for a decade. In 2004, President George Bush signed 
legislation (H.R. 620) specifically authorizing park facilities to be 
located outside of Yosemite National Park ``for visitor and 
administrative services.'' H.R. 3640 authorizes the required land 
acquisition.
    With advances in technology, visitors who normally arrive in the 
gateway town the afternoon before their Yosemite visit, will be able to 
get a full Park Ranger orientation, entrance passes, maps and plan 
their trip BEFORE they enter the park. This process should practically 
eliminate entrance station backups which now reach two hours on busy 
weekends and severely limit access to this Crown Jewell National Park.
    In conclusion, many partners both public and private, stand ready 
to provide facilities, the costs of which traditionally fall 100% on 
the National Park Service. H.R. 3640 specifically promotes public/
private partnerships which will have dramatic, measurable positive 
impacts on park visitors and employees, as well as the economy of 
Mariposa County.
    Thank you for your time and consideration of the Yosemite Lands 
Act.
                                 ______
                                 
    Mr. Bishop. Thank you very much.
    Ms. Johnson?

            STATEMENT OF RONIKA JOHNSON, RESIDENT, 
                      MARIPOSA, CALIFORNIA

    Ms. Johnson. Thank you, Mr. Chairman. My name is Ronika 
Johnson. I am a Mariposa resident. And it is an honor to be 
here and represent the residents of Mariposa. The town of 
Mariposa is located approximately 30 miles from the western 
gate of Yosemite National Park. Our community, as most outlying 
communities are, dependent on our tourism. When the park 
suffers we suffer. Last year, during the debt ceiling crisis 
and under the threat of budget cuts, twice we faced park 
closure. This was a threatening time for us, as so many of our 
businesses who employ our residents would be affected. Our 
tourist season is dormant between the months of September and 
May, so a summer shut-down was especially frightening. We could 
very well face this possibility again in the future, as 
California is also in a financial crisis in facing more budget 
cuts.
    We are told that this may be the last year our county fair 
will take place, as the State can no longer afford to 
contribute. Mariposa is dramatically affected by the activity 
of the park and the tourists it attracts. Our largest business 
base is motels and restaurants to cater to the tourists who 
come through. I have worked in this industry for over 20 years 
in Mariposa, and I have managed restaurants and a hotel located 
in Mariposa and El Portal, which borders the park, so I am very 
familiar with the needs of our community and our park.
    While many of us recognize the need to accommodate our 
tourism industry, we are in opposition of the Federal 
Government purchasing more land in our county. They currently 
own 50 percent, and are now asking for 18 acres located right 
in the heart of our historic town. If you look at the 
projection map, you will see that the proposed Federal 
building, which includes a visitor center and parking lot, and 
possibly a discovery center, is three parcels which sit on 
approximately seven acres. Yet the bill asks for 18. Across the 
street is the remaining 11 acres, where they plan a walkway 
leading to private property whose owner is a developer 
proposing to build a convention center and a large hotel, a 
hotel which will likely provide a restaurant which both will 
dramatically affect and threaten our small businesses as a 
competition.
    This purchase of 11 acres is not necessary to accommodate 
the visitor center goal of providing service outside the park 
to make it easier for tourists to pay their entrance fees. I 
also question the need to relocate 100 employees to a building 
located 30 miles away from the park. I have to question why do 
we have 100 employees working 30 miles from the area they are 
supposed to be serving. And are they necessary? I would also 
like to add that this relocation will not create any more jobs 
for Mariposa.
    The proposed visitor center is located at the cross 
intersection of Highway 140 and 49. Both are two-lane roads 
which currently cannot manage the traffic impact that this 
proposal will affect. We have no street lights in Mariposa, and 
this particular intersection is only a four-way stop sign in 
town. This proposal will dramatically congest the intersection 
and roads going through our town. Next will be a proposed 
traffic light that the county has long fought against having.
    The residents of Mariposa oppose this bill, mostly due to 
the fact that they have not been given any details of the plan 
or an opportunity to voice their opinions. There has been no 
public forum or hearing. Most residents have not heard of the 
plan and question, again, the impact. Most of all, we have to 
question the spending at this time. Neither the Federal 
Government, the county, nor the State are managing our money 
wisely. While we recognize need, we must also recognize the 
means.
    This bill does not offer any resources or limits as to how 
much money will be spent, or how it will be used. There are 
other issues that will dramatically affect our county, such as 
the road impact and the loss of a tax-base revenue from the 
land. There are other alternatives to development. However, 
those have not been addressed, as we have had no hearing or 
public input. The residents of Mariposa County deserve a voice. 
And I am here today to lend that voice to you and ask that this 
bill be stopped.
    Our hope is that this bill will not proceed further through 
the process until it is thoroughly researched. This includes 
public hearings, detailed proposed drawings, including roadways 
and transportation issues, the impact on local hotels and 
restaurants. We are not opposed to thoughtful growth and 
additional amenities to Mariposa County, but feel it has to be 
done in a fashion that indicates the best possible solution for 
those of us who call Mariposa our home.
    We thank you for your consideration, and ask that you 
oppose H.R. 3640. Thank you.
    [The prepared statement of Ms. Johnson follows:]

    Statement of Ronika Johnson, Mariposa, California, on H.R. 3640

    Mr. Chairman, thank you for allowing me the opportunity to address 
HR3640 before you and your committee. My name is Ronika Johnson, I am a 
resident of Mariposa, California and I am here to represent not only my 
view, but those of many residents who live in Mariposa County.
    To understand the sentiment of many of our town's residents, it's 
important to know a little bit about our history. Mariposa has a rich 
history and we are very proud of it. Once populated by Native Americans 
Mariposa came into existence almost overnight via the deluge of 
immigrants seeking their fortunes during the Gold Rush. The Gold Rush 
at one time created a population greater then what resides in Mariposa 
today. The result was the greatest migration for the search of riches 
that has ever occurred in the history of the world. Within the short 
five years after the discovery, more than 300,000 men, and at first it 
was mostly men, crowded into the wilderness of the Sierra Nevada, 
searching for the pot at the end of the rainbow.
    On February 18, 1850 Mariposa became the largest county of the 
original 27 California counties, and is known as the ``Mother of All 
Counties.'' Later the county was split up and now occupies 1,455 square 
miles of California's rich Mother Lode country. Mariposa is the Spanish 
name for butterfly, and aptly named by Lieutenant Gabriel Moraga of the 
Mexican Army in 1806 for the swarms of butterflies he saw along 
Mariposa Creek. John C. Fremont, an early explorer, is responsible for 
founding the town whose many streets are named after his family 
members. In 1854 the famous courthouse was built on land donated by 
Fremont. Today, it is the oldest operating courthouse in California.
    In 1907 construction was started on the Yosemite Valley Railroad. 
The railroad employed as many as 1,500 men during the early years. The 
railroad ran from 1907 until 1945 hauling logs, limestone and other 
mineral. In later years as Yosemite grew in popularity the railroad 
shuttled tourists to the new wonder. The railroad parallels the north 
bank of the Merced. A significant change occurred to the railroad in 
the early twenties by the construction of a large dam on the Merced 
River at Exchequer east of Merced Falls. That project required the 
relocation of 17 miles of track and the construction of 5 large bridges 
and 4 concrete-lined tunnels.
    Passenger business on the railroad peaked in the mid-twenties, 
dropping thereafter due to the increase in private automobile use, 
accelerated by the completion of the new All-Year Highway (now State 
Route 140) in 1926. The loss of the logging/lumber freight business in 
1942 and then the limestone/cement business in 1944 eventually resulted 
in a request to abandon the railroad. The last scheduled run came on 
August 24, 1945; scrapping operations commenced shortly thereafter.
    Mariposa is known as the Gateway to Yosemite. Our businesses thrive 
on the tourism industry and the local economy feels it, especially now. 
We have many locally owned restaurants & hotels mostly in our downtown 
area. Our small town is very historic and preserved to stay as such. To 
preserve our historic look, ordinances have been put in place, such as 
limiting the height of business signs to not obstruct views, and 
encourage natural or historic appeal. Business volume is very seasonal, 
traffic & tourism is heaviest May thru September. The off season is 
very detrimental to all businesses and layoffs are unavoidable for most 
small business owners, which is the general makeup of our businesses, 
those owned by the private sector.
    My main concern regarding HR3640 is that there has been no public 
hearing or input on the matter. Residents feel there is a lack of 
transparency and that it is being `slipped' in with special interests. 
While it benefit's the Park Service and their employees, it poses 
several implications and impacts to the community itself that have not 
been addressed. Most residents don't even know about it.
    Currently the Federal Government owns 50% of Mariposa County. The 
proposed development is requesting 18 acres of land in the heart of 
Mariposa. Even this amount of acreage seems too much for the proposal 
of a Federal building, parking lot & possibly a museum. How much more 
does the Federal government need to take from Mariposa County before we 
are just an extension of Yosemite? Yosemite is approximately 30 miles 
from Mariposa. While we all realize the need to accommodate tourism, 
there are other alternatives and ways to meet these needs. However they 
have not been addressed. This is viewed as a Federal overreach and 
local government wants to promote a public/private partnership without 
a detailed plan offered to the public. What about the private business 
sector? Why not move this project into El Portal, where the land is 
already owned by Park service? Why spend at a time such as this? Our 
residents should have a say in how their community is developed, 
especially with tax payer funds. Mariposa's Tax base revenue will be 
lost, traffic will be impacted and local businesses will be negatively 
effected with the expansion of a 4 Star Hotel and Conference Center. 
While broad vision, smart growth and planning is encouraged, the 
residents of Mariposa have not had the opportunity to engage these 
ideas nor have they been revealed in a public forum.
    The bill itself, HR3640 is vague and open ended, which leaves doubt 
and confusion as to the intent and direction of the bill. The 
prohibition of eminent domain remarked in the bill indicates that if it 
does not meet the requirement, then we question the intent and 
necessity. Mariposa residents oppose HR3640 and encourage the committee 
to deeply consider the impacts of this bill to the residents & town of 
Mariposa.
    Our hope is that this bill will NOT proceed further through the 
process until it is more thoroughly researched. This includes public 
hearings, detailed ``proposed'' drawings including roadways and other 
transportation issues, the impact (if any) on local hotels and 
restaurants.
    We are not opposed to thoughtful growth and additional amenities to 
Mariposa County, but I feel it has to be done in a fashion that 
indicates the best possible solution for those of us who call Mariposa 
our home.
    Thank you for your consideration to our historic town and the 
residents who care so deeply for it.
                                 ______
                                 
    Mr. Bishop. Thank you very much. All right. Questions for 
this panel. Mr. McClintock, we will start with you.
    Mr. McClintock. Thank you, Mr. Chairman. Supervisor Cann, 
you mentioned the challenges in communicating your intent. And 
I think the challenges--because we seem to be hearing two very 
different stories. One is that this is just to move 
administrative employees out of the park into a separate 
office. They sit in the front of the computer all day and they 
don't have any interaction with park visitors.
    Yet, on the other hand, it raises the question. Why is it, 
then, that we are seeking 18 acres of land for this 
administrative office? It also begs the question that was 
raised in a public meeting that I attended recently. When there 
are so many vacant office spaces in Mariposa that are going 
unleased, why is it we would have the Federal Government 
building yet another office facility?
    The other question that it raises is if this is just to 
move administrative officials that have no interaction with 
guests, then how does that comport with your statement that 
this is going to get a--that this will enable park visitors to 
get a full park ranger orientation, entrance passes, maps, and 
plan their trip before they enter the park? Your words. Seems 
to me that is very much involved with visitor interaction, and 
that that would best be in the park itself, where people can 
access it, regardless of which gateway they are coming from.
    So, I am just--that may be the source of your problem in 
communicating intent is we are getting all sorts of very 
different communications, as far as the intent of this. And 
then I look back at the legislative history of this issue and 
find that, years ago, Congress was being asked to invest in a--
was it an IMAX theater on the same parcel?
    Mr. Cann. Can I answer?
    Mr. McClintock. Yes, please. I----
    Mr. Cann. I have no idea about an IMAX. And certainly that 
the--I can't imagine the National Park Service building an 
IMAX.
    But let me go to your other questions. This bill has 
always, and the concept has always been for visitor services 
and for administrative purposes. The bill signed in 2004 
specified both of those issues. There actually are no--there 
was one building in Mariposa that was able to be rented by the 
Park Service. And they, in fact, did that and have 
administrative offices. They moved payroll, budgeting--again, 
facilities and services that don't have any visitor 
interactions. And that is the only ones that would ever be 
moved into--out into the gateway community.
    It is actually very common around crown jewel-type national 
parks, to try to do those things that don't need to be done in 
the park in a gateway community. It is so much easier to 
provide those services, everything from----
    Mr. McClintock. Right, which raises the next issue. And 
that is, if we are moving visitor services out of the park and 
30 miles west to Mariposa, what are the visitors supposed to do 
who are coming through Oakhurst or Sonora, for example? Are 
they--did--these are obviously visitor-related services that 
are being moved out of the park, and therefore will not be 
accessible to visitors entering the park through any other 
gateway, except Mariposa, which is the concern that has been 
raised by both Tuolumne County and Madera County.
    Mr. Cann. Actually, I believe that this model will 
absolutely become a model not necessarily needing Federal 
development, it just--the facilities don't exist in Mariposa--
but will quickly be copied in other gateway communities.
    Last year, as I said, 67 of the 100 busiest days had over 
an hour back-up. Many of those days had two-hour back-ups. 
People are turning around. You know, they are being excluded 
from our national park.
    Mr. McClintock. I agree that is a problem. But maybe that 
is an argument in favor of enlarging the entrance and services 
there in the park, and not moving them 30 miles outside of the 
park, outside of the range of visitors coming through Madera 
County, from Southern California, or coming through Tuolumne 
County, from Northern California.
    Mr. Cann. So the concept here is that since 70--more than 
70 percent are not overnighting in the park, they can get all 
of their orientation that they normally get in line to get with 
that park ranger at the entrance station, and they want to 
question--you know, they have just driven from Kansas, or----
    Mr. McClintock. Right, but I think you are missing the 
point----
    Mr. Cann. I am sorry.
    Mr. McClintock [continuing]. That both Madera and Tuolumne 
are raising, and that is, well, what about the folks that had 
been going though their communities?
    Mr. Cann. And the exact same type process is available. The 
Park Service----
    Mr. McClintock. But this is not a comprehensive plan that 
involves all the gateway communities. This is a plan that picks 
one winner out of many losers. And that is the concern that is 
being raised.
    Mr. Bishop. Let me--I am going to have to interrupt here. 
Mr. McClintock, if you would take the Chair for a second, we 
will go to Mr. Garamendi for questions, and then we will go to 
another round after that.
    Mr. Cann. Thank you.
    Mr. Bishop. Mr. Garamendi, you have questions of this 
panel?
    Mr. Garamendi. First of all, the issue of the impact of 
visitors on the park, including the impact of administrative 
personnel and other services in the Valley has been muchly 
discussed for more than 40 years. And efforts have been 
underway for all that time to try to find a way to move as many 
services as possible out of the Valley, not to eliminate the 
visitor services, but rather to augment them outside the 
Valley.
    The plan, as I understand it, and as has been discussed for 
these many years, is to move the administrative services out of 
the Valley. There is no need for them to be in the Valley. 
There are certain things that will have to remain, certain 
policing services, some medical services, but not the normal 
administrative services.
    Second, there is no plan to eliminate in the Valley visitor 
services. They will remain. The point of this entire exercise 
is to take out of the Valley as much as possible, so that the 
Valley can remain as unencumbered by the thousands or tens of 
thousands of visitors that are there during the normal course 
of a day.
    Now, I understand the local community's concerns about 
whether this is the right place, the right--and the rest. But 
something has to be done. There is no way that the Valley can 
continue in its present form.
    Just a couple of questions, Mr. Cann, and I appreciate your 
testimony. And I think you may have answered this, but the 
engagement of the public outside the Valley--and I want to make 
it clear--let me ask this of the Park Service. Do you intend to 
have visitor services continue in the Valley?
    Mr. Knox. Yes.
    Mr. Garamendi. So there will be visitor services under this 
plan at the major gateway--that is Mariposa--as well as in the 
Valley. Is that correct?
    Mr. Knox. Yes, Congressman. And the primary purpose, as you 
just stated, is to provide administrative support facilities in 
Mariposa with an ancillary purpose of providing visitor contact 
at that same facility.
    Mr. Garamendi. Second, is it not the case that visitor 
services outside other parks is common?
    Mr. Knox. Correct. And visitor services outside--yes. We 
provide visitor services outside parks all over the country in 
different situations.
    Mr. Garamendi. So this is nothing new. Is that correct?
    Mr. Knox. That is correct. And we also have administrative 
offices outside of many parks. Grand Canyon is a good example.
    Mr. Garamendi. I think you get on a train some 40 miles or 
30 miles outside. And before you get on the train there is a 
visitor service. Is that correct?
    Mr. Knox. That is correct.
    Mr. Garamendi. OK. So this is not new. It is an effort to 
try to reduce the pressure on the site. That is, the park 
itself. And that is commendable.
    So, back to Mr. Cann. And thank you for being here and 
testifying. There is some concern that this would subtract from 
the community's economic strength. Could you address that?
    Mr. Cann. Oh, happily. As I stated, the Chamber of 
Commerce, the Tourism Bureau, the Economic Development 
Corporation have all submitted letters in support, in addition 
to the Board of Supervisors, that they think just the opposite, 
that this would dramatically improve our ability to serve those 
visitors. Again, 88 percent of the paychecks in Mariposa 
County--I think we both stipulate to this situation--come 
first, second, or third-hand from the tourists on their way to 
Yosemite.
    With regard to the local community knowledge and input, 
there have been two newspaper stories about this. We have a 
weekly newspaper that is read by just about everyone. We had so 
many folks come to meet with Congressman Denham to--when this 
was the highlighted presentation--and, in fact, the only 
presentation--that we had to rent the fairgrounds building. 
This was in June of 2011, before the Congressman introduced the 
bill.
    So, I would offer that we have really tried to beat the 
bushes in letting people know about this. And, as with all of 
us, we are constantly challenged of finding the ones that we 
haven't. I was very happy to meet with Ms. Johnson on Monday to 
go over this exact whole process, and it was very beneficial.
    Mr. Garamendi. OK. Thank you. Just to wrap up my time, 
first of all, this is not new. This has been discussed, I know, 
for at least the last 20 years, because I was involved in the 
discussions 20 years ago on this. And this is a plan that has 
been out there for at least two decades, including the visitor 
center. Certainly the administrative offices have been out 
there.
    And finally, the other communities will be able--people 
accessing the park from other communities will be able to 
access the visitor services in the park itself on the Valley 
floor.
    With that, I yield. Thank you.
    Mr. McClintock [presiding]. Thank you. Ms. Johnson, if this 
is about just moving administrative services, as Congressman 
Garamendi has just suggested, why is it that we need 18 acres 
to do so?
    Ms. Johnson. Well, that is our concern. I don't believe we 
need 18 acres. The parcels that are in question for the 
development of the visitor center is approximately seven acres. 
The remaining 11 are across the street, about half a block 
away, that lead to private property where they plan to develop 
the convention center and the hotel. I am not arguing that 
there is a need for this, we just are opposed to the 
development, the ownership of more Federal land in our 
community. They already own 50 percent.
    And the fact that these extra 11 acres aren't necessary is 
a concern. We are already losing a tax base off the seven 
parcels. And there is also the fact that our intersections and 
our roads are going to be majorly impacted. And the community, 
you know, it may be beneficial, but who is it really 
benefitting? The traffic that is backed up in Yosemite is now 
going to be backed up in town. We don't even have traffic 
lights there. This is located at a four-way stop sign.
    There is issues that have not been addressed, and that is 
the major concern with the residents of Mariposa. This may have 
been a plan for 20 years, but we have only heard about it 
twice, through a newspaper ad. There has been no public forum, 
there has been no discussion allowing the public to have an 
input or opinions. I believe there is other alternatives to 
development. And more Federal ownership of our land is not 
always the solution.
    Mr. McClintock. So, basically, this will simply move the 
congestion from the west entrance to the center of town.
    Ms. Johnson. Correct.
    Mr. McClintock. What do the residents that you talk to 
think about that?
    Ms. Johnson. They are not happy about it, because they 
haven't had a voice in it. It has not been addressed. There has 
been no proposals. We don't know how this is going to happen. 
There is really not a lot of area for development on the 
roadways. And, as I mentioned, you know, there is no traffic 
lights, there is--it is a four-way stop sign. And the fact that 
more land is being asked for raises a question on the intent of 
this bill and what is really in the future.
    Mr. McClintock. Now, if this is just about moving 
administrative offices, as Congressman Garamendi has suggested, 
is there unleased office space in Mariposa?
    Ms. Johnson. Several. The county just left open, I believe, 
six different buildings. The leases remain open until 2015, is 
my understanding. The county just built a Federal--or, excuse 
me, our State human resources office on a stimulus grant just a 
couple of years ago without any public input, as well, and they 
left abandoned six or seven buildings. And it is just recently 
the National Park Service moved into one of those buildings, 
and they are paying over 12,500 a month for a leased building 
that is subleased through our county.
    Mr. McClintock. Why would administrative offices housing 
100 desk-bound employees require a adjoining conference and 
convention center?
    Ms. Johnson. They would not. That would just be beneficial, 
I believe, to the developer. I believe it would also harm our 
other businesses, which are made up mostly of restaurants, 
hotels that provide services for the tourists, and are very 
dependent on that.
    We are not arguing that, you know--yes, the park there is 
congested as well, and there are needs. But to what extreme do 
we--you know, how much land does the Federal Government need in 
our county?
    Mr. McClintock. So it appears, despite the stated intent, 
that there is an intent to draw a great deal of additional 
visitor traffic through Mariposa that would come at the expense 
of existing communities like Sonora and Oakhurst, which, as we 
heard from the letter that I quoted from the Chairman of the 
Board of Supervisors in Madera, is almost entirely dependent 
upon that traffic.
    And again, I understand it is going to increase traffic--
visitors to Mariposa. But that will be--come at the expense of 
traffic that would otherwise have been going through those 
other communities. And----
    Ms. Johnson. Mariposa welcomes the tourist. And we need the 
business. We are hurting that way. I won't argue that at all. I 
am just saying that there are other alternatives that have not 
been addressed, because the people haven't had a voice to do 
that.
    I would also raise the question as why, you know, another 
developer can't come in and build this visitor center, keep the 
land in Mariposa County and not in the hands of the Federal 
Government.
    Mr. McClintock. Thank you.
    Ms. Johnson. They could easily lease----
    Mr. McClintock. My time is expired. I just want to say I 
think that I like the overall objective, but I think it has to 
be done comprehensively. And the issues that are dividing the 
local community need to be resolved before it is brought to 
Congress.
    Congressman Garamendi?
    Mr. Garamendi. Thank you, Mr. Chairman.
    Mr. McClintock. Oh, I am sorry. Congressman Tsongas--OK, 
Congressman Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. A couple of things. 
First of all, the bill does not mandate 18 acres be purchased. 
It says up to. The actual language is ``not more than 18 
acres.''
    Now, the other thing is this simply authorizes it. There is 
this little process which still is the law, although this 
Committee seems to want it kind of modified or eliminated. It 
is called NEPA. Nothing is going to get built until that 
process is completed. There has to be an environmental study.
    So, the issues of traffic, the issues of parking, the 
issues of traffic lights all have to be dealt with in that 
process. That is just the way it is going to be. So many of the 
concerns that have been expressed here will be thoroughly 
vetted in the NEPA process. That is what it is for. Not just 
the environmental issues, which will be dealt with, but also 
the community issues. And one of the great debates that rages 
in this Committee is the issue of do we keep NEPA in place.
    Now, the concerns that have been expressed here by the 
community, or at least the representative of the community, 
have to be addressed in that NEPA process. Whether it is 18 
acres or 17.37 acres or 7.3 acres, that is what the NEPA 
process is all about. It will have to be laid out.
    This bill simply says that the National Park Service has 
the authority to purchase up to 18 acres. Things are going to 
get worked out here. Without a bill like this, the problems in 
the Valley will continue. And they are very, very serious 
problems of congestion within the Valley, both for Sonora, for 
Oakhurst, and for Mariposa.
    So, we are putting in place a step toward a process that 
will lay out and thoroughly vet the concerns that have been 
raised here about the community and traffic lights and so on 
and so forth. So, I think we are on the right track here. And I 
must tell you this has been debated ad nauseam. We have to 
move. The Valley is suffering as a result of the continuing 
debate back and forth about what to do. What to do, what to do? 
And nothing gets done, and the Valley suffers. The visitor 
experience in the Valley is degraded by the impact of 
administrative offices, by the impact of visitors trying to get 
into the visitor center within the Valley, since there is none 
outside. So we are moving forward here.
    And so, with that, if any of you would like to comment, 
let's start with the Supervisor, and go from there.
    Mr. Cann. Thank you very much, Congressman. There is no 
real evidence that suggests that this will have any impact on 
the number of visitors that go through this corridor. It 
won't--shouldn't take a single visitor from any of the other 
corridors. You know, each corridor gets almost the same amount 
of visitors over the course of a full year. What this will do 
is it should dramatically reduce the entrance station back-ups. 
And once those folks hit Yosemite, they can go right where they 
want to go. They don't have to go get any more orientation, 
unless they choose to. There will be--all the facilities and 
services that exist in Yosemite Valley will exist. Again, the 
Park Service is--already has been funding putting seasonal 
interpreters in each of the gateway communities, because this 
concept is so needed.
    I will respond that in 1958 Congress bought 1,200 acres in 
the community of El Portal, mentioned earlier, that was 
designated for this type of a development to move things out of 
Yosemite Valley. Unfortunately, as laws got overlayed on that--
and particularly of late, the Wild and Scenic River Act--that 
became non-available for these facilities.
    Now, there is a wastewater treatment plant and a 
maintenance operation there, and there is no more space to 
build. But the need--I mean in 1958 the park probably had 20 
percent of the employees that it has now. The need is 
exponentially greater.
    I would just last say that twice this issue came before the 
Board of Supervisors in published--pre-published public 
meetings to have this open discussion. There has been virtually 
no objection voiced in the community in these public meetings 
with the Chambers of Commerce, the people that we might think 
would be most impacted by this. So I do agree, as I said 
earlier, there--communication is never sufficient. And as we 
talked earlier, the--I made myself available to go anywhere 
anyone wants to talk about what the bill is and what it isn't. 
Thank you.
    Mr. Bishop [presiding]. Thank you. I appreciate that. Is 
there any other questions for this panel?
    [No response.]
    Mr. Bishop. If not, I thank you----
    Mr. Cann. Thank you.
    Mr. Bishop [continuing]. For being here. Next, Mr. Knox, we 
have a couple of other bills I think you are testifying----
    Mr. Knox. Yes, sir.
    Mr. Bishop [continuing]. Will be testifying. So why don't 
you stay there? Mr. Cann, Ms. Johnson, thank you for taking the 
time and effort to come all the way back here and testify to 
us. I appreciate that.
    Let me ask Mr. Jim Pena, who is the Associate Deputy Chief 
of the National Forest Service if he will join us at the panel. 
Also, Mayor John Curtis, the Mayor of Provo, if he will come 
up, and we will deal with H.R. 4484 next.
    Let me have--actually, so we have room, Mr. Slavin and Ms. 
Campbell, let's wait. And as soon as these two are done with 
their testimony we will bring you up and then you can have full 
shot at the panel here. So just Mr. Pena and Mayor Curtis here.
    Mr. Pena, can I have you actually address two bills in this 
particular one? I don't think there is anyone else to talk 
about 4109, Representative Gallegly's bill. If you will talk 
about that, as well as 4484, which is Y Mountain, if you will 
do those two, and then we will turn to Mayor Curtis on those 
two and see if there are questions for those. Thank you.
    Mr. Pena. OK. Would you like me to do them in any order, 
or----
    Mr. Bishop. Why don't you do--why don't you get 4109 out of 
the way first, and then turn to Y Mountain?
    Mr. Pena. OK.

STATEMENT OF JIM PENA, ASSOCIATE DEPUTY CHIEF, NATIONAL FOREST 
   SYSTEM, UNITED STATES FOREST SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Pena. Good morning, Chairman Bishop and--it would have 
been members of the Committee. My name is Jim Pena. I am 
Associate Deputy Chief of the National Forest System, U.S. 
Forest Service. Thank you for inviting me here today to testify 
regarding H.R. 4109, the Los Padres Conservation and Recreation 
Act of 2012.
    We do not oppose the legislation designating these 
additional wilderness areas on the Los Padres National Forest. 
Each area is unique and would be a valuable addition to the 
National Wilderness Preservation System. However, we are 
concerned with changing the delegation of authority for 
deciding when wilderness can be entered with mechanized 
equipment during fire suppression activities.
    I know from firsthand experience that the current system 
works to quickly respond to a request, and provides a fair and 
balanced way of weighing the potential firefighting benefits 
with the potential impacts to wilderness. The Forest Service 
uses a minimum resource decision guide, or minimum tool 
analysis, to guide the appropriate response for addressing 
emergency situations. This process can and has authorized use 
of motorized equipment in wilderness on a case-by-case basis.
    We do not oppose the proposed additions to the National 
Wild and Scenic River Act--or Wild and Scenic River System in 
this bill, either. But there are some new segments which are 
inconsistent with the classification findings in the 
eligibility and suitability studies. In addition, we would like 
to work with the Subcommittee to make the designation of Upper 
Sespe Creek more consistent with the Wild and Scenic Rivers 
Act. We find that it is important to maintain the integrity of 
the act, and that there are other options such as boundary 
adjustment available to meet the California Department of 
Transportation's concerns on being able to maintain Highway 33.
    The Department does not support a legislative land exchange 
with United Water Conservation District of California, because 
Congress has provided the authority to conduct the land 
exchange administratively. We note that a public interest 
determination and an appropriate environmental review would 
provide for a fair exchange for both the United Water 
Conservation District and the American public.
    In addition, we would like to work with the Committee to 
develop a more detailed land exchange map that clearly 
identifies the parcels and their locations to be included in 
the legislation.
    One concern we have with legislated exchange is water 
rights. In the proposed exchange, the United States would 
convey water rights with the Federal property to be exchanged. 
Properties which would be--which would come to the Federal 
estate would do so without water rights. This does not appear 
to be an equitable exchange for the public.
    Last, I would like to discuss off-highway vehicle, or OHV, 
use. OHV use is a popular activity on the national forests, in 
particular on the Los Padres. And the Department supports the 
provision of diverse OHV opportunities for recreational users. 
However, designating new OHV areas and trails and opening 
existing trails to new uses without first conducting 
environmental analysis to determine potential resource effects, 
including threatened and endangered species, is a serious 
concern.
    If this legislation moves forward, the Department requests 
the Subcommittee require new designations to the--be subject to 
the Environmental Policy Act NEPA analysis, as well as funding 
availability to conduct the analysis. The mitigation measures 
identified in the NEPA process would provide appropriate 
enforcement plans and closures to ensure protection of the 
resources, including threatened and endangered species.
    Thank you for the opportunity to testify today. And my full 
remarks have been submitted for the Committee.
    I would be happy to take any questions you have.
    [The prepared statement of Mr. Pena follows:]

  Statement of James M. Pena, Associate Deputy Chief, National Forest 
  System, Forest Service, United States Department of Agriculture, on 
 H.R. 4109, the ``Los Padres Conservation and Recreation Act of 2012''

    Mr. Chairman, Ranking Member Grijalva, and members of the 
Committee, my name is Jim Pena. I serve as the Associate Deputy Chief 
for the National Forest System. Thank you for inviting me here today to 
testify regarding H.R. 4109 the ``Los Padres Conservation and 
Recreation Act of 2012''. H.R. 4109 is a large and complex bill that 
involves designation and specific management direction related to 
nearly 63,600 acres of new wilderness, designation of approximately 
88.6 miles of new wild and scenic rivers, creation of about 18,500 
acres of a new special management area, designation of two new OHV 
areas comprising close to 65,800 acres, and execution of a land 
exchange with the United Water Conversation District of California.
    The Department does not oppose H.R. 4109, but would like to work 
with the bill sponsor and the Committee to address several concerns.
TITLE I--ADDITIONS TO NATIONAL WILDERNESS PRESERVATION SYSTEM
    Consistent with the Wilderness Act and National Forest Management 
Act, the Department supports wilderness designation for areas that are 
dominated by the forces of nature, and that offer outstanding 
opportunities for solitude or primitive and unconfined recreation. The 
majority of the land parcels proposed for Wilderness designation were 
recommended through the Land and Resource Management Plan for the Los 
Padres National Forest. These lands encompass expansive grasslands, 
chaparral covered slopes, rolling badlands, high elevation mountains, 
and deep, winding river canyons. Endangered Condors make their home 
here and unique plants like the Santa Ynez false-lupine exist here and 
nowhere else on earth. However, there are several key issues the 
Department would like to work on with the Subcommittee and Bill 
sponsor.
    The Department shares the concerns about wildfire suppression and 
pre-suppression with the community, the Subcommittee and the bill 
sponsor. However, the Department cannot support the prescriptive 
wildland fire language included in section 102(e)(2) that changes the 
Forest Service delegation of authority. Under the current policy for 
suppressing and managing wilderness fires the Forest Supervisor is the 
responsible federal official who makes a verbal request to the Regional 
Forester for approval to use motorized equipment for suppressing the 
wildfire. This time-tested policy outlines the delegation of authority 
for use of motorized and mechanized equipment and allows the Agency to 
implement a wide range of activities in both administrative and 
emergency situations. Consistent with the National Incident Command 
System, the incident commander operates under a delegation of authority 
from the hosting agency for the purpose of managing the incident. The 
incident commander exercises the delegated authority of the agency 
during the incident. The Department would recommend that the current 
system of requests and approvals be continued for the Wilderness 
designated under this bill.
    Under existing authorities the Forest Service has successfully 
implemented a wide range of emergency and administrative activities in 
support of fire suppression and pre-suppression. The Forest Service has 
the capability under existing approval procedures to respond in a 
timely manner when authorizing motorized equipment and mechanical 
transport in wilderness areas.
    In addition, in section 102(e)(3), the bill refers to ``post-
wildfire hazards on the land''. This term is unclear and the Department 
would like to work with the Subcommittee and the bill sponsor to 
clarify its meaning. The Forest Service uses a Minimum Resource 
Decision Guide (MRDG), or ``minimum tool analysis'' to guide the 
appropriate response for addressing emergency conditions within 
wilderness. Based on a case-by-case analysis, the ``minimum tool'' can 
authorize the use of motorized equipment with in wilderness consistent 
with section 4(c) of the Wilderness Act of 1964.
    In section 102(f), the bill refers to ``expedited emergency 
lifeline repair projects.'' If the road is outside of the wilderness 
boundary and the boundary is sufficiently set back to allow for 
anticipated maintenance-associated features such as culverts and 
retaining walls, then this language is unnecessary. The Department 
suggests that section 102 (j) should be changed to read that that the 
allowed right of way shall run with the land, rather than the lawful 
owner of such property shall be allowed right of way to their property. 
The Department would like to work with the Subcommittee and bill 
sponsor to further clarify our concerns.
TITLE II--ADDITIONS TO NATIONAL WILD AND SCENIC RIVER SYSTEM
    The Department generally supports the designation of additional 
rivers to the National Wild and Scenic River System. However, several 
of the new segment classifications are inconsistent with the 
classification findings in the eligibility and suitability studies for 
the proposed Wild and Scenic Rivers. There is also a discrepancy in the 
total mileage listed for Piru Creek and the sum of the mileages of the 
individual segments. The Department would like the opportunity to work 
with the Subcommittee and bill sponsor to change the segment 
classifications to be consistent with the eligibility and suitability 
findings and to clear up the Piru Creek mileage discrepancies.
    The Department would like to work with the Committee and the bill 
sponsor to identify an approach that is more consistent with the Wild 
and Scenic Rivers Act for the designation of Upper Sespe Creek. 
Subparagraph (B) of that designation exempts the effects of 
maintenance, repair or improvements of California Highway 33 by the 
California Department of Transportation. As written, subparagraph (B) 
could reduce the Agency's ability to ensure that activities in the wild 
and scenic river corridor are consistent with protecting river values, 
free flow and water quality present at the date of designation. The 
Department requests the opportunity to work with the Subcommittee on 
the concerns regarding Highway 33, while remaining consistent with the 
Wild and Scenic Rivers Act.
TITLE III--CONDOR RIDGE SCENIC AREA
    H.R. 4109 provides additional protections for 18,520 acres along 
the crest of the bucolic Gaviota Coast. The Land and Resource 
Management Plan for the Los Padres National Forest recommended Condor 
Ridge for Wilderness designation; however, the Department supports the 
creation of the Condor Ridge Scenic Area. In addition, the Department 
requests the Committee provide more time than three years to develop 
the comprehensive management plan.
TITLE IV--OFF HIGHWAY VEHICLE USE
    Off Highway Vehicle (OHV) use is a popular activity on the National 
Forests, and the Department supports the provision of diverse OHV 
opportunities for recreational users. However, designating new OHV 
areas and trails and opening existing trails to new uses without first 
conducting environmental analysis to determine potential resource 
effects, including threatened and endangered species, is a serious 
concern.
    If this legislation moves forward, the Department requests that the 
Subcommittee expressly clarify the new designations are subject to 
National Environmental Policy Act (NEPA). The mitigation measures 
identified in the NEPA process would provide the appropriate 
enforcement plans and closures to ensure the protection of the 
resources, including threatened and endangered species in the area.
TITLE V--LAND EXCHANGE
    The land exchange outlined in this bill directs an exchange with 
the United Water Conservation District (UWCD) of California. The United 
States would acquire 350 acres (more or less) near Lake Piru on the 
southeastern edge of the Los Padres National Forest near the Ventura/
Los Angeles county line, in exchange for the conveyance of 440 acres 
(more or less) of federal lands, including the Blue Point Campground 
along Piru Creek, a one-mile stretch of Piru Creek, several parcels of 
land along the lake's shoreline, and all of the remaining federally-
owned portions of the access road around the lake's perimeter.
    The Department does not oppose a land exchange with the UWCD, but 
cannot support this land exchange as written. The Department prefers to 
allow the Forest Service to conduct this exchange administratively in 
order to ensure an equal value exchange, a public interest 
determination, and appropriate environmental review occurs. The 
Department would like the opportunity to work with the Subcommittee and 
bill sponsor to ensure that this exchange is in the public's best 
interest.
    Section 502(a) requires the Secretary to enter into an exchange 
with the UWCD, while allowing ``de minimis'' changes to the parcels 
based upon public input from the NEPA process. In addition, section 
502(d)(1) states that the lands to be exchanged are depicted on the 
overview map. However, the detail present on the overview map is not 
sufficient to inform either the Subcommittee or the Secretary of the 
parcels involved in the land exchange. The Department would suggest 
that a separate and discrete land exchange map, clearly identifying the 
parcels and their locations be included with the legislation as it 
moves through Committee.
    Section 502(g) excludes water rights, which presumably means the 
UWCD will continue to be able to use National Forest System lands for 
its water uses. By UWCD retaining water rights, the United States will 
not be in a position to determine the management activities on NFS 
lands, including managing resources and activities that require water. 
The Department respectfully requests that the Subcommittee amend this 
provision to ensure that the United States acquire all rights, title 
and interest in the lands, including water rights.
    In addition, the Department does not know if there are title issues 
related to the UWCD lands included in the exchange. The fact that it 
remains included in the legislation as a specific cost that the UWCD 
will not be responsible for concerns the Department that there may be 
title issues. Further, curing defects to title are the responsibility 
of the current landowner to resolve prior to conveyance to the United 
States. Since the Department of Justice Title Standards 2001 apply 
(502(d)(5)) which limit the ability of the United States to acquire 
land with defective title, it remains unclear why the United States 
would expend funds to clear potential title defects on property it does 
not yet own.
    In previous iterations of the land exchange, the UWCD was to pay 
for the construction of a parking lot allowing for public access to the 
Potholes Trail on National Forest System lands. The current bill 
requires the UWCD to construct this parking lot, but section 502(d)(4) 
exempts the UWCD from paying for the costs of construction. The 
Department would like to work with the Committee, the bill sponsor and 
the UWCD to address this provision in a mutually satisfactory manner 
that addresses the need for public access and parking for the Potholes 
Trail. The bill also requires the proceeds from the equalization 
payment shall be deposited in the general fund of the Treasury. 
Utilizing Public Law 90-171, commonly known as the ``Sisk Act'' (16. 
U.S.C. 484a), would allow for the deposit of proceeds received for a 
conveyance into the fund established under the Sisk Act for the 
acquisition of land or interests in land within the State of 
California.
Map Concerns
    The Department has concerns regarding the overview map that is 
referenced in the bill. The Forest Service provided mapping services to 
the bill Sponsor, creating six detailed legislative maps of the 
proposed new wilderness areas/expansions, as well as the two proposed 
new OHV areas. Citing the more general overview map only, instead of 
the specific legislative maps, would likely open the door to future 
boundary disputes. Technically correct maps are vitally important to 
our on-the-ground management and implementation of Congress's 
direction. The Department would like to work with the Subcommittee and 
bill sponsor to ensure the detailed legislative maps dated February 27, 
2012, are included in the bill text.
Summary
    In summary, the Department supports the intent of H.R. 4109 that 
would add additional outstanding landscapes to the National Wilderness 
Preservation System, additional miles of protected rivers to the 
National Wild and Scenic River System, and provide additional OHV 
opportunities. However, my testimony outlined several critical concerns 
to the Committee with H.R. 4109 in its current form. The Department 
would like to work with the Committee and the bill sponsor to address 
our concerns. Furthermore, we understand that the Department of Justice 
may have concerns with the bill that it would like to with the 
Committee.
    This concludes my statement and I am happy to answer any questions 
you might have.
                                 ______
                                 
    Mr. Bishop. Thank you. And did you get 4484 in that, as 
well?
    Mr. Pena. 4484, I can do that right now.
    Mr. Bishop. Go.
    Mr. Pena. I am still Jim Pena. And I appreciate the 
opportunity to testify regarding H.R. 4484, the Y Mountain 
Access Enhancement Act.
    Over 100 years ago, the rivalry between the junior and 
senior class of Brigham Young University High School led to the 
creation of Y on Y Mountain. Since that time, the tradition of 
whitewashing the Y has been an important tradition at Brigham 
Young University. The trail to the Y is a popular hike in Utah 
Valley. BYU, the Forest Service, Provo City, and Utah County 
have worked together to manage this important site over the 
years.
    Mr. Chairman, I checked with sources and opinion-shapers in 
Utah and have found the one demographic that opposes this sale, 
possibly graduates of the University of Utah. So, with your 
indulgence, I suggest as a condition of the sale the Y on Y 
Mountain be illuminated crimson red during the University of 
Utah's homecoming week. That might be something that could be 
considered.
    On a more serious note, though, the Department does not 
object to the conveyance of the two parcels to BYU. We would 
like to enhance the legislation by ensuring that the public has 
legal access to the trail and the trail head on the BYU campus. 
The Department request the Committee consider an amendment to 
allow the Secretary to obtain an easement from BYU for the 
trail head parking and for the trail on the portion that 
traverses BYU property. This access is beyond the Y, other 
trails on the national forest. This would allow roles to be 
clarified in the areas such as maintenance, liability, and 
safety.
    This concludes my testimony, and I would be happy to take 
any questions on this bill, as well.
    [The prepared statement of Mr. Pena follows:]

  Statement of James M. Pena, Associate Deputy Chief, National Forest 
  System, Forest Service, United States Department of Agriculture, on 
          H.R. 4484 the ``Y'' Mountain Access Enhancement Act

    Mr. Chairman, Ranking Member Grijalva, and members of the 
Committee, my name is Jim Pena. I serve as the Associate Deputy Chief 
for the National Forest System. Thank you for inviting me here today to 
testify regarding H.R 4484, the ``Y'' Mountain Access Enhancement Act.
    H.R. 4484, the ``Y'' Mountain Access Enhancement Act, would direct 
the Secretary to convey to Brigham Young University (BYU) all right, 
title, and interest of the United States to two parcels comprising 
approximately 80.99 acres of National Forest System land in the Uinta-
Wasatch-Cache National Forest in the State of Utah, as shown on the 
accompanying map. The southern parcel is a split estate, so the United 
States would only convey what it owns (the surface estate). The United 
States does not own the underlying mineral estate.
    The Department does not object to the conveyance of the two 
parcels, but would like to work with the Subcommittee and the sponsor 
to address public access at the trailhead. The parcels are adjacent to 
land currently owned by the University. The trailhead and beginning 
portion of the ``Y Mountain Trail'' are located on land already owned 
by the University. Historically, the public has been permitted access 
to the trailhead and trail. Section 2(c) of the bill seeks to provide 
the same reasonable public access for the trail that historically has 
been allowed. To accomplish this objective, the Department recommends 
that section 2(c) be revised to provide for the reservation by the 
Secretary of an easement for public access for the portion of Forest 
Service Trail #2062 that would be conveyed to the University. Currently 
no legal public access to the trail exists at the trailhead and across 
BYU owned property. To ensure legal public access, the Department 
suggests the Committee consider an amendment to allow the Secretary to 
obtain an easement from BYU for the trailhead parking lot and the 
portion of trail that traverses across BYU property.
    As a technical matter, the legal description in Section 2(a) should 
be amended to correctly describe Lot 4. The legal description for this 
conveyance should be: SE\1/4\SE \1/4\ of Section 32, T. 6 S., R. 3 E., 
and Lot 4 of Section 5, T. 7 S., R. 3 E., Salt Lake Base & Meridian.
    The bill provides for the conveyance of this land for consideration 
in the amount equal to the fair market value of the land. The bill also 
requires the proceeds from the sale shall be deposited in the general 
fund of the Treasury to reduce the Federal debt. Utilizing Public Law 
90-171, commonly known as the ``Sisk Act'' (16. U.S.C. 484a), would 
allow for the deposit of proceeds received for a conveyance into the 
fund established under the Sisk Act for the acquisition of land or 
interests in land within the State of Utah.
    This concludes our testimony and I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. And as the University of Utah 
graduate here in the room, we will take your comments 
seriously.
    Mayor Curtis to the Y Mountain bill, please.

         STATEMENT OF JOHN CURTIS, MAYOR, CITY OF PROVO

    Mayor Curtis. Thank you, Mr. Chairman. Greetings from the 
Great State of Utah and our two percent humidity. And it is a 
pleasure to be with you today and I appreciate your time on 
this important issue. I must tell you in all my wildest 
imaginations I never thought I would be in Washington, D.C. 
defending the BYU-Utah rivalry, and with the suggestion that we 
turn that Y into a U. I am not sure I could return home unless 
I adamantly opposed that suggestion.
    But that being said, I appreciate the opportunity to be 
here today. Let me also thank the U.S. Forest Service. If you 
will notice at the television screen up there to my left, you 
will see that we share a border with U.S. Forest Service 
through a high percentage of our city. And it has been a 
terrific relationship. We often find ourselves working with 
them in forest fires and rescues and land issues. And I believe 
it has been a terrific relationship.
    Well, Provo City has long been associated with a high 
quality of life. I like to brag that the Gallup Organization 
consistently recognizes the Provo Metro Area in the top two or 
three cities in the country for well-being. And at the heart of 
this is, in many cases, the priorities set by this community. 
And those priorities, in many ways, disseminate from Brigham 
Young University. Yesterday there was a fun announcement that I 
would like to share with you by Forbes Magazine, who ranked 
Provo City, the Provo Metro Area, the number one area in the 
entire United States for business and careers. And if I could 
just quote off their website, they say, ``Topping our 14th 
annual list of the best places for business and careers is 
Provo, Utah. The $16 billion economy is thriving largely on the 
back of Brigham Young University.'' And I found that very 
interesting, particularly given that--the relevant discussion 
today.
    BYU is a large part of our community. The Y on the mountain 
is very symbolic to the residents of the county. They find 
themselves feeling at home when they see that Y. It is symbolic 
of many things that we stand for. It has also become a large 
recreational use for our residents.
    Mr. Pena referred to the rivalry that started in 1906. The 
Y has been on that mountain since 1906. And many residents are 
surprised to find out that Brigham Young University doesn't own 
the entire property. And, in fact, they did at one point. And 
if you, here again, look up on the screen, you will see the BYU 
campus in the forefront. The green part of the mountain is 
currently owned by BYU, and managed by BYU. The two blue 
squares above are the 80 acres in question, and once were owned 
by BYU, and through a series of events became--the ownership 
fell under the U.S. Forest Service. So, we are actually talking 
about something that would return to Brigham Young University 
something that they once owned.
    In addition, Brigham Young University has maintained a 
trail head and a trail that travels up through their property 
and across the U.S. Forest Service. And they have maintained 
that trail, and it is an incredibly popular destination for 
many people. And you can see, if you are an aggressive hiker, 
you can hike right up the mountain over the top of that to some 
other beautiful hikes throughout the area.
    And perhaps the largest reason for doing this is to 
actually ensure the long-term viability of that trial, and the 
access to that wilderness area for our residents. I believe 
that this is important, and I support this for several reasons. 
I mentioned the recreational access, the long-term sustained 
record of good stewardship by Brigham Young University, not 
only on this, but in many assets throughout the city.
    And I think it is a terrific opportunity to--and it is 
actually quite symbolic, I think, to the residents of Utah 
County who find themselves quite conservative, that we are 
actually asking Congress to do something that relieves a burden 
from the U.S. Government and puts it on the private sector. 
And, in addition, puts funds to the--to reducing the deficit. 
And I think that is something that would also greatly please 
the residents.
    So, thank you for your time, and I look forward to 
exploring this with the U.S. Forest Service and their team, as 
well.
    [The prepared statement of Mr. Curtis follows:]

       Statement of The Honorable John Curtis, Provo City Mayor, 
            on Y Mountain Access Enhancement Act (H.R. 4484)

    Provo City has long been directly associated with its high quality 
of life and is consistently recognized as one of the most favorable 
places in the country to raise a family. This is largely due to the 
priorities we set as a community. At the very heart of those priorities 
is Brigham Young University--a world-renowned institution whose 
reputation is that of a responsible, creditable steward of resources.
    Recently, it has come to my attention that an option is available 
to transfer ownership of what Provo residents have referred to for 
years as ``Y Mountain'' from the Forest Service into the hands of 
Brigham Young University.
    The background to this story is both appropriate and necessary as 
you go through your decision-making process.
    Our Y is a signal on our eastern mountain to many people. In an 
interesting way it represents home. It identifies us and tells people 
that they have arrived to the site of something very unique and 
special.
    In 1906 Brigham Young University was a mere three year old 
institution still searching for its identity. On a spring day, a feud 
between the classes of 1906 and 1907 would surprisingly lead to the 
creation of an enduring symbol of unity and identity.
    The members of the class of 1907 decided that they wanted to do 
something to stake their claim. They marched up the mountain due east 
of campus and carved the numbers 07 in the side of the mountain as a 
symbol of their class superiority. This irritated the senior class 
members who decided to take down the 7 and replace it with the 6 of 
their class. Physical altercations pursued which had to be broken up by 
then-President Brimhall.
    President Brimhall proclaimed that, instead of fighting, they would 
work together to construct one symbol both classes of students could 
rally around. He declared that they would replace the numbers on the 
mountain with the letters BYU which would stand for all students.
    On an April morning in 1906, students from both classes set out to 
construct the first letter--a 380 foot tall monumental Y. They formed a 
line and transported bags of a lime and sand mixture from the bottom of 
the hill to the top where students would dump the contents into the 
outline previously defined by drafting students. This process took 
significantly longer than anticipated. It took so long that many 
students questioned the benefit of completing their objective. While 
leaving the project one third complete--Y Mountain was born.
    This once BYU-owned 80 acre parcel, including most of the trail, is 
now under ownership of the United States Forest Service although 
Brigham Young University has managed the Forest Service's portion of 
the trail for the past 50 years.
    The University has purchased the western most property and turned 
it into a well-maintained trailhead that marries perfectly with the 
upgrades, including signs and seating, it completed on the trail 
itself. From the perspective of the everyday observer, BYU owns and 
operates each interest of the mountain.
    Allowing Brigham Young to purchase this property would help 
preserve the trail for the short and long terms. It would provide a 
private owner with an impeccable record of sound stewardship of 
environmental resources to manage and maintain the trail. A BYU-owned 
trail offers a consistent and predictable ownership whose mission won't 
change and whose vision for Y Mountain and access to the trail will not 
be disrupted.
    I, along with the residents of Provo City, support the Y Mountain 
Access Management Act and appreciate the language in the legislation 
which mandates BYU pay a fair market value for the property, covers 
administrative and appraisal costs, and uses the dollars to decrease 
our federal budget deficit.
    I look forward to working with Brigham Young University, the Forest 
Service, and their team members in continuing to make Provo City the 
best kept secret in the west.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate your testimony. Mayor 
Curtis, thank you for being here, for taking the time. 
Obviously, I think we all look forward to seeing BYU control 
the entire route up to Y Mountain. And I suppose, you know, 
when they find a conference, maybe there will be a rivalry 
again some time. But that is beside the point.
    And I also appreciate the Forest Service support of this 
particular project. I hope that we can move this one quickly. 
This is just a logical thing to do. And obviously, as someone 
who has been in that area a lot, I appreciate the approach in 
which we are going with that particular issue. Hopefully we can 
get that one done in this Congress. So thank you for being 
here, thank you on that.
    Mr. Pena, I do have one question that deals with 4109, in a 
way. You stated in your written testimony the Forest Service 
has the capability under existing approval to respond in a 
timely manner to wildlife in wilderness areas with motorized 
equipment and mechanical transport. The problem we have is--or 
the question I had is that in the Los Angeles Times back in the 
beginning of June--I think June 3rd was the date--there was an 
article about the fire in New Mexico, the Whitewater-Baldy Fire 
there, in which an individual simply said that 70 percent of 
the fire is in wilderness area, and it is very tough to hike 
crews in. So we will see a point when containment slows down.
    If you already have the authority to respond in a timely 
manner, why was this gentleman indicating that wilderness 
designation slows the suppression efforts?
    Mr. Pena. I don't know why he would say that. It is not my 
experience. I have worked for the agency for over 34 years. 
Most of that time I have had either direct fire line experience 
or line officer experience overseeing large fire complexes. I 
have been--probably half of that fire experience has been in 
wilderness areas.
    When we look at what is needed to complete the suppression 
activity, to do it safely and do it effectively, we approve the 
minimum tool that is necessary. Generally, I have seen approval 
of helicopter use, water drops, chain saws, pumps, at a routine 
level, at the forest supervisor level. So there is very minimal 
time taken to do that. When you put a dozer on the ground in 
the wilderness, it requires that the regional forester approve 
that. In my experience as a deputy regional forester in 
California during the fire seasons of 2008, 2009, and 2010, I 
responded to many requests for dozer activity, and we approved 
those in an operational time that allowed them to be 
successfully executed with the fire overhead team.
    Mr. Bishop. You don't know if perhaps in New Mexico there 
was a delay in that approval or not?
    Mr. Pena. I have not heard of any delay.
    Mr. Bishop. OK. I do have--I appreciate that. I appreciate 
your explanation of that. I think I read the book ``The Big 
Burn'' that talked about the huge fire up in Montana a long 
time ago that precipitated part of the expansion of the Forest 
Service. And it was--indeed, one of the problems that they 
faced in that fire was their inability of having road access in 
that area to get in there to actually fight the fire, or to 
have an escape route once they found their efforts were--and 
the more roads we have along BLM land as well as Forest lands 
will create access to fight those fires, as well as natural 
fire breaks in the process of being there.
    So, the more we have that, it would seem it would only be 
logical it would improve our efforts to try and combat what has 
become a devastating fire season in the West this time around. 
So I thank you.
    I appreciate you being here for both bills. Mayor, thank 
you once again for being here, and for taking the time to 
testify on this bill. We will see if we can move forward.
    Mr. Knox, if you would, stay there. And now we can invite 
Timothy Slavin--Slavin, I don't know which way it is 
pronounced--who is the Delaware division historical--the 
Director of the Delaware Division of Historical and Cultural 
Affairs, and also Elizabeth Campbell, who is the Executive 
Director of the Nashua River Watershed Association to testify 
on two bills.
    Mr. Bishop. Mr. Knox, if we can go back to you, if you 
would deal with both H.R. 624 and I think H.R. 5319, I think 
those are the last two we have yet to talk about in this 
Committee. H.R. 624 is, I think, the Delaware park bill. And 
H.R. 5319 is the Wild and Scenic River in Massachusetts, right?
    Mr. Knox. Correct.
    Mr. Bishop. If--oh, I am sorry. And there is also H.R. 
5958, by Mr. Turner, to rename that park. If you would handle 
all three of those in your summation, I--in your next 
presentation, I would be appreciative. The Turner bill, the 
Tsongas bill, and the Delaware bill.
    Mr. Knox. Yes, Mr. Chairman. Thanks for the opportunity to 
present the Department of the Interior testimony on those three 
bills. I would like to submit our full statement for the 
record, and summarize our position quickly on each of these 
bills.
    The Department does not support H.R. 5958. This bill would 
rename the Jamaica Bay Wildlife Refuge Visitor Contact Station 
at Gateway National Recreation Area in honor of former Senator 
James L. Buckley. The National Park Service believes there 
should be a strong association between the park and the person 
being commemorated, and we don't support commemoration until 
five years after that person's passing.
    This basic principle is reflected in our National Park 
Service management policies. And we do not believe there is 
sufficient association between former Senator Buckley and the 
Jamaica Bay Wildlife Refuge to merit renaming the visitor 
center for him. And Senator Buckley is also currently living.
    The Department supports the enactment of H.R. 5319. This 
bill would authorize a wild and scenic river study of a segment 
of the Nashua River in Massachusetts, along with its 
tributaries. The river segment and tributary areas proposed for 
study exhibit the types of qualities and resource values that 
would make it a worthy and important candidate for a potential 
addition to the National Wild and Scenic Rivers System.
    The Department strongly supports the establishment of a 
unit of the National Park System in Delaware, as proposed by 
H.R. 624. In 2008, the National Park Service completed a 
special resource study of the coastal area of Delaware, and 
identified a number of resources of national significance that 
were determined suitable and feasible to administer as a unit 
of the National Park System. These resources, which are 
associated with the early Dutch, Swedish, and English 
settlement, and others associated with Delaware's role as the 
Nation's first State, would be eligible for inclusion in the 
park unit that would be established by the Secretary upon 
acquiring a sufficient amount of these resources to constitute 
a manageable park unit.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you might have.

Statement of Victor Knox, Associate Director, Park Planning, Facilities 
 and Lands, National Park Service, U.S. Department of the Interior, on 
H.R. 624, a Bill to Establish the First State National Historical Park 
           in the State of Delaware, and for Other Purposes.

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 624, a bill to establish the 
First State National Historical Park in the State of Delaware.
    The Department strongly supports the establishment of a unit of the 
national park system in Delaware as proposed by H.R. 624. The 
Department testified in support of a similar bill, S. 323, on May 11, 
2011.
    In 2008, pursuant to Public Law 109-338, the National Park Service 
completed a Special Resource Study of the coastal area of Delaware and 
identified a number of resources of national significance that were 
determined suitable and feasible to administer as a unit of the 
national park system. These included historic resources that were 
instrumental in early Swedish, Dutch, and English settlement in the 
United States, and others associated with Delaware's role as the 
nation's first state. Although the bill provides the Secretary of the 
Interior the discretion to determine which sites in the State would be 
included within the boundary of the historical park, we anticipate that 
only resources that met the Special Resource Study criteria for 
establishment as a national park unit would be considered for 
inclusion.
    In 1638, Peter Minuet led Swedish colonists to present day 
Wilmington, Delaware, and established New Sweden at a point known as 
``the rocks'' on the Christina River. The settlers constructed Fort 
Christina at this location and this site is now a National Historic 
Landmark. In 1698, Swedish settlers established Holy Trinity (``Old 
Swedes'') Church near the fort, the oldest church building standing as 
originally built in the United States and also a National Historic 
Landmark.
    In 1651, Peter Stuyvesant led Dutch settlers from New Amsterdam and 
constructed Fort Casimir at a place he named ``New Amstel,'' in present 
day New Castle, Delaware. Conflicts between the Swedish and Dutch 
colonists resulted in changing occupations of the fort with the Dutch 
regaining control in 1655. In 1665, the English arrived at New Amstel 
and seized control of the settlement, renaming it ``New Castle.'' 
William Penn landed in New Castle in 1682 and took possession of the 
city. In 1704, Penn established Delaware's Assembly and New Castle 
remained the colonial capital of Delaware until 1776. The New Castle 
Historic District, which contains multiple resources from the time of 
earliest settlement through the Federal era, including the Old New 
Castle Courthouse, is a National Historic Landmark.
    Delaware's representatives to the Continental Congress and the 
Constitutional Convention played important parts in the adoption of the 
Declaration of Independence and crafting of the United States 
Constitution. On June 15, 1776, the Delaware Assembly, meeting in New 
Castle, voted to sever its ties with the English Crown, three weeks 
prior to the signing of the Declaration in Philadelphia on July 4th. 
National Historic Landmarks associated with these early revolutionary 
leaders include the homes of John Dickinson (the ``Penman of the 
Revolution''), Gunning Bedford, Jr., and George Read. The Dover Green 
witnessed Delaware's vote to become the first state to ratify the 
nation's new Constitution.
    H.R. 624 would authorize the Secretary of the Interior to establish 
the First State National Historical Park consisting of any resources 
listed in Section 3(b) of the bill that the Secretary acquires. The 
staff of the new park would be authorized to interpret related 
resources outside of the boundary, within the state of Delaware. The 
Special Resource Study estimated annual operating costs for the park at 
$450,000 to $550,000 and costs associated with a general management 
plan at $600,000. All funding would be subject to NPS priorities and 
the availability of appropriations. A study of additional resources 
related to the purpose of the park is also authorized to assess their 
potential eligibility for National Historic Landmark designation and 
options for maintaining the historic integrity of such resources.
    H.R. 624 also proposes to allow including within the park boundary 
the Ryves Holt House--a part of the historic district in Lewes, 
Delaware. This district and the Ryves Holt House are listed on the 
National Register of Historic Places at the local level of significance 
and the National Register nomination for the district indicates that 
today its significance is based primarily on its fine examples of 
Victorian architecture. Although the bill provides the Secretary with 
the discretion to decide which properties may be included within the 
boundary of the park, the Department questions allowing the Ryves Holt 
House to be eligible for addition to the park boundary, since it is not 
a National Historic Landmark, does not meet the required national 
significance criterion for unit designation, and is inconsistent with 
the park's purpose as outlined in Section 3(a) of H.R. 624.
    However, we note that Section 4(c) of H.R. 624 permits 
interpretation of resources related to the purposes of the park but 
located outside of its boundary. Any extant resources in Lewes, either 
within or outside of the historic district, which relate to early 
Dutch, Swedish, and English settlement or to Delaware's role as the 
first state, would thus be eligible for interpretation without 
including this district in the park boundary. Such resources would also 
be candidates for further analysis as to their National Historic 
Landmark potential under the bill's study provisions in Section 5.
    Mr. Chairman, that concludes my testimony. I would be happy to 
respond to any questions that you or other members of the committee may 
have.
                                 ______
                                 

Statement of Victor Knox, Associate Director, Park Planning, Facilities 
 and Lands, National Park Service, U.S. Department of the Interior, on 
   H.R. 5319, To Amend the Wild and Scenic Rivers Act to Designate a 
  Segment of the Nashua River and Tributaries in the Commonwealth of 
Massachusetts for Study for Potential Addition to the National Wild and 
             Scenic Rivers System, and for Other Purposes.

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on H.R. 
5319, a bill to amend the Wild and Scenic Rivers Act to designate a 
segment of the Nashua River and its tributaries in the Commonwealth of 
Massachusetts for study for potential addition to the National Wild and 
Scenic Rivers System, and for other purposes.
    The Department supports enactment of H.R. 5319. The river segments 
and tributary areas proposed for study exhibit the types of qualities 
and resource values that would make it a worthy and important candidate 
for potential addition to the National Wild and Scenic Rivers System. 
However, we feel that priority should be given to the 36 previously 
authorized studies for potential units of the National Park System, 
potential new National Heritage Areas, and potential additions to the 
National Trails System and National Wild and Scenic Rivers System that 
have not yet been transmitted to Congress.
    H.R. 5319 directs the Secretary of the Interior to study a 19-mile 
segment of the mainstem of the Nashua River, except a 4.8-mile segment 
that is currently the subject of a Federal Energy Regulatory Commission 
licensing proceeding for an existing hydroelectric facility (Pepperell 
Hydro Company, P-12721). It is the Department's understanding that this 
excepted segment would appropriately allow the FERC to complete the 
ongoing licensing proceeding without the delay that a Wild and Scenic 
River Study would otherwise impose. As specified in the bill, the study 
would include unnamed tributaries of the Nashua River along the segment 
designated for study, in addition to the two named tributaries, the 
Squannacook and Nissitissit Rivers. The bill requires the study to be 
completed and transmitted to Congress within three years after funding 
is made available for it.
    The Nashua River, once severely polluted, played an important role 
in the nation's river conservation history by inspiring support for 
both the state and federal Clean Water Acts. The transformation of the 
Nashua from a neglected and polluted waterway to one which now boasts 
the Oxbow National Wildlife Refuge, regionally significant paddling and 
fishing opportunities, a remarkable protected greenway system, and 
other important natural and cultural values, is a remarkable success 
story. The Squannacook and Nissitissit Rivers are two of eastern 
Massachusetts' most significant remaining cold-water trout fisheries.
    If enacted, the National Park Service intends to undertake the 
study in close cooperation with the affected communities, the relevant 
agencies of the Commonwealth of Massachusetts, the US Fish and Wildlife 
Service, and interest groups such as the Nashua River Watershed 
Association through a partnership-based study approach. The 
partnership-based approach is recognized in Section 10(e) of the Wild 
and Scenic Rivers Act as a means of encouraging state and local 
governmental participation in the administration of a component of the 
National Wild and Scenic Rivers System. The partnership-based approach 
also allows for development of a proposed river management plan as part 
of the study, which helps landowners and local jurisdictions understand 
their potential future roles in river management should Congress decide 
to designate part or all of the rivers being studied.
    Although the Wild and Scenic Rivers Act requires the development of 
a comprehensive river management plan within three years of the date of 
designation, it has become the practice of the National Park Service to 
prepare this plan as part of a study of potential wild and scenic 
rivers when much of the river runs through private lands. This allows 
the National Park Service to consult widely with local landowners, 
federal and state land management agencies, local governments, river 
authorities, and other groups that have interests related to the river 
prior to determining if the river is suitable for designation. Early 
preparation of the plan also assures input from these entities as well 
as users of the river on the management strategies that would be needed 
to protect the river's resources.
    This concludes my prepared remarks, Mr. Chairman. I would be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                 ______
                                 

Statement of Victor Knox, Associate Director, Park Planning, Facilities 
 and Lands, National Park Service, U.S. Department of the Interior, on 
   H.R. 5958, A Bill to Name the Jamaica Bay Wildlife Refuge Visitor 
  Contact Station of the Jamaica Bay Wildlife Refuge Unit of Gateway 
         National Recreation Area in Honor of James L. Buckley.

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on H.R. 5958, a bill To name the Jamaica Bay Wildlife 
Refuge Visitor Contact Station of the Jamaica Bay Wildlife Refuge unit 
of Gateway National Recreation Area in honor of James L. Buckley.
    The National Park Service believes there should be a strong 
association between the park and the person being commemorated, and 
that at least five years should have elapsed since the death of the 
person. This basic principle has been in place at least since 1988, as 
reflected in our National Park Service Management Policies. Therefore, 
the Department cannot support H.R. 5958.
    In 1938 New York City Parks Commissioner Robert Moses proposed 
protecting Jamaica Bay's waters and wildlife, and developing water-
based recreation. In 1948, the Bay was transferred to the management of 
NYC Department of Parks. With the creation of Gateway National 
Recreation Area in 1972, the Jamaica Bay Wildlife Refuge became the 
only wildlife refuge in the National Park System. The Jamaica Bay 
Wildlife Refuge Contact Station is eligible for LEED certification, the 
first in the National Park Service's Northeast Region. The Visitor 
Contact Station was completed in 2007 and incorporated portions of an 
older contact station into the new building.
    James Lane Buckley, a former United States Senator from New York 
was born in New York City, March 9, 1923. He went to school in 
Millbrook, New York, and graduated from Yale University in 1943; he 
received his law degree from Yale in 1949. He enlisted in the United 
States Navy in 1942 and was discharged with the rank of lieutenant in 
1946. He was elected to the United States Senate in 1970 and served 
from January 3, 1971, to January 3, 1977. Buckley introduced landmark 
legislation enacted by Congress to protect student records, the Family 
Education Rights and Privacy Act and the Protection of Pupil Rights 
Act, which requires parental consent prior to administration of student 
surveys on any of eight sensitive topics.
    Senator Buckley served as the under secretary for Security, 
Science, and Technology, United States Department of State from 1981-
1982. Other high points of his career include president, Radio Free 
Europe/Radio Liberty, Inc. 1982-1985; and federal judge, United States 
Court of Appeals, District of Columbia Circuit 1985-1996. These varied 
roles render him perhaps the only living American to have held high 
office in all three branches of the federal government. Senator Buckley 
is currently a resident of Sharon, Connecticut.
    National Park Service Management Policies 2006 state that the 
National Park Service will discourage and curtail commemorative works, 
especially commemorative naming, except when Congress specifically 
authorizes them or there is a compelling justification for the 
recognition, and the commemorative work is the best way to express the 
association between the park and the person, group, event, or other 
subject being commemorated. While Senator Buckley was a co-sponsor of 
the bill to create the Gateway National Recreation Area, and spoke in 
support of the resources of the refuge, we do not believe there is 
sufficient association between him and the Jamaica Bay Wildlife Refuge 
Visitor Center to merit renaming the Visitor Center at this time.
    Mr. Chairman this concludes my statement and I will be happy to 
answer any questions that members of the committee may have.
                                 ______
                                 
    Mr. Bishop. Thank you very much. Ms. Campbell, if you would 
like to speak about the Wild and Scenic River, and then we will 
ask Mr.--is it Slavin or Slavin?
    Mr. Slavin. Slavin.
    Mr. Bishop. Slavin, Mr. Slavin. If you would, talk about 
the Delaware park proposal.
    Ms. Campbell, please.

  STATEMENT OF ELIZABETH CAMPBELL, EXECUTIVE DIRECTOR, NASHUA 
                  RIVER WATERSHED ASSOCIATION

    Ms. Campbell. Thank you. Mr. Chairman and members of the 
Committee, I thank you for the opportunity to offer testimony 
in favor of H.R. 5319, which would amend the Wild and Scenic 
Rivers Act to designate segments of the Nashua, Squannacook, 
and Nissitissit Rivers in Massachusetts for study for potential 
addition to the National Wild and Scenic Rivers System. The 
legislation would initiate a three-year study to establish 
whether these rivers meet the criteria for being designated as 
partnership wild and scenic rivers.
    I am Elizabeth Ainsley Campbell, I am Executive Director of 
the Nashua River Watershed Association. We were founded in 
1969. We are an environmental non-profit that covers 530 square 
miles and serves 32 communities.
    In the 1960s the Nashua River was one of the Nation's 10 
most polluted rivers, with raw sewage and industrial discharge 
going directly into the waterway. We have a slide to put up. 
And I think you have already heard from Congresswoman Tsongas 
that it was Marion Stoddart who led local citizens to come 
together to advocate for a revitalized river corridor, and to 
also encourage the passage of the State and Federal Clean Water 
Acts. Recognizing that a long-term effort to fully restore the 
Nashua River was needed, and also to establish protected 
greenways along its banks, they formed the Nashua River 
Watershed Association.
    Today, a sparkling blue river runs through the watershed. 
The inspiring story of restoration and citizen engagement has 
been told in a documentary film titled, ``Marion Stoddart, Work 
of 1000,'' in a National Geographic Magazine special edition on 
water, where these photographs you see on the TV screen first 
appeared, and in the children's book, ``A River Ran Wild.''
    These vastly improved waters give rise to very special fish 
and wildlife habitat that has been recognized both on the State 
and Federal levels. On the State level, the Nissitissit and 
Squannacook Rivers are designated outstanding resource waters, 
and are cold-water fish resources that support native trout. 
Additionally, the Massachusetts Natural Heritage and endangered 
species program has delineated the rivers as part of living 
waters and Biomap 2 core habitat areas.
    Further, the Nashua River runs through three connecting 
state-designated areas of critical and environmental concern, 
ACECs. The Nashua River, with an extensive permanently 
protected greenway buffer is a natural wildlife corridor, and 
it is critical to preserving thriving rare species populations 
in Central Massachusetts. There are over two dozen State-listed 
rare species in these ACECs.
    The Federal level has also recognized the significance of 
the Nashua River. The 1,600-acre Oxbow National Wildlife 
Refuge, nearly 8 miles of the Nashua River corridor. The 
wetlands of the Nashua River and the tributaries have been 
identified as priority wetlands by both the North American 
Water Foul Management Plan and the Emergency Wetlands Resources 
Act. That is due to their importance in supporting water foul 
of the Atlantic flyway.
    So, overall, the stunning recovery of the Nashua River has 
sparked tremendous recreational use of the Nashua River and its 
tributaries and conservation lands that abut the rivers. 
Recreation often involves, as you can imagine, birding and 
hiking along the rivers. There is a very popular 11-mile Nashua 
River trail that runs through 4 towns in the study area. And a 
four-mile trail is planned for along the Squannacook River.
    We have a slide showing that there are many canoe and boat 
access sites along the rivers. These rivers provide some of the 
best fly fishing within reach of Metro Boston anglers. There 
are several popular bass fishing tournaments, as well. Families 
are out on the river, as well as the fishermen. They are 
enabled in part by organizations such as the National Paddlers, 
which is a successful local family owned business.
    The river has also enabled important education programs. 
And every year thousands of students interact with the Nashua 
and Squannacook Rivers through our on-water classroom program. 
You see that up there in the bottom slide, students just 
thrilled to see a river otter or an American Bald Eagle.
    As a final point I want to mention that in addition to the 
other things, Freedom's Way National Heritage Area, which is 
affiliated with the National Park Service, includes each of 
these communities.
    We are looking forward to partnering with the National Park 
Service, the U.S. Fish and Wildlife Service, relevant 
Massachusetts agencies, affected communities, a myriad of 
stakeholders, and a coordinated effort to undertake a study and 
development of a comprehensive river management plan. All these 
factors--outstanding fisheries, wildlife, spectacular 
recreational value, rich history--make these rivers a strong 
candidate. I have submitted some detailed testimony.
    I want to thank Congresswoman Tsongas for her leadership, 
and the opportunity today. Thank you.
    [The prepared statement of Ms. Campbell follows:]

  Statement of Elizabeth Ainsley Campbell, Executive Director, Nashua 
 River Watershed Association (NRWA), on H.R. 5319: ``Nashua River Wild 
                      and Scenic River Study Act''

    Mr. Chairman and Members of the Committee, on behalf of the Nashua 
River Watershed Association, I thank you for the opportunity to offer 
testimony on H.R. 5319, which would amend the Wild and Scenic Rivers 
Act to designate segments of the Nashua, Squannacook, and Nissitissit 
Rivers in the Commonwealth of Massachusetts for study for potential 
addition to the National Wild and Scenic Rivers System. This 
legislation would initiate a three year study to establish whether 
these river reaches meet the criteria for being designated as 
Partnership Wild & Scenic Rivers. We appreciate this opportunity to 
speak in favor of H.R. 5319 and to affirm the outstanding resource 
values of these special rivers. This legislation, which has strong 
local and state support, will help advance the protection of the entire 
river system as the Squannacook and Nissitissit are two of the main 
stem Nashua River's most important and cleanest tributaries.
    The Nashua River Watershed Association is an environmental non-
profit that serves as an educator, advocate, and steward for the 32 
watershed communities covering over 530 square miles in north central 
Massachusetts and southern New Hampshire. Our professional staff works 
from our River Resource Center headquarters in Groton, Massachusetts. 
Founded in 1969, our mission is to work for a healthy ecosystem with 
clean water and open spaces for human and wildlife communities, where 
people work together to sustain mutual economic and environmental well-
being in the Nashua River watershed. Our main goals include restoring 
and protecting water quality and quantity for people, fish, and 
wildlife. For over forty years we have worked with our many partners 
from the grassroots level to local, state and federal agencies on river 
conservation projects. In providing testimony today I'm going to touch 
on 1) the remarkable history of the restoration of the Nashua River; 2) 
the current status of water quality; 3) the special fish and wildlife 
habitat of the river reaches and river corridor; 4) the recreational 
and educational opportunities; 5) the rich tapestry of culturally 
significant sites along the rivers; and 6) partnerships as an essential 
approach to a comprehensive River Management Plan.
1) History--a Legacy of Cultural and Historical Importance
    In the 1960s the Nashua River was one of the nation's ten most 
polluted rivers, with raw sewage and industrial discharge going 
directly into the waterway, and was classified as ``U''--unfit to carry 
more raw sewage. The Nashua River's recovery seemed an impossible task 
as the river was all but dead and one could smell the stench of the 
river from more than a mile away. The heavy concentration of paper 
mills and the use of dyes resulted in pollution that notoriously turned 
the river various colors downstream from the factories. Despite the 
deplorable state of the river, local citizens came together to see what 
could be done. They dared to envision the unthinkable: sparkling blue 
water with a ribbon of green along its banks. They formed the Nashua 
River Cleanup Committee in 1965 and advocated for a revitalized river 
corridor safe for people and wildlife alike. Led by Marion Stoddart, 
they galvanized the attention of towns, government agencies, 
businesses, and other residents. Together they worked to encourage the 
passage of the state and federal Clean Water Acts. As you know, these 
Acts made it illegal to pollute rivers and provided funding to build 
waste water treatment facilities to improve water quality. Recognizing 
that to clean up the rivers and protect the land along their banks 
would be a long-term effort, the Nashua River Clean-up Committee formed 
the Nashua River Watershed Association in 1969. Today, a sparkling blue 
Nashua River runs from central Massachusetts to southern New Hampshire, 
hosting some of the Commonwealth's best fishing tournaments. Flora and 
fauna thrive in it, canoeists revel in it, and swimmers splash in it.
    This inspiring story of restoration has been retold in ``A River 
Ran Wild: An Environmental History'' by Lynne Cherry, a children's non-
fiction book published in 1992 that is still frequently used in school 
curriculums throughout the country. In 1993 National Geographic 
Magazine spotlighted the Nashua's recovery in an article ``The Promise 
of Restoration: New Ideas, New Understanding, New Hope '' in its 
Special Edition: ``The Power, Promise, and Turmoil of North America's 
Fresh Water'' in which were published the dramatic `before' and `after' 
images of the Nashua River. The story of the Nashua River continues to 
be inspirational and informative. In 2010 National Geographic published 
a collection of essays, ``Written in Water: Messages of Hope for 
Earth's Most Precious Resource,'' which included an essay by Marion 
Stoddart on ``Cleaning Up the Nashua.''
    Most recently, the story of Marion Stoddart and the Nashua River 
was made into an independent, critically acclaimed, documentary film by 
ExtraMile Design--``Marion Stoddart: The Work of 1000.'' The film 
speaks to a model for effective leadership and coalition building to 
achieve one's vision and achieve positive change.
    It is especially gratifying and exciting that sections of the 
Nashua River, with its dramatic history of restoration, whose story is 
heard so widely & whose watershed approach has become a model, has 
become such a strong candidate for inclusion in Wild and Scenic Rivers 
System along with its tributaries the Squannacook and Nissitissit 
Rivers.
2) Current Water Quality--the Basis for Healthy Aquatic Life
    The Nashua River Watershed Association's water monitoring program, 
currently in its 20th consecutive year, has data showing that the 
Squannacook and Nissitissit rivers have excellent to good water quality 
meeting state bacteria standards for swimming and boating almost all of 
the time. The Nashua River segment proposed for Wild and Scenic 
designation meets boating standards most of the time and swimming 
standards many times.
    Therese Beaudoin, MassDEP Watershed Coordinator, states ``The 
Massachusetts Department of Environmental Protection has studied water 
quality in the Nashua Watershed since the late 1960s. The Squannacook 
River has provided an ideal location for establishing least impacted 
conditions for both water quality and flow, and has served as a 
reference river for decades. A long term monitoring station was 
established here in 1998, with sampling conducted every two months; 
available data show that water quality and aesthetics in the 
Squannacook River have been consistently among the cleanest in Central 
Massachusetts.''
    In contrast, although vastly improved since the 1960s, the Nashua 
River currently is on the 303(d) ``impaired waters'' list and has had 
Total Daily Maximum Loads (TMDLs) developed for bacteria and 
phosphorus. The phosphorus TMDL noted that the primary cause of the 
impairment from phosphorous was attributed to discharges from the 
wastewater treatment plants. Treatment plants along the Nashua River 
are correspondingly improving their infrastructure to improve water 
quality. Bacteria impairment is being addressed upstream of the 
designated reaches in the City of Fitchburg, whose City Council just 
voted to expend over $70 million to separate sewers and upgrade its 
treatment plant. In addition, the Nashua River Watershed Association's 
education and outreach efforts to citizens regarding what they can do 
to keep water clean will also result in long term water quality 
improvements. We believe that if H.R. 5319 were to be enacted, the 
resultant study and possible designation would play an important role 
in continuing to move toward healthier waters in the Nashua.
3) Fish & Wildlife Habitat--Special Characteristics to Protect
    The 1975 Squannacook-Nissitissit Sanctuary Act (MGL 132A:17) 
prohibited new discharges of pollutants to the waterways and recognized 
the high value of these aquatic riverine ecosystems. The Nissitissit 
and Squannacook Rivers are state-designated Outstanding Resource Waters 
and are cold water fish resources. They are well-managed streams that 
support native trout, including brown, brook and rainbow trout 
reproduction. Brook trout spawn in the tributaries and travel to the 
Nashua River for part of each year. These rivers in their entirety 
within Massachusetts were designated ``Living Water Core Areas'' by the 
MA Natural Heritage and Endangered Species Program (NHESP). The NHESP 
has also delineated the entire length of the Nashua, Nissitissit. and 
Squannacook Rivers within Massachusetts as ``BioMap2 Core Habitat''. 
The Living Waters area (with a focus on freshwater aquatic) and the 
BioMap2 area (with a focus on terrestrial) are roughly equivalent 
designations intended to guide strategic biodiversity conservation in 
the state over the next decade by focusing land protection and 
stewardship on the areas that are most critical for ensuring the long-
term persistence of rare and other native species and their habitats, 
exemplary natural communities, and a diversity of ecosystems. The areas 
are also designed to include the habitats and species of conservation 
concern identified in the State's Wildlife Action Plan.
    As we understand it, a goal the US Fish and Wildlife Service is 
pursuing for the Nashua River is to reintroduce Alewife and American 
shad to the Nashua River in the next ten years. The US Fish and 
Wildlife Service has stocked Alewife and American shad in an impounded 
pond on the Nashua River in New Hampshire. American eel exist in the 
Nashua and Squannacook Rivers, and upstream eel passage has been 
installed at Ice House Dam on the Nashua River.
    The Pepperell Dam creates an impoundment on the Nashua River from 
the dam to approximately four miles upstream of the dam. This river 
reach has been excluded from this proposed Wild and Scenic Study Act. 
Pepperell Hydro Company LLC is the owner of the Pepperell Dam and hydro 
facilities, which provides 8 Gwh per year of electrical power. PHC 
purchased the facility in 2004 and has been operating as a 
grandfathered facility since that time, as the dam and hydro facilities 
were constructed prior to the Federal Energy Regulatory Commission's 
existence. As we understand it, PHC is in the process of applying for a 
FERC license; exclusion of this river reach would allow FERC licensing 
to proceed. Up and downstream fish passage will likely be required by 
US Fish and Wildlife Service as a prerequisite to the FERC license.
    The Nashua River runs within three Areas of Critical Environmental 
Concern (ACEC's) in Massachusetts. This is quite remarkable as there 
are only 30 state-designated ACECs in total in the state. The three 
that include the Nashua River are: the Central Nashua River Valley 
ACEC, the Squannassit ACEC; and the Petapawag ACEC. ACEC designation is 
a special recognition because of the quality, uniqueness, and 
significance of its natural and cultural resources; it is also a real 
achievement stemming from years of research, outreach and community 
meetings with an emphasis on extensive public input and discussion and 
largely driven by volunteers.
    The Nashua River forms the `heart and backbone' of these connecting 
ACEC's and is adjacent to an extensive network of publicly and 
privately owned open space. The MA Natural Heritage and Endangered 
Species Program describes the Nashua River as a natural wildlife 
corridor and focal point for wildlife concentrations in central 
Massachusetts. An excerpt from the Executive Summary pertaining to the 
Central Nashua River Valley ACEC designation says, ``The river valley 
provides significant linkages between important wildlife areas. The 
relatively undeveloped nature of this area is critical to preserving 
thriving rare species populations.''
    There are at least 19 state-listed rare species in the Central 
Nashua River Valley ACEC, 16 in the Petapawag and 23 in the Squannassit 
ACEC. A few years ago the Stewardship Committee of the Petapawag and 
Squannassit ACECs encouraged the Nashua River Watershed Association to 
undertaker a multi-year biological control program to reduce non-native 
invasive purple loosestrife. The project benefits several high priority 
species of wetland-dependent wildlife including, but not limited to, 
the American Black Duck, Mallard, Wood Duck, American Woodcock, Eastern 
Kingbird, and Blandings Turtle.
    The Oxbow National Wildlife Refuge, which consists of some 1,600 
acres of southern New England flood-plain forest and wetland 
communities, abuts nearly 8 miles of the Nashua River corridor. The 
wetlands of the Nashua River and tributaries have been identified as 
priority wetlands by both the North American Waterfowl Management Plan 
and the Emergency Wetlands Resources Act of 1986, due to their critical 
importance in supporting waterfowl of the Atlantic Flyway, and are also 
listed in the Environmental Protection Agency's Priority Wetlands of 
New England. A Visitor Contact Station is currently being completed on 
the refuge along the banks of the Nashua River in Devens.
    The Nashua River Watershed Association has worked in partnership 
with others for over four decades to establish a permanently protected 
greenway (naturally vegetated buffer area) along the Nashua River and 
its tributaries. While much more remains to be done to complete the 
vision, a very significant amount of the corridor has been protected. 
The width of the undisturbed river corridor is in some cases a few 
hundred feet, and in other cases a few miles wide. The result is a 
mostly intact wild river of great beauty, supporting a range of 
wildlife, contributing to better water quality, outstanding habitat and 
remarkable recreational opportunities.
4) Recreation & Education--A Robust Result of River Recovery
    ``Recovery'' has sparked recreational use of the Nashua River and 
its tributaries at places like the Oxbow National Wildlife Refuge; 
Bolton Flats; the Squannacook River and the Nissitissit River State 
Wildlife Management Areas; the J. Harry Rich State Forest; the Townsend 
State Forest; and the Groton & Shirley Town Forests, to name but some 
of the conserved lands abutting the rivers and protecting the 
shorelines of the river segments included in H.R. 5319. Recreation 
often involves birding and hiking along the rivers. The very popular 11 
mile Nashua River Rail Trail runs alongside the river through four 
Massachusetts towns in the study area, and a 4 mile soft-surface rail 
trail is shortly anticipated to be created along the Squannacook River.
    For decades these rivers have provided focal points for the local 
Squanatissit Chapter of Trout Unlimited projects such as: constructing 
a universal access facility on the Squannacook River, adopting the 
Nissitissit River under Massachusetts Adopt-A-Stream program, as well 
as assisting the MassWildlife staff when they conduct electro-shocking 
and fish sampling on these rivers. These rivers provide some of the 
best fly-fishing within reach of metro-Boston anglers. There are many 
formal canoe and boat access sites along the rivers, and there are 
several annual popular bass fishing tournaments hosted on the Nashua 
River by such groups as Yankee Bassmasters and Freedom Bass. In 
addition to recreation focused on fishing, others use the river for a 
variety of sports. For example, the Jack London Trail Race group holds 
and annual canoe race on the Nashua River.
    Families are out on the rivers enabled in part by Nashoba Paddlers 
LLC, a successful local family-owned business based in West Groton, 
offering canoe rentals, tours, and a Summer River Camp. Free boating is 
provided at two annual events: the River Festivals in Groton and 
Lancaster, Massachusetts. Such events are typical of the collaborative 
efforts already in place; for example the Groton Greenway Committee 
which sponsors the Groton River Festival is ``charged with protecting 
river and stream frontage in Groton, particularly along the Nashua and 
Squannacook Rivers and educating townspeople of the environmental and 
financial importance of protecting riverfront lands.'' We note the 
inclusion of ``financial'' importance, for when the river's rank odor 
could be smelled at a distance and its fumes pealed off paint, riparian 
real estate was worthless. Times have changed for the better on the 
rivers, and we believe that a ``Wild & Scenic'' designation would 
significantly increase the value of adjacent lands boosting local tax 
roles.
    The rivers also enable important environmental education programs. 
Every year thousands of students from throughout the region interact 
with the Nashua and Squannacook River segments through the NRWA's 
environmental education programs, notably during our on-water River 
Classroom programs, on-shore ecological inventories, and our Summer 
Eco-Adventures programs. Students are thrilled to see a river otter or 
catch a glimpse of an American Bald Eagle soaring over the Nashua 
River.
5) Another View of Culture & History--A Rich Tapestry
    The Freedom's Way National Heritage Area includes each of the 
communities affected by H.R. 5319, and goes beyond them. The Freedom's 
Way National Heritage Area describes itself as including ``communities 
in Massachusetts and New Hampshire that share unique historical, 
natural, and cultural resources. The region is home to a series of 
historic events that influenced democratic forms of governance and 
intellectual traditions that underpin concepts of American freedom, 
democracy, conservation, and social justice. These 45 cities and towns 
share common themes that have contributed toward this special landscape 
of American History.'' Freedom's Way National Heritage Area is a member 
of the Alliance of National Heritage Areas and is one of 49 Heritage 
Areas affiliated with the National Park Service.
    By way of example, three significant cultural & historical sites in 
the study are are: 1) Fruitlands Museum, which abuts the Oxbow National 
Wildlife Refuge, is a Massachusetts and National Historic Landmark on 
the former site of a Transcendentalist utopian community; 2) a Shaker 
Village existed along the Nashua River in Shirley Massachusetts from 
the late 1700s to the early 1900s; and 3) two historic districts abut 
the Squannacook River in Townsend. Landmarks and historical sites 
abound along the rivers throughout the study area.
6) Partnerships--An Essential Approach to a River Management Plan
    Since its founding in 1969, the Nashua River Watershed has always 
worked in partnership with local, state, and federal entities to 
achieve progress. For example, the Nissitissit and Squannacook Rivers 
sub-basins were the service area for a 2004-2009 ``Protecting Today's 
Water for Tomorrow'' partnership project funded by a U.S. Environmental 
Protection Agency Targeted Watershed Initiative grant. The project 
helped protect valuable drinking water resources and surface water 
quality and promoted proactive land stewardship. The NRWA worked 
closely with a broad coalition of stakeholders, including property 
owners, to instill conservation approaches into management plans for 
privately held lands that helped protect water resources. The NRWA was 
the lead partner on this multi-year project, and actively involved over 
three dozen local, state, and federal entities in providing matching 
services toward the goals of the project.
    Although the Nashua, Squannacook and Nissitissit Rivers greatly 
contribute to the overall rural character of the towns through which 
they flow, at the same time, given their relative proximity to the 
metropolitan areas of Nashua, New Hampshire and Boston & Worcester, 
Massachusetts, these spectacular natural resources are also under the 
pressure of development associated with rapid growth and urban/suburban 
sprawl. Our area is characterized by the recent Mass Audubon report 
``Losing Ground II'' as being on the ``sprawl frontier''. The NRWA 
encourages ``smart growth'' techniques to enable communities to meet 
their development goals and simultaneously protect their most important 
natural resources.
    The NRWA took a lead role in bringing the possibility of a Study 
pertaining to potential Wild & Scenic designation to the attention of 
the affected communities. Letters of support from these communities 
have been included with Congresswoman Tsongas's testimony. We would 
welcome with great enthusiasm the opportunity to partner with the 
National Park Service, the U.S. Fish and Wildlife Service, the relevant 
Massachusetts agencies, the affected communities, and a myriad of 
involved stakeholders in a coordinated effort to undertake a Study and 
development of a comprehensive river management plan as part of 
determining if the river is suitable for designation.
    In conclusion, all these factors--outstanding fisheries, rare 
wildlife, recreational value, a rich history--make the Nashua, 
Squannacook and Nissitissit Rivers in Massachusetts a strong candidate 
for inclusion in the Wild and Scenic Rivers System. I appreciate the 
opportunity to submit testimony on behalf of the Nashua River Watershed 
Association to the Subcommittee today. Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony.
    Mr. Slavin?

  STATEMENT OF TIMOTHY SLAVIN, DIRECTOR, DELAWARE DIVISION OF 
                HISTORICAL AND CULTURAL AFFAIRS

    Mr. Slavin. Thank you, Chairman Bishop and members of the 
Subcommittee, for allowing me to submit this brief testimony on 
behalf of H.R. 624, which would establish the First State 
National Historical Park in the State of Delaware. My name is 
Tim Slavin, and I currently serve as the Director of the 
Division of Historical and Cultural Affairs for the State of 
Delaware. In this capacity I oversee the management and 
stewardship of 41 historic properties, comprising 119 
structures and more than 650 acres of cultural landscapes. In 
addition, I also serve as the State historic preservation 
officer, and oversee Cultural Resources' review of all Federal 
projects undertaken in the State.
    I strongly support passage of H.R. 624. This bill is the 
result of untold number of hours of public consultations, 
meetings with State and private agencies, and conversations 
with our local residents. This has been a deliberate, arduous, 
and productive task, and the outcome could not have been more 
beneficial or useful.
    The concept of a multi-site historical-based national park 
is something which is valid for Delaware, and should be 
implemented by the National Park Service with the passage of 
this bill. The theme that has been selected of early settlement 
through birth of a Nation in Delaware is considered by many 
historians to be pivotal in conveying and understanding of 
Delaware's unique role in American history.
    The National Park Service cited in its special resource 
study stating that Delaware provides an important lens on the 
subject of how early colonial leaders struggled with the notion 
of breaking free from England, and that Delaware exemplifies 
the character of an entirely new Nation as a result of that 
quest for freedom and independence.
    The multi-site design for the park, likewise, reflects that 
history. Delaware's waves of settlement included the Swedish, 
Dutch, and English, all in different venues across a beautiful 
and sweeping coastal area. Under the proposed design, the hub 
of the park would be situated in New Castle, which includes one 
of the richest historic districts on the East Coast, as well as 
a community of preservation-minded residents and property 
owners who, in my opinion, are unparalleled in Delaware. The 
spokes of the park would then reach out and allow for the 
important stories that contribute to an understanding of the 
early settlement and birth of a Nation to be told in places 
such as Dover and Lewes, as well.
    Public acceptance of this proposed project and the amount 
of public input and enthusiasm for this bill should not go 
unnoticed. There has been a wellspring of sentiment and support 
from across Delaware, with citizens participating in hearings 
and discussions, and offering many of the ideas that we see 
outlined in the bill. The City of New Castle has not only 
accepted its new role as the site for the park's hub, but has 
embraced that new role. As someone who manages historic 
properties and museums in New Castle, I can tell you that the 
specter of a national park in New Castle has brought with it a 
whole new level of public support for history and historic 
preservation in New Castle. If the park is implemented as 
designed--and I do hope that it is--you will find a very 
conscientious and welcoming community in New Castle.
    Finally, there is a need for this park that deserves to be 
met. Delaware's history is our Nation's history. And we need to 
tell that story in ways that all Americans can access it. The 
fact that we currently do not have a national park in Delaware 
would, in my opinion, not be reason enough to simply create 
one. The fact that we have historical resources which the 
citizens of our Nation need to see and experience in order to 
understand and appreciate our Nation's great history is 
something which we can no longer ignore. The need for this park 
is based on a need to tell our American history thoroughly and 
completely, and to include Delaware in that enterprise.
    I am a big fan of the National Park Service. My agency 
works hand-in-glove with the Park Service on an almost-daily 
basis through our work in carrying out the provisions of the 
National Historic Preservation Act. And through our joint 
efforts, we have raised the quality of life for all 
Delawarians. We consider the National Park Service to be an 
exemplary steward of our Nation's heritage, and we are 
unblinking in saying that we are--they are partners that we are 
proud to do business with.
    But my admiration for the National Park Service is, at its 
roots, personal. My 17-year-old daughter was raised in Boulder, 
Colorado. And on my many monthly visits out to her over the 
course of 13 years we claimed Rocky Mountain National Park as 
our own place. It is a place that we visited regularly, 
returning to some of the same footprints we left on previous 
trips. These visits have not only resulted in the two of us 
visiting other national parks, but more importantly, have shown 
my daughter the value of conscientious stewardship, and the 
role that each person can play in preserving our Nation's 
heritage. We need to show the children of Delaware the 
importance of these values. And the passage of H.R. 624 gives 
us that opportunity.
    In closing, I strongly support this bill and encourage its 
passage and implementation, and stand ready to assist the 
National Park Service in any manner possible. Thank you very 
much.
    [The prepared statement of Mr. Slavin follows:]

Statement of Timothy A. Slain, Director and State Historic Preservation 
Officer, State of Delaware, Division of Historical & Cultural Affairs, 
       on H.R. 624, ``First State National Historical Park Act''

    Chairman Bishop and members of the Subcommittee on National Parks, 
Forests, and Public Lands, thank you for allowing me to submit this 
brief testimony on H.R. 624, which would establish the First State 
National Historical Park in the State of Delaware.
    My name is Timothy A. Slavin, and I currently serve as the Director 
of the Division of Historical and Cultural Affairs for the State of 
Delaware. In this capacity, I oversee the management and stewardship of 
a state-wide campus of forty-one historic properties, comprising 119 
structures and more than 650 acres of cultural landscapes. In addition, 
I also serve as the State Historic Preservation Officer and oversee the 
cultural resources review of all federal projects undertaken in our 
state, as well as other preservation related activities.
    I strongly support the passage of H.R. 624. This bill is the result 
of untold number of hours of public consultations, meetings with state 
and private agencies, and conversations with local residents. This has 
been a deliberate, arduous, and productive task, and the outcome could 
not have been more beneficial or useful.
    The concept of a multi-site historical-based national park is 
something which is valid for Delaware and should be implemented by the 
National Park Service (with passage of this bill). The theme of ``early 
settlement'' through ``birth of a nation'' in Delaware is considered by 
many historians to be pivotal in conveying an understanding of 
Delaware's unique role in American history. The National Park Service 
cited this in its special resource study, stating that Delaware 
``provides an important lens on the subject of how early colonial 
leaders struggled with the notion of breaking free from England'' and 
that ``Delaware exemplifies the character of an entirely new nation as 
the result of that quest for freedom and independence.'' (National Park 
Service, Delaware National Coastal Special Resource Study and 
Environmental Assessment, November 2008.)
    The multi-site design for the park, likewise, reflects that 
history. Delaware's waves of settlement included the Swedish, Dutch and 
English, all in different venues across a beautiful and sweeping 
coastal area. Under the proposed design, the ``hub'' of the park would 
be situated in New Castle, which includes one of the richest historical 
districts on the east coast, as well as a community of preservation-
minded residents and property owners who are unparalleled in Delaware. 
The ``spokes'' of the park would allow for the important stories that 
contribute to an understanding of the early settlement and birth of a 
nation theme to be told in Dover and Lewes, as well.
    The public acceptance of this proposed project and the amount of 
public input and enthusiasm for this bill should not go unnoticed. 
There has been a well-spring of sentiment and support from across 
Delaware, with citizens participating in hearings and discussions, and 
offering many of the ideas that we see outlined in the bill. The City 
of New Castle has not only accepted its new role as the site for the 
park's hub, but has embraced that new role. As someone who manages 
historical properties and museums in New Castle, I can tell you that 
the specter of a national park in New Castle has brought with it a 
whole new level of public support for history and historic preservation 
in New Castle. If the park is implemented as designed--and I hope that 
it is--you will find a conscientious and welcoming community in New 
Castle.
    Finally, there is a need for this park that deserves to be met. 
Delaware's history is our nation's history, and we need to tell that 
story in ways that all Americans can access it. The fact that we 
currently do not have a national park in Delaware would, in my opinion, 
not be reason enough to simply create one. The fact that we have 
historical resources which the citizens of our nation need to see and 
experience in order to understand and appreciate our nation's great 
history is something which we can no longer ignore. The need for this 
park is based on a need to tell our American history thoroughly and 
completely, and to include Delaware in that enterprise.
    I am a big fan of the National Park Service. My agency works hand-
in-glove with the NPS on an almost-daily basis through our work in 
carrying out the provisions of the National Historic Preservation Act, 
and through their joint efforts, we have raised the quality-of-life for 
all Delawareans. We consider the NPS to be an exemplary steward of our 
nation's heritage, and we are unblinking in saying that they are 
partners that we are proud to do business with.
    But my admiration for the National Park Service is, at its roots, 
personal. My 16-year-old daughter was raised in Boulder, Colorado, and 
on my many monthly visits to her over the course of thirteen years, we 
claimed Rocky Mountain National Park in Estes Park as our own place. 
It's a place that we visited regularly, returning to some of the same 
footprints we left on previous trips. These visits have not only 
resulted in the two of us visiting other national parks, but, more 
importantly, have shown her the value of conscientious stewardship and 
the role that each person can play in preserving our nation's heritage.
    We need to show the children of Delaware the importance of these 
values, and the passage of H.R. 624 gives us that opportunity.
    In closing, I strongly support this bill and encourage its passage 
and implementation and stand ready to assist the National Park Service 
in any manner possible.
    Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you, I appreciate that. Do we have 
questions? Ms. Tsongas, do you have questions for either of--
any of these witnesses?
    Ms. Tsongas. A brief one for Executive Director Campbell. 
Thank you so much for coming to Washington to testify on behalf 
of a piece of legislation that I know you have worked so hard 
to make possible, as have the many volunteers who are deeply 
affected by the Nashua River, and who saw an opportunity to 
improve it, and have worked tirelessly to do so. So this is 
just the next step.
    It was quite a photo in which the river--showed how the 
river--the color of the water would change with the dyes that 
were let into it as a result of all the manufacturing that was 
taking place on its banks. So much progress has been made. And 
we hope that this study will protect that progress and 
encourage further progress.
    But I do have one question. And that is that, you know, we 
do often hear that one of the concerns that people sometimes 
have when we go about giving something an environmental 
designation is that opportunities for recreation will be 
limited. And you have spoken--be made more limited. And you 
have spoken about the tremendous recreational activities that 
have been taking place as this river has been cleaned up.
    But do you see a potential designation as a Wild and Scenic 
River impacting those activities in any way? Constraining 
future activities? I would love to get your thoughts.
    Ms. Campbell. I certainly do not see the designation as 
constraining the activities. I am unaware of any way in which 
that might be the possible outcome of the study and potential 
designation.
    But on the other hand--and I am glad you asked this--I see 
a tremendous increase in recreational opportunities. I think as 
people have an opportunity to come together we are going to be 
putting some communities together who don't always work 
together with Ducks Unlimited, the Squannassit Chapter of Trout 
Unlimited, many different sporting and recreation interests 
coming together. We are going to see increased exposure to the 
possibilities of the river, not only the use of the 
opportunities that are there already, but I would think some 
increased opportunities.
    And the whole process, which is quite exhaustive to get to 
the process--the town is voting on their interest in the 
potential designation. Wonderful publicity. And were it to be 
designated, tremendous publicity thereafter. I think people who 
are living right by the river don't know it is there, those few 
people. And many others will come out and have more recreation.
    Ms. Tsongas. Well, I commend the way in which many 
stakeholders have worked together. And I know that the study 
process will involve all stakeholders looking to the future. 
And I do think that as we focus on the environmental impacts 
and recreational impacts, you can never lose sight of the 
economic impacts of the river that runs throughout the many 
communities that abut it, the opportunities it presents to 
engage the river in the life of the community in a way that you 
would turn your back on when the river was as dirty as it once 
was.
    So, thank you for being here today.
    Ms. Campbell. And thank you.
    Mr. Bishop. That is it? OK. OK, I want to thank the 
witnesses for coming here today. You didn't travel quite as far 
as those from California, New Mexico, and Utah did, but you can 
go back on a train system that is subsidized, so it is OK.
    We appreciate you being here for your testimony. For the 
witnesses, obviously, all the witnesses--those who are still 
here, and those who have been--we want you to potentially be 
available to respond in writing to any questions that may be 
submitted by Members to the Subcommittee.
    I further ask that written testimony submitted by Herbert 
Stump or Stoop be entered into the record.
    [No response.]
    Mr. Bishop. And, without objection, so ordered. And if 
there is no further business, with our gratitude to the 
witnesses who have been here on these last three bills, as well 
as the other bills that have been before us, I thank you very 
much and we will stand adjourned.
    [Whereupon, at 12:24 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

 Statement submitted for the record by The Honorable Martin Heinrich, 
       a Representative in Congress from the State of New Mexico

    The Organ Mountains are one of the most iconic vistas in my home 
state of New Mexico, and I thank the committee for taking the time to 
consider the best way to provide them and other important natural and 
cultural resources in Dona Ana County permanent protection.
    I stand in strong support of the Organ Mountains-Desert Peaks 
National Monument proposal offered by citizens of Dona Ana County. This 
is an exciting proposal that reflects years of community discussions 
and has already received the endorsement of the Town of Mesilla and the 
Dona Ana County Commission as well as support from a diverse group of 
stakeholders ranging from sportsmen to veterans. This proposal reflects 
the best of southern New Mexico's unique Chihuahuan Desert ecosystems 
as well as nationally significant American and Pre-American history. 
The Organ Mountains-Desert Peaks National Monument would protect 
hunting, ranching and other valid and existing uses, while ensuring 
that future generations can enjoy this iconic American landscape as we 
do today. As the committee continues to consider the best way to 
protect the natural, cultural, and historical resources of Dona Ana 
County, I hope that this proposal will receive serious consideration.
    While I greatly appreciate Representative Pearce's support for a 
national monument in Dona Ana County, I have several significant 
concerns regarding H.R. 4334. Currently there are eight wilderness 
study areas in Dona Ana County totaling more than 220,000 acres. There 
is broad community consensus to not only protect these areas but also 
to protect adjacent regions known for their diverse landscapes and 
important history. Unfortunately, H.R. 4334 falls short of a solution 
to protect these lands. It would reduce the amount of land to be 
protected in the Organ Mountains by over 30 percent as compared to 
other proposals that have been endorsed by numerous local elected 
bodies, including the Dona Ana County Commission. Furthermore, and most 
problematic, H.R. 4334 would take a big step backward by eliminating 
the three Wilderness Study Areas within the Organ Mountains, thereby 
removing protections that have been in place for decades.
Permitted Uses
    Some have incorrectly argued that the Organ Mountains-Desert Peaks 
National Monument would negatively impact ranching and shut out 
important users like sportsmen. Both of these claims are false. 
Ranching continues to exist in all but one National Monument managed by 
the Bureau of Land Management created since 1982 in 13 western 
continental U.S. states over 10,000 acres in size. Consistent with this 
trend and as has been repeatedly stated by supporters of the Monument 
proposal, the Organ Mountain-Desert Peaks National Monument would 
protect ranchers' existing use of the designated area.
    In addition, hunting and motorized vehicle access continues today 
in all of the aforementioned National Monuments managed by the Bureau 
of Land Management. The Organ Mountain-Desert Peaks National Monument 
proposal would protect this access. In fact, numerous sportsman groups 
and individuals have endorsed the proposal specifically because of 
these protections as well as the protection of key regional habitat. 
The mountain ranges in the proposed monument include some of the most 
important wild game habitat in New Mexico. Mule deer, mountain lion, 
dove, quail, and many other species call the Sierra de las Uvas home. 
The Potrillo Mountains are especially significant with their ecological 
links to northern Mexico, and the Organ Mountains provide critical 
water resources to local wildlife. As proposed, the Organ Mountains-
Desert Peaks National Monument would make access by sportsmen a central 
part of the area's management and protection in perpetuity. That would 
ensure that when my sons are my age, they will be able to enjoy hunting 
for mule deer in the Las Uvas, or quail in the Robledos.
    Currently, the Bureau of Land Management manages the federal lands 
proposed for protection within the Organ Mountain-Desert Peaks National 
Monument, and it is the clear intent of local communities, supporters, 
and citizens to have the BLM continue to manage these public lands 
should they become a national monument. Claims that the Monument would 
no longer be managed by the BLM are false, and comparisons to the 
management of national monuments under the jurisdiction of the National 
Park Service can be very misleading.
Size of the Monument
    The Organ Mountains-Desert Peaks National Monument proposal's goal 
is to permanently protect the region's culturally rich public lands 
that have helped shape New Mexico's diverse heritage and help tell 
America's story. In order to protect this rich history and heritage and 
in accordance with the Antiquities Act of 1906, the Organ Mountains-
Desert Peaks National Monument proposal reflects the smallest size 
practicable. The boundaries have been carefully drafted to protect the 
region's nationally significant historical and cultural objects, 
including:
        <bullet>  Over 20 Miles of the historic Butterfield Stagecoach 
        Trail, currently in consideration by Congress to be designated 
        as a National Historic Trail
        <bullet>  Over 5000 petroglyph and other rare archeological 
        sites
        <bullet>  World War II Aerial Targets
        <bullet>  Apollo Mission Astronaut Training Sites
        <bullet>  Geronimo's Cave
        <bullet>  Billy the Kid's Outlaw Rock
        <bullet>  The Gadsden Purchase International Boundary
    Additionally, the Organ Mountains-Desert Peaks National Monument 
would protect truly iconic and diverse Chihuahuan Desert public lands 
that have little protection and representation within America's 
wilderness and national monument preservation systems. These public 
lands are nationally and internationally known and have helped shaped 
New Mexicans' way of life for countless generations. These areas 
include:
        <bullet>  Organ Mountains
        <bullet>  Potrillo Volcanic Field
        <bullet>  Kilbourne Hole (National Historic Landmark)
        <bullet>  Robledo Mountains (also home to the Prehistoric 
        Trackways National Monument)
        <bullet>  Broad Canyon
    I look forward to working with the citizens of Dona Ana County, 
Congress and the president to permanently protect the nationally 
significant lands, heritage, and history within the proposed Organ 
Mountains-Desert Peaks National Monument.
                                 ______
                                 

       Statement of The Honorable Dale Kildee, a Representative 
                 in Congress from the State of Michigan

    Mr. Chairman, colleagues, and witnesses, thank you for being here 
today for our subcommittee hearing.
    Today we see a wide range of bills, many dealing with designations 
for parks, rivers, and wilderness.
    We have a couple land exchanges, one for a well-known university 
icon in the west.
    Most of these bills are easy for me to support, but one or two make 
me question the reasoning for the bill.
    I want to welcome our witnesses today. I appreciate you coming here 
to present on these issues which speak to you.
    I look forward to a successful hearing today and I yield back the 
remainder of my time.
                                 ______
                                 
    [The documents listed below have been retained in the 
Committee's official files.]

        <bullet>  Atomic Heritage Foundation, Press release for the 
        Record, H.R. 5987
        <bullet>  Atomic Heritage Foundation, Statement for the Record, 
        H.R. 5987
        <bullet>  Atomic Heritage Foundation, Letter for the Record, 
        H.R. 5987
        <bullet>  Cooper, Tom and Carol, Letter for the Record, H.R. 
        4334
        <bullet>  County of Madera Board of Supervisors Comments for 
        the Record on H.R. 3640
        <bullet>  Delk, Byron, Mesilla Valley Sportsmen's Alliance, 
        Letter for the Record in support of H.R. 4334
        <bullet>  Dice, Jenn, International Mountain Bicycling 
        Association, Statement for the Record, H.R. 4109
        <bullet>  Dona Ana County Sheriff's Department, Letter for the 
        Record in support of H.R. 4334
        <bullet>  Dona Ana Soil and Water Conservation District, 
        Statement for the Record, H.R. 4334
        <bullet>  Donham, B.J., Letter for the Record, H.R. 4334
        <bullet>  Dowless, Linda, Letter for the Record, H.R. 4334
        <bullet>  Energy Communities Alliance, Statement for the 
        Record, H.R. 5987
        <bullet>  Greater Las Cruces Chamber of Commerce, Letter for 
        the Record in support of H.R. 4334
        <bullet>  Hartan, Cheryl, Letter for the Record in support of 
        H.R. 4334
        <bullet>  Huff, Fred, Letter for the Record in support of H.R. 
        4334
        <bullet>  Jeska, Robert, Letter for the Record in support of 
        H.R. 4334
        <bullet>  Los Padres Forest Watch, Comments for the Record on 
        H.R. 4109
        <bullet>  Massachusetts Audubon, Statement for the Record, H.R. 
        5319
        <bullet>  Massachusetts, Towns of Dunstable, Groton, Harvard, 
        Lancaster, Pepperell, Shirley, Townsend, and Ayer, Letters for 
        the Record, H.R. 5319
        <bullet>  Mattiace, William, Letter for the Record, H.R. 4334
        <bullet>  Mesilla Valley Sportsmen's Alliance, Letter for the 
        Record, H.R. 4334
        <bullet>  National Parks Conservation Association, Statement 
        for the Record, H.R. 5987
        <bullet>  National Trust for Historic Preservation, Letter in 
        support of H.R. 5987
        <bullet>  Richards, Ralph, Letter for the Record, H.R. 4334
        <bullet>  Richardson, Carol, Letter for the Record, H.R. 4334
        <bullet>  Rio Grande Soaring Association, Letter for the 
        Record, H.R. 4334
        <bullet>  Sanchez, John, State of New Mexico, Letter for the 
        Record in support of H.R. 4334
        <bullet>  Stupp, Herbert, Statement for the Record, H.R. 5958
        <bullet>  Westmont College, Letter for the Record concerning 
        H.R. 4109
        <bullet>  Wilderness Society, Letter for the Record on H.R. 
        4109 and H.R. 4334

                                 <all>

</pre></body></html>
